No.
In the Supreme Court of the United States

John E. Reardon, Petitioner, Pro Se
v
Officer Leason & Simon of Runnemede, Andrew Rossetti, Karen Caplan,
Kevin Walshe, James Farmer and Frank Soltis, Howard Gilfert, Warren Faulk,
Judges Joseph Greene and Isaiah Steinberg, James Mulvihill, D.Sgt. Bruce
Dawson, Appellate Judges Gaukin, Kestin, Hayden, Payne and Ashrafi, Judges
Wells, Freeman, Pugliese and Ragonese and Ms. Martha Shaw.
On Petition for a Writ of Certiorari
To the United States Cour of Appeals
For the Third Circuit

APPENDIX
John E. Reardon, Pro Se
1 Joans Lane
Berlin, N.J. 08009-1516
Home/Fax: 856-753-5116
Cell:
856-417-4131

Table Of Contents

Item

Page

1. Appellate Court Order

1

2. 6/27/14 Order of Judge Hillman

8

3. 1/7/15 Order Of Judge Hillmn

17

4. 7/2/15 Order of Judge Hillman

20

5. 1/2/20 Order of Judge Hillman

22

6. 1st Amended Complaint

24

7. Lawsuit

36

8. 2nd Amenend Complaint

45

9. Appellate Papers to Court

58

10. 1st Affidavit of Bias

85

11. 2nd Affidavit of Bias

88

12. Appearance of Bias on Service Issues

126

13. Letter attesting to bias by Judge Kugler

127

i

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1178
JOHN E. REARDON, Appellant
V.
ST A TE OF NEW JERSEY; JUDGE FREEMAN, of Camden County; JUDGE
PUGLIESE, of Camden County! JUDGE HAYDEN, of the State Appellate Court!
JUDGE PAYNE, of the State Appellate Court; JUDGE SHARAFI, of the State
Appellate Court; U.S. GOVERNMENT
On Appeal from the United States District Court for the
District of New Jersey 0(D.C. Civil Action No. 1-1 3*cv-05363)
District Judge- Honorable Noel L. Hillman
I
Submitted Pursuant to Third Circuit LAR 34.1 (a) July 14, 2020
Before^ AMBRO, GREENAWAY, Jr., and PORTER, Circuit Judges
JUDGMENT
This cause came to be considered on the record from the United States
District Court for the District of New Jersey and was submitted pursuant to Third
Circuit LAR 34.1(a) on July 14, 2020. On consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the judgment of the District
Court entered January 2, 2020, be and the same is hereby affirmed; in all other
respects, the appeal is dismissed. Costs taxed against the appellant. All of the above
in accordance with the opinion of this Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk

Dated: August 11, 2020
A1

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1178
JOHN E. REARDON, Appellant
V.
ST A TE OF NEW JERSEY; JUDGE FREEMAN, of Camden County; JUDGE
PUGLIESE, of Camden County; JUDGE HAYDEN, cf the State Appellate Court;
JUDGE PAYNE, of the State Appellate Court; JUDGE SHARAFI, of the State
Appellate Court; U.S. GOVERNMENT
On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. l-13-cv-05363)
District Judge: Honorable Noel L. Hillman
Submitted Pursuant to Third Circuit LAR 34.1(a)
July 14, 2020
Before: AMBRO, GREENAWAY, Jr., and PORTER, Circuit Judges
(Opinion filed: August 11, 2020)
OPINION*
PERCURIAM
* This disposition is not an opinion of the full Court and pursuant to I. 0 .P. 5. 7
does not constitute binding precedent.

A2

John Reardon appeals an order denying post-judgment motions that he filed
years after the dismissal of his complaint. For the following reasons, we will affirm
in part and will dismiss the appeal in part for lack of appellate jurisdiction.
On September 9, 2013, Reardon filed suit against the State of New Jersey,
several state court judges (collectively "State Defendants"), and the U.S.
Government. Reardon sought to challenge as unconstitutional a 1992 state criminal
conviction and the subsequent denial of his post-conviction relief.
After various amendments to the complaint, the District Court granted the
State Defendants' motion to dismiss on June 27, 2014. The District Court determin­
ed that Reardon's claims were barred by the doctrines of sovereign and judicial
immunity, as well as the Rooker-Feldman[l] and Heck[2] doctrines. The Court also
denied Reardon's request to file another amended complaint, finding that it would
be futile. On July 7, 2014, Reardon timely filed a motion for reconsideration, which
was ultimately denied on January 7, 2015. Reardon did not appeal, electing instead
to file various requests for further relief in the District Court. The case was re-open­
ed briefly on July 2, 2015, so that the District Court could deny the various requests
, and then the case was marked terminated.
Nearly four years later, on June 4, 2019, Reardon filed a motion "to set aside
1 Rooker v. Fid. Tr. Co., 263 U.S. 413 (1923); D.C. Comi of Appeals v. Feldman, 460
U.S. 462 (1983).
2 Heck v. Humphrey, 512 U.S. 477 (1994).
2

A3

dismissal and for leave to Amend." Dkt. #42. Subsequently, Reardon submitted a
flurry of twenty-four additional filings, which included a motion "for an order of
compliance." Dkt. #53. Within a single order entered January 2, 2020, the-District
Court re-opened the case, denied both motions, and ordered the case terminated
,once again.3 Reardon filed a notice of appeal on January 24, 2020.
Initially, we must note the scope of our jurisdiction. On appeal, Reardon
seeks to revisit the District Court's June 27, 2014 opinion, which granted the State
Defendants' motion to dismiss, and the District Court's subsequent denials of his
post-judgment motions on January 7 and July 2, 2015. We lack appellate jurisdic­
tion to do so. Reardon's notice of appeal was filed January 24, 2020, which is well
outside the time that would allow us to review any of those decisions by the District
Court-even when considering any tolling of the time to appeal by Reardon's post­
judgment motions. See Fed. R. App. P. 4(a)(l)(B)(i) (providing for a 60-day appeal
period when the United States is a party); Fed. R. App. P. 4(a)(4)(A) (noting if a
party timely files a motion for reconsideration under Rule 59(e) in the district court,
the time to file an appeal runs from the entry of the order disposing of that motion).
However, we have jurisdiction under 28 U.S.C. § 1291 to consider the District
Court's order denying Reardon's motion "to set
3 Treating the motion to "set aside dismissal for leave to Amend" as another motion
for reconsideration, the District Court pointed to its previous January 7, 2015
opinion and order, and noted that Reardon's motion was essentially a repeat of his
previous motions. The District Court denied the motion "for an order of compliance"
because it contained discovery-related requests, and the court did not have any
pending litigation over which it had jurisdiction.
3

A4

aside dismissal and for leave to Amend" and his motion "for an order of compliance."
See Fed. R. App. 4(a)(1); Long v. At!. City Police Dep't, 670 F.3d 436,446 n.19 (3d
Cir. 2012) (stating that this Court has "jurisdiction to review a timely appealed
order disposing of an untimely motion for reconsideration"); Ohntrup v. Firearms
Ctr., Inc., 802 F.2d 676, 678 (3d Cir. 1986) (per curiam).
Reardon's motion "to set aside dismissal and for leave to Amend" is, as best
as we can tell, a motion for reconsideration pursuant to Federal Rule of Civil
Procedure 59(e) and/or for relief pursuant to Rule 60(b).4 We review denials of such
motions for an abuse of discretion. Long, 670 F.3d at 446 (stating that "our review
of the order denying reconsideration is subject to a more deferential and circumscrib
-ed standard of review than would apply if we also were to have jurisdiction to
consider the underlying dismissal order"); Reform Patiy of Allegheny Cty. v.
Allegheny Ctv. Dep't of Elections, 174 F.3d 305, 311 (3d Cir. 1999) (Rule 60(b)
standard). Likewise, we review the denial of Reardon's motion "for an order of
compliance”-which seeks relief on discovery-related matters-for an abuse of discre­
tion. See Gallas v. Supreme Court of Pa., 211 F.3d 760, 778 (3d Cir. 2000). "To
demonstrate an abuse of discretion, [Reardon] must show that the District Court's
decision was arbitrary, fanciful or clearly unreasonable." Hart v. Elec. Alis, Inc.
4 The District Court treated the filing as a motion for reconsideration under Rule
59(e). However, the motion does ask the court to re-open the complaint because of
"fraud upon the court." See Fed. R. Civ. P. 60(b)(3); see also Ahmed v. Dragovich,
297 F.3d 201, 208 (3d Cir. 2002) (noting an appellate court is free to recharacterize
a motion to match the substance of the relief sought). Regardless of how we
characterize Reardon's motion, our conclusion is the same.
4
A5

717 F.3d 141, 148 (3d Cir. 2013) (internal quotation marks omitted).
Here, the District Court did not abuse its discretion in denying either motion.
First, Reardon's motion pursuant to Rule 59(e) and/or Rule 60(b) was filed far past
the time allowed for such a post-judgment motion. See Fed. R.' Civ. P. 59(e); 60(c).
Second, as noted by the District Court, Reardon's motion was essentially a repeat of
his prior motions, and thus was an improper attempt to relitigate matters the
District Court had already previously determined. See Exxon Shipping Co. v. Baker,
554 U.S. 471,485 n.5 (2008) (noting "Rule 59(e) permits a court to alter or amend a
judgment, but it may not be used to relitigate old matters, or to raise arguments or
present evidence that could have been raised prior to the entry of judgment" (intern
-al quotation marks omitted)). Quite simply, Reardon failed to present to the
District Court any of the grounds that would allow a judgment to be altered,
amended, or set aside. Fed. R. Civ. P. 60(b)(l)(6); United States ex rel. Schumann v.
AstraZeneca Pharm. L.P., 769 F.3d 837, 848-49 (3d Cir. 2014) (noting a judgment
"may be altered or amended if the party seeking reconsideration shows at least one
of the following grounds: (l) an intervening change in the controlling law; (2) the
availability of new evidence that was not available when the court granted the
motion for summary judgment; or (3) the need to correct a clear error of law or fact
or to prevent manifest injustice" (internal quotation marks omitted)). Likewise, the
District Court did not abuse its discretion in denying Reardori's motion "for an
order of compliance," as the case was marked terminated on July 2, 2015, and thus
the court had no pending action before it when Reardon sought-his relief four years
5
A6

later.
Consequently, for the foregoing reasons, we will affirm the judgment of the
District Court entered January 2, 2020. In all other respects, we will dismiss the
appeal for lack of appellate jurisdiction.

6

A7

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
JOHN E. REARDON,
Civ. No. 13-5363 (NLH)
Plaintiff,
v.

OPINION

State of New Jersey, et al
Defendants.
Appearances:
JOHN E. REARDON
1 JOANS LANE
BERLIN, NJ 08009
Pro Se Plaintiff
BRIAN P. WILSON
STATE OF NEW JERSEY
OFFICE OF THE ATTORNEY GENERAL
DIVISION OF LAW
25 MARKET STREET
P.O. BOX 112
TRENTON, NJ 08625
Attorney for Defendants State of New Jersey, the Hon. Victor Ashrafi, J.A.D., the
Hon. Margaret M. Hayden, J.A.D., the Hon. Edith K. Payne, J.S.C., the Hon.
Anthony M. Pugliese, J.S.C. and the Hon. Ronald J. Freeman, J.S.C. (retired)
HILLMAN, District Judge
Before the Court is a motion to dismiss filed by defendants the State of New
Jersey, the Hon. Victor Ashrafi, J.A.D., the Hon. Margaret M. Hayden, J.A.D.,
the Hon. Edith K. Payne, J.S.C., the Hon. Anthony M. Pugliese, J.S.C. and the
Hon.Ronald J. Freeman, J.S.C. (retired) (collectively “State defendants”). Also
before the Court is plaintiffs motion for leave to amend his complaint. For the
reasons that follow, the defendants’ motion will be granted and the plaintiffs
motion will be denied.

I. FACUTUAL AND PROCEDURAL BACKGROUND
A8

Plaintiff was convicted in 1992 in the State of New Jersey for (l) third*degree
possession of a destructive device in violation of N.J. STAT. ANN. 2U39-3(a); (2)
second-degree possession of explosive material with intent to use it against another
in violation of N.J. STAT. ANN. 2C-'39'4(b)>' and (3) second-degree possession of a
destructive device with the intent to use it against another in violation of N.J.
STAT. ANN. 2C:39-4(c).
Following his 1992 conviction, plaintiff appealed and Judges Payne and
Hayden of the Superior Court of New Jersey, Appellate Division, affirmed. See
State v. Reardon, 2012 WL 10800, at *1-2 (N.J.Super.Ct. App. Div. Jan. 4, 2012).
On October 1, 2009, plaintiff filed a petition for post-conviction relief in the New
Jersey Superior Court. Id. By Order dated August 20, 2010, Judge Pugliese denied
plaintiffs motion. Id. On January 4, 2012, the Superior Court, Appellate Division,
affirmed, on grounds that plaintiffs petition was untimely, that his arguments were
barred because they were previously litigated and that his arguments lacked merit.
Id. at *3-4.
Plaintiff then filed a complaint[l] before this Court alleging that his 1992
conviction and subsequent denial of his post-conviction relief (PCR) petition were
unconstitutional. Plaintiff states that he is not asking this Court “to set aside his
conviction” but rather he asks the Court to find his conviction unconstitutional and
enjoin the enforcement of the conviction.
The State defendants move to dismiss plaintiffs complaint. In response,
plaintiff moves to amend his complaint.
II. STANDARDS FOR MOTION TO DISMISS PURSUANT TO FED. R.CIV.
P. 12(b)(1) and (6)
The State defendants argue that plaintiffs claims are absolutely barred by
the doctrine of Eleventh Amendment sovereign immunity. As plead, Eleventh
Amendment immunity is a challenge to this Court’s subject matter jurisdiction and,
therefore, is determined pursuant to Fed. R. Civ. P. 12(b)(1). Gould Elecs., Inc. v.
United States, 220 F.3d 169, 178 (3d Cir. 2000). Rule 12(b)(1) motions are either
facial or factual challenges. CNA v.United States, 535 F.3d 132, 140 (3d Cir. 2008).
A facial attack concerns the sufficiency of the pleadings, whereas a factual
1 Plaintiff filed his original complaint on September 9, 2013, and served it on the
State defendants on September 26, 2013. He filed an “amended complaint” as a
matter of course on October 8,2013, pursuant to Fed. R Civ. P. 15(a)(1)(A). The
amended complaint is not a fully amended complaint, but rather, is a recitation of
some additional allegations. The Court will treat the complaint and amended
complaint as one complaint and will refer to both as simply the complaint.
A9

In deciding a motion that attacks the complaint on its face, the court must
accept Elecs., 220 F.3d at 176 (“In reviewing a facial attack, the court must only
consider the allegations of the complaint and documents referenced therein and
attached thereto, in the light most favorable to the plaintiff”)
If the motion attacks the facts supporting jurisdiction, “no presumptive
truthfulness attaches to plaintiff’s allegations, and the existence of disputed
material facts will not preclude the trial court from evaluating for itself the merits
of jurisdictional claims.” Mortensen v. First Federal Sav. and Loan Ass'n,
549 F.2d 884, 891 (3d Cir. 1977). The plaintiff will have the burden of proof that
jurisdiction does in fact exist. Id. [Comment- even assuming this is the valid
procedure, where is the plaintiff allowed to gather evidence to support his claim.The
defendants are required to prove they are immune under the circumstances and the
court never made them do that and I was denied the right to question the judges for
proof of the allegations but was denied a hearing to do so.]
Here, the State defendants are making a facial attack that plaintiff’s claims
are barred by sovereign immunity and, therefore, the Court accepts the allegations
in plaintiffs complaint as true.
Alternatively, the State defendants argue that plaintiffs claims are barred
under the doctrine of judicial immunity pursuant to Fed. R. Civ. P. 12(b)(6). See
Melo v. Hafer,13 F.3d 736, 744 (3d Cir. 1994) (If a defendant believes facts alleged
entitle him to absolute judicial immunity, he may file a motion to dismiss pursuant
to Fed.R.Civ. P. 12(b)(6)).
When considering a motion to dismiss a complaint for failure to state a claim
upon which relief can be granted pursuant to Fed. R. Civ. P. 12(b)(6), a
court must accept all well-pleaded allegations in the complaint as true and view
them in the light most favorable to the plaintiff. Evancho v. Fisher, 423 F.3d
347, 351 (3d Cir. 2005). It is well settled that a pleading is sufficient if it contains “a
short and plain statement of the claim showing that the pleader is entitled to relief.
” Fed. R.Civ. P. 8(a)(2). Under the liberal feder -al pleading rules, it is not necessary
to plead evidence, and it is not necessary to plead all the facts that serve as a basis
for the claim. Bogosian v.Gulf Oil Corp., 562 F.2d 434, 446 (3d Cir. 1977). However,
“[allthough the Federal Rules of Civil Procedure do not require a claimant to set
forth an intricately detailed description of the asserted basis for relief, they do
require that the pleadings give defendant fair notice of what the plaintiffs claim is
and the grounds upon which it rests.” Baldwin County Welcome Ctr. v.Brown, 466
U.S. 147, 149-50 n.3 (1984) (quotation and citation omitted).
A district court, in weighing a motion to dismiss, asks “‘not whether a
plaintiff will ultimately prevail but whether the claimant is entitled to offer
evidence to support the claim.’” Bell Atlantic v. Twombly, 127 S.Ct. 1955, 1969 n.8
A10

(2007) (quoting Scheuer v. Rhoades, 416 U.S. 232, 236 (1974)); see also Ashcroft v.
Iqbal, 129 S. Ct. 1937, 1949 (2009) (“Our decision in Twombly expounded the
pleading standard for ‘all civil actions’.. ..”); Fowler v. UPMC Shadyside, 578 F.3d
203, 210 (3d Cir.2009) (“Iqbal. . . provides the final nail-in-the-coffin for the ‘no set
of facts’ standard that applied to federal complaints before Twombly.”).
Following the Twombly/Iqbal standard, the Third Circuit has instructed a
two-part analysis in reviewing a complaint under Rule 12(b)(6). First, the factual
and legal elements of a claim should be separated; a district court must accept all of
the complaint's well-pleaded facts as true, but may disregard any legal conclusions.
Fowler, 578 F.3d at 210 (citing Iqbal, 129 S.Ct. at 1950). Second, a district court
must then determine whether the facts alleged in the complaint are sufficient to
show that the plaintiff has a “‘plausible claim for relief.’” Id.(quoting Iqbal, 129
S.Ct. at 1950). A complaint must do more than allege the plaintiffs entitlement to
relief. Id.; see also Phillips v. County of Allegheny, 515 F.3d 224, 234 (3d Cir.
2008)(stating that the “Supreme Court's Twombly formulation of the pleading
standard can be summed up thus: ‘stating ... a claim requires a complaint with
enough factual matter (taken as true) to suggest’ the required element. This ‘does
not impose a probability requirement at the pleading stage,’ but instead ‘simply
calls for enough facts to raise a reasonable expectation that discovery will reveal
evidence of the necessary element”). A court need not credit either “bald assertions”
or “legal conclusions” in a complaint when deciding a motion to dismiss. In re
Burlington Coat Factory Sec. Litig., 114 F.3d 1410, 1429*30 (3dCir. 1997). The
defendant bears the burden of showing that no claim has been presented. Hedges v.
U.S., 404 F.3d 744, 750 (3d Cir. 2005) (citing Kehr Packages, Inc. v. Fidelcor, Inc.,
926 F.2dl406, 1409 (3d Cir. 1991)).
III. DISCUSSION
Even though a pro se complaint must be construed liberally, [2] plaintiffs
complaint must be dismissed on grounds of sovereign immunity and judicial Immun
-ity. As defendants are immune from suit, amendment of plaintiffs complaint would
be futile. [3]
2 “[A] pro se complaint, however inartfully pleaded, must be held to less stringent
standards than formal pleadings drafted by lawyers.” Estelle v. Gamble, 429 U.S.
97, 107 (1976).
3 Alternatively, the State defendants argue that plaintiff s claims are barred by the
Heck and Rooker- Feldman doctrines, as well as res judicata and collateral estoppel.
Also, the State defendants argue they are not persons amenable to suit under 42
Rooker-Feldman doctrine bars his claim. Prater v. City of Philadelphia Family
Court, --- Fed.Appx. ----,2014 WL 2700095, at *3 (3d Cir. June 16, 2014); Taliaferro
v.Darby Tp. Zoning Bd., 458 F.3d 181, 193 (3d Cir. 2006) (Once a state court
proceeding has concluded, the Rooker-Feldman abstention doctrine applies when
the relief requested in the federal court would effectively reverse a state court
All

A. Claims Against State of New Jersey Must be Dismissed.
The Eleventh Amendment to the United States Constitution provides that,
“The Judicial power of the United States shall not be construed to extend to any
suit in law or equity, commenced or prosecuted against one of the United States by
citizens of another state, or by citizens or subjects of any foreign State.” U.S. Consti­
tutional Amendment XI. “An unconsenting state also is immune from suits by its
own citizens.” Tennessee Student Assistance Corp. V Hood, 541 U.S. 440, 446, 124
S.Ct. 1905 (2004).
As a general proposition, a suit by private parties seeking to impose a liabil­
ity which must be paid from public funds in a state treasury is barred from federal
court by the Eleventh Amendment, unless Eleventh Amendment immunity is waiv­
ed by the state itself or by federal statute. See, e.g., Edelman v Jordan , 415 U.S.
651, 663, 94 S.Ct. 1347, 39 L.Ed.2d 662 1974. The Eleventh Amendment protects
states and their agencies and departments from suit in federal court regardless of
the type of relief sought. See Pennhurst State School and Hospital v Halderman,
465 U.S. 89, 100, 104 S.Ct. 900, 79 L.Ed.2d 67 (1984). (citing Missouri v. Fiske, 290
U.S. 18, 27, 54 S.Ct. 18, 21, 78 L.Ed. 145 (1933)); Accord Quern v. Jordan, 440 U.S.
332, 342, 99 S.Ct. 1139, 1146, 59 L.Ed.2d 358 (1979) (holding that 42 U.S.C. § 1983
does not override States' Eleventh Amendment immunity).
The State of New Jersey has not waived its immunity and this Court lacks
subject matter jurisdiction over plaintiffs claims. Accordingly, the State of New
B. Claims Against State Court Judges Must be Dismissed.
decision or void its ruling); see also, Exxon Mobil Corp. v. Saudi Basic Indus. Corp.,
544 U.S. 280, 284 (2005) (The application of the Rooker-Feldman doctrine is
necessarily limited to “cases brought by state-court losers complaining of injuries
caused by state court judgments rendered before the district court proceedings
commenced and inviting district court review and rejection of those judgments.”). In
addition, plaintiffs § 1983 claims would also be barred by the Heck doctrine. Heck
v. Humphrey, 512 U.S. 477, 486-87, 114 S.Ct. 2364, 129 L.Ed.2d 383 (1994) (“when
a state prisoner seeks damages in a § 1983 suit, the district court must consider
whether a judgment in favor of the plaintiff would necessarily imply the invalidity
of his conviction or sentence; if it would, the complaint must be dismissed unless the
plaintiff can demonstrate the conviction or sentence has already been invalidated.”).
Plaintiff has not demonstrated that his conviction has been invalidated. To the
contrary, it was affirmed on appeal and his post-conviction relief petition was
denied in the state court proceedings. Because plaintiffs claims are barred by the
doctrines of sovereign immunity and judicial immunity, and alternatively by the
Rooker-Feldman and Heck doctrines, the Court will not address the remainder of
defendants’ alternative arguments.
A12

*

I

Plaintiff’s claims against defendants the Hon. Victor Ashrafi, J.A.D., the Hon.
Margaret M. Hayden, J.A.D., the Hon. Edith K. Payne, J.S.C., the Hon. Anthony M.
Pugliese, J.S.C. and the Hon. Ronald J. Freeman, J.S.C. (retired) (“State court
judges”) are also barred under the doctrines of sovereign immunity and judicial
Subject matter jurisdiction over plaintiffs claims. Accordingly, the State of New
Jersey is immune from suit and will be dismissed,
immunity.
As officers of the State of New Jersey, the State court judges enjoy sovereign
immunity. See Betts v. New Castle Youth Development Center, 621 F.3d 249,
254 (3d Cir. 2010) (“Individual state employees sued in their official capacity are
also entitled to Eleventh Amendment immunity because ‘official-capacity suits
generally represent only another way of pleading an action’ against the state.”)
(citing Hafer v. Melo, 502 U.S. 21, 25, 112 S.Ct. 358, 116 L.Ed.2d 301 (1991)).
The Eleventh Amendment, however, does permit suits for prospective
injunctive relief against state officials. See Ex parte Young, 209 U.S. 123, 28
S.Ct. 441, 52 L.Ed. 714 (1908). Plaintiffs may bring suit against state officers, but
their remedies are limited to those that are “designed to end a continuing violation
of federal law.” Green v. Mansour, 474 U.S. 64, 68, 106 S.Ct. 423, 88 L.Ed.2d 371
(1985). Plaintiffs may not be awarded damages or other forms of retroactive relief.
Pennhurst, 465 U.S. at 103.
In his complaint, plaintiff asks this Court to issue a “declaratory order that
the state Q violated his rights” and to “issue an injunction barring the State
and Federal Governments from using these convictions against him for any right,
privilege or immunity that the plaintiff would be entitled to absent the conviction.”
Plaintiffs request for declaratory or injunctive relief is not the kind that is permitt­
ed under the Eleventh Amendment exception. Plaintiff is not asking for prospective
relief, but for this Court to overturn his state court conviction as unconstitutional.
Accordingly, the remedy plaintiff seeks against the State defendants cannot proper­
ly be characterized as a claim for prospective relief “designed to end a continuing
violation of federal law.” Green, 474 U.S. at 68, 106 S.Ct. 423. Accordingly,
Plaintiffs request for injunctive relief shall also be dismissed. [4]
Additionally, under the doctrine of judicial immunity, a judge is entitled to
absolute immunity from civil suits for actions arising from his or her judicial
actions. See Mireles v. Waco, 502 U.S. 9, 10-11, 112 S.Ct. 286, 116 L.Ed.2d 9 (1991)
4 The Federal Courts Improvement Act of 1996 amended 42 U.S.C. §1983 to provide
that “in any action brought against a judicial officer for an act or omission taken in
such officer's judicial capacity, injunctive relief shall not be granted unless a declar­
atory decree was violated or declaratory relief was unavailable.” 42 U.S.C. § 1983;
see also Azubuko v. Royal, 443 F.3d 302, 303-04 (3d Cir. 2006).
A13

i

\

(explaining that “judicial immunity is an immunity from suit, not just from ulti­
mate assessment of damages,”); Pierson v. Ray, 386 U.S. 547, 553-554, 87 S.Ct.
1213, 18 L.Ed.2d 288 (1967) (“Few doctrines were more solidly established at
common law than the immunity of judges from liability for damages for acts
cannot be overcome by allegations of bad faith or malice. See id. at 11. There are
two exceptions for judicial immunity: (l) for non-judicial actions (actions not taken
in the judge’s judicial capacity); and (2) for actions, though judicial in nature, which
are taken in the complete absence of jurisdiction. See id. at 11-12.
Whether an act by a judge is a judicial one relates “to the nature of the act itself,
i.e., whether it is a function normally performed by a judge, and to the expectations
of the parties, i.e., Whether they dealt with the judge in his judicial capacity.”
Stump v. Sparkman, 435 U.S. 349, 362 (1978); see also Gallas v. Supreme Court of
Pa., 211 F.3d 760 (3d Cir. 2000).
Plaintiffs allegations are based on his state court criminal proceeding and
conviction. Plaintiff alleges that his conviction, and the denial of his PCR petition,
violated his constitutional rights. Plaintiffs claims against the State court judges
all arise from their judicial actions and, therefore, the State court judges are entit­
led to absolute judicial immunity.
Moreover, plaintiff fails to raise any allegation that would provide an excep­
tion to the State court judges’ judicial immunity. Plaintiff makes no claim regarding
any acts by the State court judges that could plausibly be construed as “nonjudicial”
acts. Likewise, plaintiff has not alleged any acts that could be construed to be “in
complete absence of all jurisdiction.”
Therefore, the State court judges are immune from suit. Plaintiffs claims
against the State court judge defendants will be dismissed.
C. U.S. Government Must be Dismissed
The Court notes that plaintiff also named the U.S. Government as a defend­
ant. Plaintiff makes no allegations against the U.S. Government in his complaint or
proposed amended complaint. Accordingly, this defendant must be dismissed. See
Salesky v. Balicki, No. 10-5158, 2013 WL 3200722, at *2 (D.N.J. June 24, 2013)
(finding no allegations of any wrongful conduct with respect to defendant and
dismissing § 1983 claims). Further, even though plaintiff filed a proof of service
stating that he served the summons on Eric Holder, he does not specify the date it
was allegedly served. Thus, plaintiff has not presented sufficient proof of service
that he complied with Fed.R.Civ.P.4(i) or (m). The U.S. Government has not filed an
appearance or responsive pleading. Since plaintiff has not prosecuted his case
against the U.S. Government, the U.S. Government is also subject to dismissal
pursuant to Local Rule 41.1(a).
A14

D. Amendment to the Complaint Would be Futile
Generally, the Federal Rules of Civil Procedure encourage and provide for a
liberal policy with regard to the amendment of pleadings. Pursuant to Federal Rule
of Civil Procedure 15(a) (2), "a party may amend its pleading only with the opposing
party's written consent or the court's leave." Fed. R.Civ. P. 15(a)(2). Rule 15(a)(2)
further "requires that leave to amend the pleadings be granted freely 'when justice
so requires.'" Long v Wilson, 393 F.3d 390, 400 (3d Cir. 2004) (citing Fed. R.Civ.P.
15(a)) ("We have held that motions to amend pleadings should be liberally granted.
"). In Foman v. Davis, 371 U.S. 178, 182 (1962), the Supreme Court articulated the
policy of "freely" granting leave to amend. See also Shane v. Fauver, 113 F.3d 113,
115 (3d Cir. 2000).
"[A]bsent undue or substantial prejudice, an amendment should be allowed
under Rule 15(a) unless denial [can] be grounded in bad faith or dilatory motive,
truly undue or unexplained delay, repeated failure to cure deficiency by amend­
ments previously allowed or futility of amendment." Long v. Wilson, 393 F.3d 390,
400 (3d Cir. 2004) (internal quotations, citations, and emphasis omitted); see also
Haynes v. Moore, 405 F. App'x 562, 564 (3d Cir.201l) (noting that even though
leave to amend under Rule 15 should be freely given, "a district court may exercise
its discretion and deny leave to amend on the basis of undue delay, bad faith, dila­
tory motive, prejudice, or futility.").
“The standard for assessing futility [of amendment] is the 'same standard of
legal sufficiency as applies under [Federal] Rule [of Civil Procedure] 12(b)(6).'"Great
W. Mining & Mineral (citing Shane v. Fauver, 213 F.3d 113, 115 (3d. Cir. 2000));
see also Alvin v. Suzuki, 227 F.3d 107, 121 (3d Cir. 2000) (“An amendment is futile
if the amended complaint would not survive a motion to dismiss for failure to state
a claim upon which relief could be granted.”).
Plaintiff alleges in his proposed amended complaint that Judge Steinberg
erroneously granted a search warrant; that Judges Steinberg and Greene failed to
recuse themselves; that Judge Pugliese denied his PCR motion for lack jurisdiction;
that Judge Freeman entered a “false” order! that Judges Sharafi, Payne and
Hayden accepted the “false” lower state court record and denied his appeal; and
that the Judges entered “false” orders denying plaintiffs relief. Plaintiffs allega­
tions all concern the State court judges’ judicial acts. As such, they are entitled to
immunity. Allowing plaintiff to amend the allegations in his complaint against the
State defendants would be futile. See Shearin v. Delaware, No. 02-276, 2003
WL 1697540, at *7 (D.Del. Mar. 21, 2003) (“[I]t is clear that allowing Plaintiff to
amend her complaint in this manner would be futile because judges and judicial
officers are entitled to absolute immunity from suit for damages under 42 U.S.C. §
1983) (citations omitted).
A15

Additionally, plaintiff does not make any specific allegations against the U.S.
Government in his amended complaint.
Therefore, allowing plaintiff to file the amended complaint would be futile
because there are no allegations that could support a claim against this defend­
ant. Jablonski v. Pan American World Airways, Inc., 863 F.2d 289, 292 (3d Cir.
1988) (An amendment to a complaint is futile “if the amended complaint cannot
withstand a motion to dismiss.”). In addition, plaintiff has presented no claim in his
amended complaint that could overcome the federal government’s sovereign
immunity. See Azubuko v. Saris, 167 Fed.Appx. 317, 319 (3d Cir. 2006) (“Absent a
waiver,sovereign immunity shields the Federal Government... from suit.”) (citing
FDIC v. Meyer, 510 U.S. 471, 475, 114 S.Ct. 996, 127 L.Ed.2d 308 (1994)).
Therefore, any amendment to plaintiffs complaint against the U.S. Govern­
ment would be futile.
IV. CONCLUSION
The State defendants’ motion to dismiss will be granted and the State
defendants shall be dismissed. The U.S. Government shall be dismissed as a defend
-ant. Plaintiffs motion for leave to amend his complaint shall be denied on grounds
of futility. [Mr. Reardon does admit the lawsuit did not state specifics. See
Amendments sought on pages App. 26-32 below.]
s/Noel L. Hillman
NOEL L. HILLMAN, U.S.D.J.

At Camden, New Jersey
Dated: June 27, 2014

A16

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
JOHN E. REARDON,
Civ. No. 13-5363 (NLH)
Plaintiff,
OPINION

v.
State of N.J., et al.,
Defendants.
Appearances^

JOHN E. REARDON
1 JOANS LANE
BERLIN, NJ 08009
Pro Se Plaintiff
BRIAN P. WILSON
STATE OF NEW JERSEY
OFFICE OF THE ATTORNEY GENERAL
DIVISION OF LAW
25 MARKET STREET
P.O. BOX 112
TRENTON, NJ 08625
Attorney for Defendants State of New Jersey, the Hon.Victor Ashrafi, J.A.D., the
Hon. Margaret M. Hayden, J.A.D., the Hon. Edith K. Payne, J.S.C., the Hon.
Anthony M. Pugliese, J.S.C. and the Hon. Ronald J. Freeman, J.S.C. (retired)
HILLMAN, District Judge
Presently pending before the Court is the motion of plaintiff for reconsidera­
tion of the Court’s June 27, 2014 Opinion dismissing his complaint and denying his
motion for leave to file an amended complaint. Also pending is plaintiffs renewed
request to file an amended complaint.
Briefly, by way of background, plaintiff filed suit against defendants the
State of New Jersey, the Hon. Victor Ashrafi, J.A.D., the Hon. Margaret M. Hayden,
J.A.D., the Hon. Edith K. Payne, J.S.C., the Hon. Anthony M. Pugliese, J.S.C. and
the Hon. Ronald J. Freeman, J.S.C. (retired) (collectively “State defendants”),asking
that this Court deem unconstitutional his state criminal conviction and to enjoin
the enforcement of his criminal conviction. In the Court’s June 27, 2014 Opinion,
A17

the Court dismissed plaintiffs complaint with prejudice, finding that plaintiffs
claims were barred by the doctrines of sovereign immunity and absolute judicial
immunity, and the RookerFeldman and Heck doctrines. The Court also denied
plaintiffs request to file an amended complaint, finding that it would be futile to
grant plaintiffs request.
A judgment may be altered or amended only if the party seeking reconsidera­
tion shows: (1) an intervening change in the controlling law; (2) the availability of
new evidence that was not available when the court granted the motion for
summary judgment; or (3) the need to correct a clear error of law or fact or to
prevent manifest injustice. Max’s Seafood Cafe ex rel. Lou-Ann,Inc. v. Quinteros,
176 F.3d 669, 677 (3d Cir. 1999). A motion for reconsideration may not be used to
re-litigate old matters or argue new matters that could have been raised before the
original decision was reached, P. Schoenfeld Asset Mgmt., L.L.C. v. Cendant Corp.,
161 F. Supp. 2d 349, 352 (D.N.J. 2001), and mere disagreement with the Court will
not suffice to show that the Court overlooked relevant facts or controlling law,
United States v. Compaction Sys. Corp., 88 F.Supp. 2d 339, 345 (D.N.J. 1999), and
should be dealt with through the normal appellate process,S.C. ex rel. C.C. v.
Deptford Twp Bd. of Educ., 248 F. Supp. 2d 368, 381 (D.N.J. 2003).
Amendments to pleadings are governed by Federal Civil Procedure Rule 15,
which provides that the Court “should freely give leave when justice so requires.”
Fed. R. Civ. P. 15(a)(2). Even though the Third Circuit has shown a strong liberality
in allowing amendments under Rule 15 in order to ensure that claims will be decid­
ed on the merits rather than on technicalities, Dole v. Arco Chemical Co., 921 F.2d
484, 487 (3d Cir. 1990); Bechtel v. Robinson, 886 F.2d 644, 652 (3d Cir. 1989), an
amendment must be permitted only in the absence of undue delay, bad faith,
dilatory motive, unfair prejudice, or futility of amendment, Grayson v. Mayview
State Hosp., 293 F.3d 103, 108 (3d Cir. 2002) (citing Foman v. Davis, 371 U.S. 178,
182 (1962)). Amendment of the complaint is futile if the amendment will not cure
the deficiency in the original complaint or if the amended complaint cannot
withstand a renewed motion to dismiss. Jablonski v. Pan American World Airways,
Inc., 863 F.2d 289, 292 (3d Cir. 1988); see also Fletcher-Harlee Corp. v. Pote
Concrete Contractors, Inc., 482 F.3d 247, 251 (3d Cir. 2007) (explaining that Third
Circuit precedent “supports the notion that in civil rights cases district courts must
offer amendment--irrespective of whether it is requested--when dismissing a case
for failure to state a claim unless doing so would be inequitable or futile”).
[Comment: This motion to amend is not governed by Rules 59and as the prior order
is final and the Third Circuit has held that once a final order is entered, the reques
to open and amend is governed by Rule 60 and Judge Hillman has applied the
wrong law and has also not held to the law on loss of jurisdiction and void proceed­
ings for which Judge Hillam made a clear error of the law and facts as per his
reasons top set asiode such proceedings on page A17 above and for which under
U.S. v Beggerly he has the right to so allow re-opening and amending of the law­
suit.]
A18

Plaintiffs current motions do not meet the standards for granting plaintiffs
request for reconsideration and for filing an amended complaint. Plaintiff has not
presented to the Court any change in law or the discovery of any new evidence since
the entry of the Court’s Order, and plaintiff has not demonstrated the need to
correct a clear error of law or fact or to prevent manifest injustice. Moreover, plain­
tiffs proposed amended complaint, which appears to retain all the same claims
against the same defendants, fails for the same reasons explained by the Court in
the June 27, 2014 Opinion.
Consequently, plaintiffs motion for reconsideration and plaintiffs motion for
leave to file an amended complaint must be denied. An appropriate Order will
be entered.
Date: January 7, 2015

s/ Noel L. Hillman
At Camden, New Jersey NOEL L. HILLMAN, U.S.D.J.

A19

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
JOHN E. REARDON,
Civ. No. 13-5363
(NLHXAMD)
Plaintiff,
v.

MEMORANDUM
OPINION & ORDER

State of New Jersey, et
al„
Defendants.
AppearancesJOHN E. REARDON
1 JOANS LANE
BERLIN, NJ 08009
Pro Se Plaintiff
BRIAN P. WILSON
STATE OF NEW JERSEY
OFFICE OF THE ATTORNEY GENERAL
DIVISION OF LAW
25 MARKET STREET
P.O. BOX 112
TRENTON, NJ 08625
Attorney for Defendants State of New Jersey, the Hon. Victor Ashrafi, J.A.D., the
Hon. Margaret M. Hayden, J.A.D., the Hon. Edith K. Payne, J.S.C., the Hon.
Anthony M. Pugliese, J.S.C. and the Hon. Ronald J. Freeman, J.S.C. (retired)
HILLMAN, District Judge
WHEREAS, on January 7, 2015, this Court having denied plaintiffs second
motion for leave to file an amended complaint [26] and plaintiffs motion for recon­
sideration of the Court’s June 27, 2014 Opinion dismissing his complaint and deny­
ing his first motion for leave to file an amended complaint [22]; and
On February 6, 2015, plaintiff having filed two motions, which were docketed
on February 9, 2015^
A20

(1) “MOTION to Set Aside the Order of Dismissal of this Case and for Leave
to Amend” [36], and
(2) “MOTION for Relief Under F.R.Civ.Proc. 60(b)(1)” [37]; and On February
20, 2015, plaintiff having sent the Clerk of the Court a letter, in which he states, in
relevant part, “[T]he plaintiff does ask this court to dismiss and ignore the motion of
reconsideration of 2/6/15 and papers recently sent in on 2/16/15 and not consider
such motion so that the plaintiff may proceed on the new lawsuit based upon the
rights denied by the state as set out in Statements 6 and 8 of the recent motion.”
(Docket No. 40); and
The Clerk of the Court having terminated plaintiffs “MOTION for Relief
Under F.R.Civ.Proc. 60(b)(1)” [37]; but Remaining pending is plaintiffs “MOTION
to Set Aside the Order of Dismissal of this Case and for Leave to Amend” [36]; and
Even though plaintiff s letter is unclear, the Court construing plaintiffs
February 20, 2015 letter to ask that both of his pending motions be withdrawn!
but to the extent that plaintiff intended to only withdraw the “MOTION for Relief
Under F.R.Civ.Proc. 60(b)(1)” [37] and leave his “MOTION to Set Aside the Order of
Dismissal of this Case and for Leave to Amend” [36] pending, the Court finding that
it fails for the same reasons as his prior motions, as expressed in the Court’s
January 7, 2015 Opinion!
Accordingly,
IT IS on this 2nd day of July , 2015
ORDERED that the Clerk shall reopen the case and shall make a new and
separate docket entry
reading “CIVIL CASE REOPENED”; and it is further ORDERED that plaintiff s
“MOTION to Set Aside the Order of Dismissal of this Case and for Leave to Amend”
[36] be, and the same hereby is, DENIED; and it is further
ORDERED that the Clerk shall reclose the file and make a new and separate
docket entry reading “CIVIL CASE TERMINATED.”
s/ Noel L. Hillman
At Camden, New Jersey NOEL L. HILLMAN, U.S.D.J.

A21

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
JOHN E. REARDON,
Civ. No. 13-5363 (NLH) (AMO)
Plaintiff,
v

MEMORANDUM OPINION & ORDER

STATE OF NEW JERSEY, et al.,
Defendants.
APPEARANCES:
JOHN E. REARDON
1 JOANS LANE
BERLIN, NJ 08009
Plaintiff appearing prose
BRIAN P. WILSON STATE OF NEW JERSEY
OFFICE OF THE ATTORNEY GENERAL
DIVISION OF LAW
25 MARKET STREET
P.O. BOX 112
TRENTON, NJ 08625
Attorney for Defendants State of New Jersey, the Hon. Victor Ashrafx/ J.A.D. / the
Hon. Margaret M. Hayden/ J.A.D./ the Hon. Edith K. Payne/ J.S.C./ the Hon.
Anthony M. Pugliese/ J.S.C. and the Hon. Ronald J. Freeman/ J.S.C. (retired)
HILLMAN, District Judge
WHEREAS, on January 7, 2015, this Court denied Plaintiffs second motion
for leave to file an amended complaint [26] and Plaintiffs motion for reconsidera­
tion of the Court's June 27, 2014 Opinion dismissing his complaint and denying his
first motion for leave to file an amended complaint [22]; and
WHEREAS, on July 2, 2015, this Court denied Plaintiffs "MOTION to Set
Aside the Order of Dismissal of this Case and for Leave to Amend" [ 36] ; and
WHEREAS, currently pending before the Court is Plaintiffs "MOTION to set
aside dismissal and for leave to Arnend/Correct" [42] and "MOTION for an order of
compliance" [53); and [l]
WHEREAS, with regard to Plaintiffs "MOTION to set aside dismissal and
for leave to Amend/Correct" [42], the Court adopts its January 7, 2015 Opinion and
A22

Order (Docket No. 29, 30) because Plaintiffs instant motion is essentially a repeat
of his motions seeking the same relief, and the bases for the denial of those motions
apply equally to his current motion! and
WHEREAS, with regard to Plaintiffs "MOTION for an order of compliance"
[53], Plaintiff requests that the Court order the Camden County Public Defender's
Office and the Attorney General's Office to provide him with the addresses of
thirteen individuals, several of whom had been named as defendants in Plaintiffs
original complaint, or provide him with the name of an individual authorized to
accept service of process for them! and
WHEREAS, the Court cannot provide the relief Plaintiff seeks because there
is no pending action over which this Court has jurisdiction to issue any orders
regarding service of process or other discovery-related requests! Accordingly,'
IT IS on this 2nd day of January, 2020
ORDERED that the Clerk shall reopen the case and shall make a new and
separate docket entry
reading "CIVIL CASE REOPENED"! and it is further
ORDERED that Plaintiffs "MOTION to set
aside dismissal and for leave to Amend/Correct" [42] and "MOTION for an order of
compliance" [53] be, and
the same hereby are, DENIED! and it is further
The Court notes that on October 16, 2019,
Robert B. Kugler, U.S.D.J., issued a litigation preclusion order against Plaintiff in__
ORDERED that the Clerk shall re-close the file
and make a new and separate docket entry reading "CIVIL CASE TERMINATED."
1 The Court's last docket entry was the July 2, 2015 Memorandum Opinion and
Order denying Plaintiffs "MOTION to Set Aside the Order of Dismissal of this Case
and for Leave to Amend" [36]. Plaintiff filed his "MOTION to set aside dismissal
and for leave to Amend/Correct" [42) almost four years later on June 4, 2019. Since
then, Plaintiff has sent for docketing 24 additional submissions in this case.
L18-CV-11372- RBK-AMD that provides:
"ORDERED that. John E. Reardon shall be, and is hereby, ENJOINED from
filing any further complaint, lawsuit, or petition in the United States District Court
for the District of New Jersey without prior authorization of the Court! and it is
further
ORDERED that in the event that John E. Reardon desires to file any further
complaint, lawsuit, or petition in the United States District Court for the District of
New Jersey, he shall file an appropriate motion for leave to file such complaint,
lawsuit, or petition under the present docket number." (bl8-cv-11372, Docket No.
74.) Since Judge Kugler issued the litigation preclusion order, Plaintiff has filed 39
submissions in that action.
s/ Noel L. Hillman
NOELL. HILLMAN, U.S.D.J.
At Camden, New Jersey
A23

United State District Court for
The District of New Jersey
John E. Reardon
Civil Case No. l-13-cv*05363
Plaintiff,
[1/10/15 additional Amendments]
v
:1st attempt to Amend. Clearly States
Judges Steinberg & Greene of Camden: Appropriate case law and facts for
: liability
County, Sgt.Simon,Sgt.Dawson, Karen:
Kaplan And Andrew Rossetti of
:
of the Camden Camden County
: Complaint with Jury Trial Demand
Prosecutor's Office & Judges Gaukin :
and Kestin Appellate Court
:
Defendants.
Facts
1. Judges Greene and Steinberg in fact lost jurisdiction, did usurp jurisdic­
tion, over the plaintiff's criminal proceedings back between June 20, 1990 and
February 20, 1992 due to the lawsuits the plaintiff had against these Judges based
upon the Common Law of England, in particular Regina v O'Grady, 7 Cox C.C. 247,
The Queen v The Justices of Suffolk, 18 Q.8. 416, Q. B. EASTER TERM.; April 29th ,
1852 and The Queen v the Justices of London, London, 18 Q.B. 421, April 29th, 1852
which holds that when a Judge should recuse himself and he doesn't the proceed­
ings are Invalid or in other words Void.
2. The Plaintiff had the following lawsuits pending prior to or during the
actions and involvement of Judges Steinberg and Greene.
A. 85-0097;

A24

B. 89-00223;
C. 89-01870;
D. 90-04551; and
E. 91-0557.
3. The Defendants Steinberg and Greene had a very strong and personal
interest in the Plaintiff which was consistent with the necessity for them to
recuse themselves sua sponte as per N.J.S.A. 2A:15- 49(e) and Regina v O'Grady, 7
Cox C.C. 247; The Queen v The Justices of Suffolk, 18 Q.B. 416; Q. B. EASTER
TERM., April 29th , 1852 and The Queen v the Justices of London, London. 18 Q.B.
421, April 29th, 1852 and their failure to so do requires the finding of all orders,
decrees, judgments and decisions are null and void or invalid and being contrary to
the law. They did Obstruct Justice contrary to N.J.S.A. 2C:29-2 and did commit
Official Misconduct contrary to N.J. S.A. 2C:302.
4. The Defendants Steinberg and Sgt. Simon were being sued at the time of
Sgt. Simon's warrantless search of the plaintiffs Apartment and Sgt. Simon knew
that Judge Steinberg was looking to get even with the plaintiff and Judge Steinberg
Would not only give Sgt. Simon his search warrant but would protect him from a
lawsuit should he be sued by the plaintiff.
5. These Judges Did lose or usurp their jurisdiction as follows: Bouvier's
Dictionary, Third Revision, 8th Edition, 1984 Reprint, Page 3387, Valid: Having
force or binding force; Legally sufficient or efficacious.’ authorized by law. Page
1680, Invalid: Not valid; of no binding force. Page 2384, Null: Properly, that which
does not exist; that which is not in the nature of things. In a figurative sense it
A25

signifies that which has no more effect than if it did not exist. 8 Toullier, n. 320.
Page 3406, Void: that which has no force or effect.New World Dictionary, Second
College Edition, 1972 Copyright; Page 445, Efficacious: to bring to pass, accomplish,
producing or capable of producing the desired effect; having the intended result;
effective.
These Judges did sit on the Plaintiffs criminal proceedings when they were
required by law to recuse themselves and they did not so do which in turn made
all proceedings before these Judges Invalid or Void and that being such, they did
lack or usurp their Jurisdiction and the Plaintiffs criminal proceedings are in fact
invalid or void and these Judges are liable for usurping their jurisdiction. See Case
Law cited in Statements 1 & 3 above, the Legal Definitions in this Statement and
the following other Case laws. See United Student Aid Funds, Inc. v. Espinosa, 130
S. Ct. 1367, 2010; Bradey v Fisher, 80 U.S. (13 Wall) @351; Elliot v Piersol, 1 Pet
328, 340; State v utsch, J 84 N.J. Super. 575, 581; Pierson v Roy, 386 U.S. 547, 567,
1967; Briscoe v LaHue, 103 S.Ct. 1108, 1155; 460 U.S. 325,359, 1983 and Congres­
sional Globe, 1866 @ page 1778 (Senator Johnson).
6. Sgt. Simon and Judge Steinberg had a covert meeting of the minds to
injure the plaintiff by filing false charges against the plaintiff due to the unconsti­
tutional search conducted by Sgt. Simon and is the reason why Sgt. Simon, who had
at least 10 other uninterested/unbiased Judges to seek a search warrant from but
Sgt. Simon specifically sought Judge Steinbeig because they both were being sued
by the Plaintiff in Cases 85-0097, 89-00223 and 89-01870 this gave them the opporA26

tunity to get even with the plaintiff and Judge Steinberg was required to recuse
himself Sua Sponte. State v Utsch. 184 N.J.Super. 575, 581. N.S.App. Court and
N.J.S.A. 2AG5-49(e) but failed and refused to do that for the Appearances of Justice
as per the case law in Statements 1 & 3 Above. He did Obstruct Justice Contrary to
N.J.S.A. 2C529-2 and commit Official Misconduct contrary to N.J.S.A. 2C:30-2 &
made a False record. N.J.S.A. 20^21-4 & 2C-28-7.
7. The conduct of Judge Steinberg and Sgt. Simon as stated in statement 6
above was such that they did create a false and Fraudulent record contrary to
N.J.A.C. 2C:21-4 and 20^28-7; that said Conduct also violated N.J.S.A. 2C:29_2
which is they obstructed Justice and they did also commit official Misconduct
contrary to N.J.S.A. 2C;302 to injure the Plaintiff in his person, by false charges
and jail, in his property, the eventual loss of his job and over $ 1,000,000.00 in
benefits from his job, $295.00 in attorney fees and $30.00 for a VCCB Penalty and
in his rights to Due Process to fair and impartial hearings and tribunals and did
commit Theft by deception contrary to N.J.S.A. 2C^20-4.
8. In October 1991, Judge Stenberg did in fact commit perjury contrary to
N.J.S.A. 2C:28'1 and 2C:28'2 by coming into court and testifying as to his belief as
to the facts of the 6/29 /90 Search Warrant application of Sgt. Dawson and he did
have a covert meeting of the minds with Sgt. Dawson and Judge Greene to cover up
his foul up of the 6/29/90 Search warrant in that in 20 years of his approving Search
Warrants, and which amounted to his so approving over 15,000 such warrants, that
he expected the appearances of justice would be satisfied by his claim that he made
A27

a mere error in his routine and procedure, and in this case where the Plaintiff had
lawsuits pending against this Judge by this Plaintiff. He did also make a False
Record contrary to N.J.S.A. 2021-4 and 2028-7, did obstruct Justice contrary to
N.J.S.A. 2029-2 and did commit Official Misconduct contrary to N.J.S.A. 20302.
He was denied the right to testify as to what he believed happened on the 6/29 /90
Search Warrant in that the law of this state, M.P. v S.P. 169 N.J.Super. @ 434-435
& 441-443, 1979, Appellate Division, and R 1 :3-2, Which required Judge Steinberg
to record the Search Warrant application to avoid such appearances of Bias, and he
failed to do that.
10. Sgt. Simon and Judge Steinberg did commit and make a false record con­
trary to N.J.S.A. 2021-4 and 2028-7, did Obstruct Justice Contrary to N.J.S.A. 20
29-2 and did commit Official Misconduct contrary to N.J.S.A. 2030-2.
16. The defendants Steinberg, Greene, Rossetti and Kaplan did all have a
covert meeting of the minds to continue to allow Judges Steinberg and Greene to sit
on plaintiffs criminal trial as they knew that Judges Steinberg and Greene would
make sure that the Plaintiff would be found guilty of the false charges and so that
they could get back at the plaintiff, vent their spleen on the plaintiff and show him
who has the power. They did in fact make a false record contrary to N.J.S. A. 20214 and 2028-7, did Obstruct Justice contrary to N.J.S.A. 2029-2 and did Commit
Official Misconduct contrary to N.J.S.A. 20302. Mayberry v. Pennsylvania, 400
US 455, 465, 1971, can’t vent spleen.
18. The defendants Kaplan and Greene did have a covert meeting of the
A28

minds by allowing Ms. Kaplan to enter into evidence specific claims that were not
contained in the indictment contrary to the well known and established law that
both she and judge Greene Knew or should have known since it is at least 235 years
old. They did create a false record contrary to N.J.S.A. 2G21-4 and 2G28-7, did
obstruct Justice contrary to N.J.S.A. 2G29-2 and did commit Official Misconduct
contrary to N.J.S.A 2G30-2. Mayberry v. Pennsylvania Supra.
19. The defendants Rossetti and Kaplan did have a meeting of the minds
with Judge Greene to allow the Plaintiff to be arrested and detained for a prolonged
period of time without Mr. Reardon's right to a Probable Cause hearing and thus to
know the evidence and basis for Plaintiffs arrest and incarceration contrary to the
well settled law of Blackstone's Commentaries, Book IV, Chapter 22, Page 293 for
which these defendants knew or should have known that the Plaintiff was being
unconstitutionally detained and thereby made a false record contrary to N.J.S.A.
2C-21-4 and 2C-28-7, did obstruct Justice contrary to N.J.S.A. 2G29-2 and did
commit Official Misconduct contrary to N.J.S.A. 2G30-2. This law is at least 235
years old.
20. To the best of Plaintiffs Memory, the Defendant Steinberg was the
assignment judge of the criminal division back in 1990 when He assigned Judge
Greene to try the Plaintiff and knowing that this Defendant had a beef against the
Plaintiff and these 2 Defendants did have a meeting of the minds to put the
screws to the Plaintiff for having dared to sue them and knowing the Defendant
Greene would make sure the Plaintiff was convicted on the false charges. The 2
Defendants did thus Obstruct Justice contrary to N.J. S.A. 2G29-2 and commit
A29

Official Misconduct contrary to N.J.S.A. 2G30-2 and Make False records contrary to
N.J.S.A. 2C:21-4 and 2C:28-7.
23. Given the case law cited in Statements 1 & 3 Above, and given the case of
Peretz v U.S. 501 U.S. 923, 953, 1991 the Defendants Steinberg and Greene lacked
jurisdiction as set out in the mentioned law and their orders are in fact null and
void and should be set aside. See Thompson v Whitman, 85 U.S. 457, 466-468, 1873.
24. The Defendants did deny the Plaintiff of the following rights:
A. Due Process to Fair and Impartial Hearings and tribunals due to Judges
that were Biased and did no comply with the Appearance of Justice!
B. To a Probable cause hearing where the State had to proffer its proof as to
the charges, especially when the Specifics of the 2nd Degree Charges were not listed
in the Indictment and were unknown to the Plaintiff till around November 1, 1991.
See United States v Cruikshank, 92 U.S. 542, 556*557, 1876 and Blackstone's
Commentaries, Book 4, Chapter 22, Page 293.
C. The plaintiff was indicted on the mere parroting of the Statutes Contrary
to the well Settled law and it did not transcend to specifics contrary to the well
settled law. Gerstein v Pugh, 420 U.S. 103. 113-116, 1975 and Blackstone's
Commentaries. Book 4, Chapter 27, Pages 351-352.
D. The Plaintiff was thus denied of Adequate Notice/Notice, in violation of
Due Process of Law, to the specifics of the charges prior to trial. See In re Gault,
387 U.S. 1, 25, 29 and 53, 1967.
The defendants did create a False Record contrary to N.J.S.A. 2G21-4 and
2C-‘28-7, did Obstruct Justice contrary to N.J.S.A. 2G29-2 and did commit official
A30

Misconduct contrary to N.J.S.A. 2C-30-2.
25. The Plaintiff has not raised issue with the following rights violations in
any court. These Issues are:
A. Lack of Jurisdiction of Judges Steinberg and Greene as to the orders being
null and void as per the case law in Statements 1 & 3 Above and Peretz Supra.
B. That the plaintiff was denied of his right to a Probable cause hearing in
which the State was required to proffer its proofs as to the charges prior to
prolonged incarceration.
C. The Plaintiff was indicted on defective process in that the Indictment did
not transcend to the particulars.
D. The Plaintiff was denied his right to adequate notice of the specifics of the
charges prior to trial.
E. The Plaintiff was denied of a fair trial due to the State being permitted to
raise particulars of the alleged charges that were not contained in the indictment.
F. The Plaintiff was denied his Due Process rights to Fair and impartial hear
-ings and tribunals due to Judges Steinberg and Greene having a beef against the
Plaintiff and their not having recused themselves Sua Sponte as required by law or
for the defendants Rossetti and Kaplan's failure to so put this before the court.
They created a false record contrary to N.J.S.A. 2C:21*4 and 2C:28*7, they
Obstructed Justice contrary to N.J.S.A. 2C: 29*2 and committed Official Misconduct
contrary to N.J.S.A. 2C:30*2.
28. As per this court's right of Pendent jurisdiction, given the court so has
A31

such jurisdiction, and given that the following rights and issues allowing for
relief, the plaintiffs conviction is unconstitutional for the following reasons.
A. Based upon the Common law of England dating back to 1852, see Exhibits
1 & 2, All orders, judgments, decrees and findings of Judges Steinberg and Greene
are null and void and must be set aside. That is, any prior contact with or knowl­
edge about a party whose case is before the Instant Judge requires the Judge to
recuse himself and if He/She fails to so do, the findings and conviction of the party
are declared Invalid or in other words Void.
B. The indictment against the plaintiff is defective since it did not transcend
to the specifics of the charges. That is, the indictment merely stated that the
plaintiff did possess a Bomb for an Unlawful purpose, It did not say it was a parcel
bomb and it did not list, if such was the case, who it was meant for.
C. Due to Number B above, the indictment failed to give the plaintiff
adequate notice of the charges.
D. Due to # A above, the plaintiff was denied his right of Due Process to fair
and impartial hearings, tribunals and trial.
E. The plaintiff was denied his right to a probable cause hearing which
required the state to produce it's evidence before prolonged incarceration and for
which the state failed to proffer any basis for the 2nd Degree Charges till around
November 1, 1991 and for which they had no proof of the 2nd degree charges.
F. The plaintiff, since there was no basis for the 2nd Degree charges, was held
on excessive bail of $100,000.00 full cash for a 3rd degree crime. And
A32

G. The plaintiffs trial was tainted and violated Due Process given that the
State was permitted to present evidence of a specific nature that was not contained
in the indictment.
Under the State Laws, their equivalent for N.J.R.C. 3:22-4, allows the setting
aside of the conviction and proceedings if the defendant's rights under the State or
U.S. Constitution were violated which under this court's Pendent Jurisdiction, this
court can hold a plenary hearing, in accordance with State law, to determine if the
plaintiffs rights were so violated.
31. The Defendants Galken and Kestin did lack jurisdiction as per Freytag v
Comm. Of Internal Revenue, 501 U.S. 868, 896, 1991 and the fact that Judges
Greene and Steinberg lost or usurped their jurisdiction as per the Common Law of
England and they in fact made a false record contrary to N.J.S.A. 2C:21'4, 2C:28-7,
did obstruct Justice contrary to N.J.S.A. 2U29-2 and Did commit Official Miscon­
duct contrary to N.J.S. A. 2C:30-2.
32. All the defendants did act under color of law, custom or usage to conspire
to injure the plaintiff by violating the Plaintiffs U.S. and State Constitutional
rights contrary to N.J.C.R. 3:22-4 and for which there is no time limit to bring a
motion to court when such is the case and the plaintiff invokes this court's Pendent
Jurisdiction to hear and settle these violations and to allow this case to go to trial.
[Comment: All of the above actions are in fact frauds by and/or on the court
and the State Appellate Court held in State v Zisa, 2015 that Issues of fraud
for a motion before the court but are questions of facts for a jury and I was denied
this right by Judge Hillman.]
Count 4
A33

The plaintiff incorporates the allegations above as though recited herein and
asks for any other relief the Court or jury deems appropriate. See Thompson v
Whitman @ 466-468. [This implies I was asking for a certificate of Correction find­
ing that the State’s jurisdiction in the criminal charges are void so that I could
then go back to the State and ask for a new trial and a new 4th Amendment Prob­
able Cause hearing which I was denied of by Judge Hillman. See appendix page 1-4
above.]

A34

Exhibits Submitted with the Lawsuit
7. Five other people of varying educations and background have agreed with
the appellant’s understanding of the law and limits of the law as to what is required
of the official and the citizens. Appendix pages A89-128 of this appendix.
9. The police, prosecution and the court have acted upon one interpretation of
the law, while the appellant and all other citizens understand the law to mean
something else, and to extend the definitions and intent and limits of the law for
the first time in this case that has not ever been done in the past to give the citizens
guidance in such law.
11. The appellant could not have reasonably arrived at the conclusion that
the Black powder was automatically considered to be a crime or presumption of
criminal activity covered by N.J.S A.. 2C:39'3 and 20^39-4 based upon statutes
themselves or any case law that he has been able to find at this point, especially
when (a) Three other citizens/persons do not understand the law to imply such; (b)
Mr. Tarpy, the seller of the black powder does not understand the law to say such;
(c) The police have admitted to the papers the law does not imply such; (d) Prosecu­
tion before the grand jury admitted the law does not imply such; (e) The state never
proved the black powder purchased and possessed by the appellant was not exclud­
ed by the law under the U.S. Pharmacoepoeis; and (0 Both Mr. Dawson and Mr.
Dentino testified that black powder is not, per se, and explosive. N.J.S.A. 20^24(c)(2)(d), 2A:158'4, 153-2-1, and Art. 5, Sec. 1, Par.s 11-12 of the New Jersey
Constitution of 1947.
A35

United State District Court for
The District of New Jersey
John E. Reardon,
Plaintiff

Civil Case No. l-13-cv05363

v
Judges Steinberg & Greene of
Complaint with
Camden County, Sgt. Simon, Sgt.
A Jury Trial
Dawson, Karen Kaplan And
Demand
Andrew Rossetti of the Camden
County Prosecutor's Office & Judges
Gaukin and Kestin--Appellate Court
Defendants.
1. Judges Greene and Steinberg in fact lost jurisdiction, did usurp jurisdic­
tion, over the plaintiffs criminal proceedings back between June 20, 1990 and
February 20, 1992 due to the lawsuits the plaintiff had against these Judges based
upon the Common Law of England, in particular Regina v O'Grady, 7 Cox C.C. 247,
The Queen v The Justices of Suffolk, 18 Q.8. 416, Q. 8. EASTER TERM., April 29th,
1852 and The Queen v the Justices of London, 18 Q.8. 421. April 29th, 1852 which
holds that when a Judge should recuse himself and he doesn't the proceedings are
Invalid or in other words Void.
2. The Plaintiff had the following lawsuits pending prior to or during the
actions and involvement of Judges Steinberg and Greene.
A. 85-0097;
B. 89-00223;
C. 89-01870;
D. 90-04551; and
E. 91-0557.
A36

3. The Defendants Steinberg and Greene had a very strong and personal
interest in the Plaintiff which was consistent with the necessity for them to recuse
themselves sua sponte as per N.J.S.A. 2A-15-49(e) and Regina v O'Grady, 7 Cox
C.C. 247; The Queen v The Justices of Suffolk, 18 Q.8. 416; Q. B. EASTER TERM.,
April 29th, 1852 and The Queen v the Justices of London, London. 18 Q.8. 421, April
29th, 1852 and their failure to so do requires the finding of all orders, decrees, judg­
ments and decisions are null and void or invalid and being contrary to the law.
They did Obstruct Justice contrary to N.J.S.A. 2C:29*2 and did commit Official
Misconduct contrary to N.J.S.A. 20:30*2. See Exhibit 2.
4. The Defendants Steinberg and Sgt. Simon were being sued at the time of
Sgt. Simon's warrantless search of the plaintiffs Apartment and Sgt. Simon knew
that Judge Steinberg was looking to get even with the plaintiff and Judge Steinberg
would not only give Sgt. Simon his search warrant but would protect him from a
lawsuit should he be sued by the plaintiff.
5. These Judges Did lose or usurp their jurisdiction as follows: Bouvier's
Dictionary, Third Revision, 8th Edition, 1984 Reprint, Page 3387, Valid: Having
force or binding force; Legally sufficient or efficacious; authorized by law.Page 1680,
Invalid: Not valid; of no binding force. Page 2384, Null: Properly, that which does
not exist; that which is not in the nature of things. In a figurative sense it signifies
that which has no more effect than if it did not exist. 8 Toullier, n. 320. Page 3406,
Void: that which has no force or effect. New World Dictionary, Second College
Edition, 1972 Copyright; Page 445, Efficacious: to bring to pass, accomplish, produc*
A37

ing or capable of producing the desired effect; having the intended result; effective.
These Judges did sit on the Plaintiffs criminal proceedings when they were
required by law to recuse themselves and they did not so do which in turn made all
proceedings before these Judges Invalid or Void and that being such, they did lack
or usurp their Jurisdiction and the Plaintiffs criminal proceedings are in fact inval­
id or void and these Judges are liable for usurping their jurisdiction. See Case law
cited in Statements 1 & 3 above, the Legal Definitions in this Statement and the
following other Case laws. See United Student Aid Funds, Inc.v. Espinosa, 130 S.
Ct. 1367, 2010; Bradey v Fisher, 80 U.S. (13 Wall) @351; Elliot v Piersol, 1 Pet 328,
340; State v utsch, J 84 N.J. Super. 575, 581; Pierson v Roy, 386 U.S. 547, 567,
1967! Briscoe v LaHue, 103 S.Ct. 1108, 1155, 1983 and Congressional Globe, 1866 @
page 1778 (Senator Johnson).
6. Sgt. Simon and Judge Steinberg had a covert meeting of the minds to
injure the plaintiff by filing false charges against the plaintiff due to the unconsti
tutional search conducted by Sgt. Simon and is the reason why Sgt. Simon, who had
at least 10 other uninterested/unbiased Judges to seek a search warrant from but
Sgt. Simon specifically sought Judge Steinberg because they both were being sued
by the Plaintiff in Cases 85-0097, 89-00223 and 89-01870 this gave them the oppor­
tunity to get even with the plaintiff and Judge Steinberg was required to recuse
himself sua Sponte. State v Utsch. 184 N.J.Super. 575, 581. N.S. App. Court and
N.J.S.A. 2AU5'49(e) but failed and refused to do that for the Appearances of Justice
as per the case law in Statements 1 & 3 Above. He did Obstruct Justice Contrary to
A38

N.J.S.A. 2C;29'2 and commit Official Misconduct contrary to N.J.S.A. 20^30- 2 &
made a False record. N.J.S.A. 2C:21-4 & 2C:28-7.
7. The conduct of Judge Steinberg and Sgt. Simon as stated in statement 6
above was such that they did create a false and Fraudulent record contrary to N.J.
S.A. 2C'21'4 and 2C-28-7; that said conduct violated N.J.S.A. 20^29-2 which is
they obstructed Justice and they did also commit official Misconduct contrary to
N.J.S.A. 2C;30'2 all to injure the Plaintiff in his person, by false charges and jail, in
his property, the eventual loss of his job and over $1,000,000.00 in benefits from his
job, $295.00 in attorney fees and $30.00 for a VCCB Penalty and in his rights to
Due Process to fair and impartial hearings and tribunals and did commit Theft by
deception contrary to N.J.S. A. 2C:20-4.
9. The defendant Sgt. Dawson knew of the Plaintiffs Lawsuits against this
Judge and the obvious Bias against the Plaintiff and Sgt. Dawson did specifically
seek out Judge Steinberg because he knew the Judge would be gunning for the
Plaintiff and he would not have to worry about the Doctrine of Fruits of the Poison­
ous tree as the Judge would take care of that. He did thus Obstruct Justice contrary
to N.J.S.A. 2C:29-2 and commit Official Misconduct contrary to N.J.S.A. 2G30-2
and did make a false record conirary to N.J.S.A. 2C:21-4 and 20^28-7.
10. Sgt. Simon and Judge Steinberg did commit and make a false record con­
trary to N.J.S.A. 20^21-4 and 20^28-7, did Obstruct Justice Contrary to N.J.S.A. 2C:
29-2 and did commit Official Misconduct contrary to N.J.S.A. 2C:30-2.
16. The defendants Steinberg, Greene, Rossetti and Kaplan did all have a
A39

covert meeting of the minds to continue to allow Judges Steinberg and Greene to
sit on plaintiff’s criminal trial as they knew that Judges Steinberg and Greene
would make sure that the Plaintiff would be found guilty of the false charges and so
that they could get back at the plaintiff, vent their spleen on the plaintiff and show
him who has the power. They did in fact make a false record contrary to N.J.S.A. 2C
•21-4 and 20:28-7, did Obstruct Justice contrary to N.J.S.A. 20:29-2 and did
Commit Official Misconduct contrary to N.J.S.A. 20:30-2.
17. The Defendant Kaplan, did have a covert meeting of the minds with Sgt.
Dawson by allowing him to commit perjury as to his belief of the plaintiff's State of
mind when he had no legal basis for such contrary to N.J.S.A. 20:28-1 and 20:28-2
and they did make a false record contrary to N.J.S.A. 20:21 -4 and 20:28-7, did
obstruct Justice contrary to N.J.S.A. 2C;29-2 and did commit official misconduct
contrary to N.J.S.A. 20:30-2.
18. The defendants Kaplan and Greene did have a covert meeting of the
minds by allowing Ms. Kaplan to enter into evidence specific claims that were not
contained in the indictment contrary to the well known and established law that
both she and judge Greene Knew or should have known since it is at least 235 years
old. They did create a false record contrary to N.J.S.A. 20:21-4 and 2C-28-7, did
obstruct Justice contrary to N.J.S.A. 20:29-2 and did commit Official Misconduct
contrary to N.J.S.A. 20:30*2.
20. To the best of Plaintiffs Memory, the Defendant Steinberg was the assign
-ment judge of the criminal division back in 1990 when He assigned Judge Greene
A40

to try the Plaintiff and knowing that this Defendant had a beef against the Plaintiff
and these 2 Defendants did have a meeting of the minds to put the screws to the
Plaintiff for having dared to sue them and knowing the Defendant Greene would
make sure the Plaintiff was convicted on the false charges. The 2 Defendants did
thus Obstruct Justice contrary to N.J.S.A. 2G29-2 and commit Official Misconduct
contrary to N.J.S.A. 2C;30*2 and Make False records contrary to N.J.S.A. 2C:21‘4
and 2C-28-7.
24. The Defendants did deny the Plaintiff of the following rights:
A. Due Process to Fair and Impartial Hearings and tribunals due to Judges
that were Biased and did not comply with the Appearance of Justice:
B. To a Probable cause hearing where the State had to proffer its proof as to
the charges, especially when the Specifics of the 2nd Degree Charges were not listed
in the Indictment and were unknown to the Plaintiff till around November 1,1991.
See United States v Cruikshank, 92 U,.S. 542, 556-557, 1876 and Blackstone's
Commentaries, Book 4, Chapter 22, Page 293.
C. The plaintiff was indicted on the mere parroting of the Statutes Contrary
to the well Settled law and it did not transcend to specifics contrary to the well
settled law. Gerstein v Pugh, 420 U.S. 103. 113-116, 1975 and Blackstone's
Commentaries, Book 4, Chapter 27, Pages 351-352.
D. The Plaintiff was thus denied of Adequate Notice/ Notice, in violation of
Due Process of Law, to the specifics of the charges prior to trial. See In re Gault,387
U.S. 1, 25, 29 and 53, 1967.
A41

The defendants did create a False Record contrary to N.J.S.A. 2C:21-4 and
2C:28-7, did Obstruct Justice contrary to N.J.S.A. 2G29-2 and did commit official
misconduct contrary to N.J.S.A. 2C-30-2.
25. The Plaintiff has not raised issue with the following rights violations in
any court. These Issues are:
A. Lack of Jurisdiction of Judges Steinberg and Greene as to the orders being
null and void as per the case law in Statements 1 & 3 Above and Peretz Supra.
B. That the plaintiff was denied of his right to a Probable cause hearing in
which the State was required to proffer its proofs as to the charges prior to
prolonged incarceration.
C. The Plaintiff was indicted on defective process in that the Indictment did
not transcend to the particulars.
D. The Plaintiff was denied his right to adequate notice of the specifics of the
charges prior to trial.
E. The Plaintiff was denied of a fair trial due to the State being permitted to
raise particulars of the alleged charges that were not contained in the indictment.
F. The Plaintiff was denied his Due Process rights to Fair and impartial
hearings and tribunals due to Judges Steinberg and Greene having a beef against
the Plaintiff and their not having recused themselves Sua Sponte as required by
law or for the defendants Rossetti and Kaplan's failure to so put this before the
court.They created a false record contrary to N.J.S.A. 2C:21-4 and 2C:28-7, they
Obstructed Justice contrary to N.J.S.A. 2C:29‘2 and committed Official Misconduct
A42

r

contrary to N.J.S.A. 2U30-2.
28. As per this court's right of Pendent jurisdiction, given the court so has
such jurisdiction, and given that the following rights and issues allowing for relief,
1 the plaintiff's conviction is unconstitutional for the following reasons^
A. Based upon the Common law of England dating back to 1852, All orders,
judgments, decrees and findings of Judges Steinberg and Greene are null and void
and must be set aside. That is, any prior contact with or knowledge about a party
whose case is before the Instant Judge requires the Judge to recuse himself and if
He/She fails to so do, the findings and conviction of the party are declared Invalid or
in other words Void.
B. The indictment against the plaintiff is defective since it did not transcend
to the specifics of the charges. That is, the indictment merely stated that the plain­
tiff did possess a Bomb for an Unlawful purpose, It did not say it was a parcel Bomb
and it did not list, if such was the case, who it was meant for.
C. Due to Number B above, the indictment failed to give the plaintiff
adequate notice of the charges.
D. Due to # A above, the plaintiff was denied his right of Due Process to fair
and impartial hearings, tribunals and trial.
E. The plaintiff was denied his right to a probable cause hearing which
required the state to produce it's evidence before prolonged incarceration and for
which the state failed to proffer any basis for the 2nd Degree Charges till around
November 1, 1991 and for which they had no proof of the 2nd degree charges.
A43

F. The plaintiff, since there was no basis for the 2nd Degree charges, was held
on excessive bail of $100,000.00 full cash for a 3rd degree crimes. And
G. The plaintiff's trial was tainted and violated Due Process given that the
State was permitted to present evidence of a specific nature that was not contained
in the indictment.
32. All the defendants did act under color of Law, custom or usage to conspire
to injure the plaintiff by violating the Plaintiff’s U.S. and State Constitutional
rights contrary to N.J.C.R. 3-22-4 and for which there is no time limit to bring a
motion to court when such is the case and the plaintiff invokes this court's Pendent
Jurisdiction to hear and settle these violations and to allow this case to go to trial.
33. The plaintiff had no way of knowing the law on the rights listed in State­
ments 24, 25 and 28 and only learned of said rights by accident in April 2014.

A44

United State District Court for
The District of New Jersey
John E. Reardon
Plaintiff,

[June 3, 2019]

vs
Civil Case No. P13-cv-05363
Judges Freeman, Pugliese, Steinbwerg:
Greene, Wells & Ragonese, along with : Amended Complaint (These
Appellate Judges Hayden, Ashraffi,
Amendments now apprise
Payne, Gaukin and Kestin.
Specifically how and why the
Judges are liable)
Defendants.
This proposed amended complaint is intended to add to the original Lawsuit
and not to replace it and to superceded the proposed amendment submitted on .
5/30/19.
l.The Statutes and Court made rulings establishing the rights of the people
to guide them as to what they can and cannot do are the "HARD FACTS" the people
have the right to know and rely on. Juzwin v Asbestos Corp., 900 F.2d 686, 692, 3rd
Cir. 1990.
2. The plaintiff above named seeks equity, prospective and injunctive relief
that no official is immune from and for which if the court finds that damages is
inappropriate, the plaintiff is still entitled to such relief. Laskaris v. Thornburgh,
661 F. 2d 23, 26, 3rd Cir. 1981.
3. The plaintiff relies on the affidavits of 5 persons to support his claim that
Judges Steinberg and Greene, and indeed no Camden County Judge, under the
claims that Judge Steinberg and Sgt. A. L. Simon of Runnemede Police department
A45

should not have brought their search warrant to Judge Steinberg due to prior
adverse contact with Mr. Reardon and that since Judge Steinberg was the criminal
assignment Judge for Camden County at the time he was required to transfer the
case to another county for trial and should have directed the police to another judge
and he failed to do both. See This Appendix pages 10-16 below.
5. The New Jersey Appellate court found in the case of M.P. v S.P., 169 N.J.
Super. @434-435, 441-443, 1979 that it is mandated that all proceedings before a
judge no matter where they occur must be transcribed for meaningful Appellate
Review and for Due Process and Judge Steinberg made no such summary or Trans­
cript of the Search Warrant application by Sgt. Simon of Runnnemede. Judge Stein­
berg's failure to so do violated my Due Process rights to a fair hearing and review
and is in fact a Non-Judicial, Non-Discretionary, Ministerial and Mandatory Act
he failed to carry out and he is not immune for such failure and its consequences on
Mr. Reardon. This is a mandate to all judges and thus amount to a denial of any
discretion to not comply. See Antoine v Byers & Anderson Inc., 508 U.S. 429, 435,
1993 and Bogan v. Scott-Harris, 523 US 44, 51-52, 1998. That is that Court made
mandates are non-discretionary mandates for the official.
6. Mr. Reardon seeks any relief to correct the record in the state as to the
following issues at Common Law that no Judge has the right to not uphold and
comply with. See Blackstone's Commentaries, Introduction to the Laws of England,
Chapter 1, Pages 69. Said failure are for Non-Discretionary, Minsterial, Mandatory
and Non-Judicial Acts that they re liable for and have no immunity from. Said
A46

Common Law Mandates are to the following issues that no court has any discretion
o sanction and give credence to and thus the state has had at least 7 opportunities
to so comply with the Common Law Mandates and my rights and they have repeat­
edly failed to so comply with them and all orders by the Judges, Judges Steinberg,
Greene, Wells and Ragoniese are of no force or effect that can be upheld in any
other court. The violations are for the following Rights, that even the State
Supreme Court has held viable under the common Law which are: See U.S. v
Jepson, 90 F.Supp. @987*989, 1950, and Allstate Insurance Co. Of New Jersey v
Lajara, 117 A.3d 1221, 2015 and Thompson v Whitman, 85 U.S. 457, 467-468.
The Common Law Rights and Mandates violated are:
A. Failure to produce at least 2 credible witnesses to the 2nd Degree Crimes
that the State Courts have refused to comply with. Both at trial and before the
Grand Jury. Blackstone's Commentaries, Book 4, Chapter 27, Page 351.
B. The State admitted into evidence at the trial that supposedly supported
the actual purpose of the possession of the explosive device by Mr. Reardon, that
is that it was not testified to before the Gand Jury that the explosive device was
meant to be a parcel bomb, directed and to be mailed to some Camden County
Judge, my ex-wife, a Camden County Court clerk, or my ex-girl friend. This was
barred as per Blackstone's Commentaries, Book 4, Chapter 27, Pages 351-352.
C. The state denied my right to a probable cause hearing to require the state
to produce it's evidence as to the alleged crimes and they failed to do that. This is
to test the veracity of the charges and for setting of reasonable bail. Blackstone's
A47

Commentaries, Book 4, Chapter 22, Page 293.
D. The state failed to try me "immediately after my arraignment" and I was
arraigned in July 1990 and not tried till December 1991. Blackstone's Commentar­
ies, Book 4, Chapter 27, Page 346.
E. The state failed to grant me effective assistance of Counsel in that they
failed to instruct me as to the types of questions to be asked of witnesses or to so
ask them themselves. Blackstone's Commentaries, Book 4, Chapter 27, Page 350.
F. The indictment of the plaintiff was defective for the Following reasons^
(l) It did not descend to particulars.Blackstone's Commentaries, Book 4,
Chapter 27, Page 303.
(2) It did not have the testimony of at least 2 credible witnesses to the 2nd
degree charges.
(3) It was based on 3rd degree crime law only and the grand jury was never
instructed as to the requirements of 2nd degree crimes and I was tried, found guilty
and sentenced on 2nd degree and 3rd degree crimes.
(4) The indictment was never superceded by a new indictment as to the 2nd
degree crimes and I was never so served with a superceding indictment that did
correct the original indictment.
(5) The indictment served on the plaintiff was not signed by the foreman of
the grand jury and was not dated.
(6) The indictment only stated and was tried on the mere wording of the stat­
utes that I was charged under and this is not permitted.
A48

(7) The plaintiff was not served with the indictment till After 10/31/91 and I
asked for a Bill of Particulars in Late 1990 and the state failed to proffer or serve
me with a valid indictment or a valid Bill of Particulars before trial and I was
denied Due Process of notice and thus an inability to be heard which voids such
proceedings and are not entitled to respect in any other court and voids the proceed­
ings and no other court can grant validity or credence to said void proceedings and
this court is barred from relying on anything in said proceedings. Thompson v
Whitman, 85 U.S. 457, 467-468.
G. The State failed to give me a Bill of particulars as required by law since
the indictment failed to descend to Particulars and though I asked for said Bill in
late 1990 the state never provided me with such.
H. According to the English Common Law Cases of The Queen v The Justices
of Suffolk, 18 Q.B. 416, 1852; The Queen v The Justices of London, 18 Q.B.421,
1852 and Regina v O'Grady, 7 Coxx C.C., 247, 1857 that if a judge is to recuse
himself and he fails he either lost, lacked or usurped his jurisdiction and discretion
or he commits a fraud and in either case the judgment is in fact Void. The clear law
in this lawsuit required Judges Steinberg and Greene to recuse themselves, deny
the Search warrant applications of Simon and Dawson since it was not granted by a
neutral and detached judge and transfer by criminal charges to another County and
they failed to so do that.
I. The other judges at the appellate and trial court levels usurped, lacked or
lost jurisdiction due to the void actions of Judges Steinberg and Greene and they
A49

failed to set aside the void orders they were required to do and their decisions can
not have any validity in this court, which is another defect in this court's prior
decision, and are also void. Mr. Reardon gave the state at least 6 chances to comply
with their mandatory duty to set aside the void proceedings of Judges Greene and
Steinberg and they refused and refuse to so do. A Judge Must recuse himself on his
own motion when he has adverse extra-judicial contact with a person's matter
before him and Mr. Reardon sued Judge Steinberg and had at least 2 such lawsuits
pending in the federal courts at the time of My criminal charges. See All-12 above.
(a) If a Judge is required to recuse himself, he loses Jurisdiction. English
court cases and Elliot v Piersol, 1 Pet. 328, 340, 1828!
(b) He violates Due Process of law. U.S. v Sciuto, 521 F.2d 842, 845, 7th Cir.
1976;
(c) He commits Official Misconduct. State v Thompson, 953 A.2d 491,496,
N.J. App. 2008; State v Thompson, 953 A.2d 491,496, N.J. App. 2008;
(d) The judgments of said judge are void. State v American Can Co., 42 N.J.
32, 38, N.J. Supreme Court 1964;
(e) If the average person would believe the Judge is required to recuse him­
self or harbors doubts about his impartiality, the judge must recuse himself. U.S. v
Polludniak, 657 F.2d 948, Cert. Den. 102 S.Ct. 1431, 9th Cir. 1982 and State v
McCabe, 987 A.2d 567, 572, N,J, Supreme Court 2010.
(0 A judge is required to recuse himself on his own motion if the judge has
even the appearance of partiality. State v Utsch, 184 N.J. Super 575, 581, 1982;
A50

r

State v Booker, N.J. App. 2015; State v Hanna, N.J. App. 2012; State v Balisteri,
779 F.2d 1191, 1202, 7th Cir. 1985;
(g) A judge that is required to recuse himself and does not so due is not a
neutral and detached judge and the Search warrants are void by such judge. State v
Presley, 94 A.3d 921, 925, N.J. App. 2014; State v Gieo, 950 A.2d 930, 936, N.J.
APP. 2008.
(h) 28 U.S.C. 455 has application in the state. State v McCann, 919 A.2d
136,143,144,N.J.App. 2007!and
(i) 28 U.S.C. 455 is self executing and an affidavit is not needed. Taylor v
O'Grady, 888 F.2d 1189, 1200, 1201, 7th Cir. 1989.
(J) It is the Duty of the prosecutor, and thus the Attorney General's office in
defending state officials in civil suits, to see that Justice is done not that they get
a favorable decision at any cost. State v Zisa, N.J. App. 2015. The Attorney Gener­
al's office so presented erroneous facts and law that the judges named are and were
immune when the clear facts and law is they are not. This failure to disclose the
Common Law duties and thus Lability of the defendants, is fraud upon the Court
that has no time period to bring to the court such claims.
(K) Judge Steinberg's refusal to transfer Mr. Reardon's Criminal Case to
another county for bias is supported by Judge Rudolph Rossetti's June 1989
decision to transfer a civil suit to another county due to one of the defendants being
a court employee. It gave the appearance of bias. In Mr. Reardon's criminal charges
there was 2 County employees that were alleged targets. These were (a) A Camden
A51

County Judge and (b) A Camden County Court Clerk, my ex-wife, Ms. Reardon. The
trial, conviction and sentence are illegal and unconstitutional due to this bias not
accepted by Judges Steinberg and Greene and then for the failure of all the other
Judges failure to set aside these void proceedings.
8. The plaintiffs indictment was clearly defective and was not served on me
prior to trial as to the 2nd degree charges and I was thus denied my Due Process
right to advanced notice and thus a proper right and ability to be heard which voids
the trial and no court can give validity to void proceedings.
9. All trial court judges and all appellate court Judges lacked any discretion
to validate and give credence and credibility to the void criminal proceedings
against Mr. Reardon back between 1990 and 1992 and they have no discretion to so
validate said proceedings. Thompson v Whitman Supra.
Count 1
The plaintiff incorporates the facts above into this count as though recited
herein and asks for the following relief
1. An order declaring the orders of these judges void and unenforceable and
to be corrected to reflect that the plaintiff set out a valid basis to the relaxation of
the time bar to such PCR Motions and an order to correct the record that the orders,
judgments, decrees and proceedings of Judges Steinberg and Greene are in act void
for (A) Refusal to recuse themselves; (B) that the approval of the Search Warrants
of June 20, 1990 of Sgt. A. L. Simon and The June 29, 1990 Search Warrant of D.
Sgt. Bruce Dawson are void since they were approved by a biased Judge and not a
A52

Neutral and Detached Judge as required by law! (C) That the indictment of the
plaintiff is fatally defective for the reasons stated above; (D) that the Plaintiff was
denied of effective assistance of counsel as so claimed above! (E) That the Prosecut­
or's in fact committed Fraud upon the court as stated above! (F) That the sentence
of the plaintiff was and is illegal! (G) That the state was required to produce 2
credible witnesses to the overt 2nd degree act and they failed to do so! (H) That
the trial of the plaintiff is and was void since the state could not use the evidence
seized in the 2 Searches! (I) that the state lacked subject matter and/or personal
jurisdiction over the plaintiffs criminal charges and trial! (J) The State was barred
from admitting evidence to the 2nd degree charges at trial since it was not so admit­
ted to the Grand Jury! (K) That the state barred the right to have my Last Will and
testament admitted into evidence for the reasons it was evidence of relevance to the
charges at common law and New Jersey Supreme Court decision of State v Long
Supra as stated above! (L) The fact that the indictment was defective for the
reasons stated in this lawsuit! (M) That the plaintiff was denied a speedy trial at
common law! (N) That the plaintiff was denied effective assistance of counsel! and
(0) For all the other reasons stated in this lawsuit.
2. The plaintiff requests an order to require the state to correct it's actions,
findings, decrees, judgments and proceedings as being void for lack of, loss of, or
usurpation of Jurisdiction by Judges Steinberg and Greene and then by all the
other Judges for the reasons stated above and as listed in request 1 above and for
denial of Due Process as to notice and hearings before the various Trial Judges of
A53

Camden County and the appellate Court judges.
3. An injunction directed at barring them from hearing and sitting on any
matter, be it motion or lawsuit, by Mr. Reardon in the future.
4. That Camden County Courts be ordered to transfer all matters in my
criminal case or any future matter, be it civil or criminal to another County.
5. Any other relief the jury or court finds and deems appropriate.
Count2
1. The plaintiff incorporates the facts above into this count as though recited
herein and asks for the following relief
Damages in the amount as follows:
A. For loss of wages and retirement benefits from the loss of my job at the
U.S. Post Office caused by the illegal and unconstitutional violations and denials of
my rights as follows:
(l) Actual wages and benefits lost: $2,858,836.94;
(2) Times 2 for theft of these benefits at common law, then times 2 under
N.J.S.A. 2C:20-20;
(3) times 3 for the following relief Compensatory, Punitive and Exemplary
Damages;
(4) Times 3 for State Rico violations!
Total losses are $102,918,129.84.
B. For the denial of my rights listed in this lawsuit, which are 10 plus the
denial of Due Process to fair and impartial hearings, to the denial of fair and
A54

impartial Judges and for the denial of my equal protections of the law rights I seek
$1,000,000.00 for each of the 13 violations times 3 for compensatory, punitive and
exemplary damages times 11 for the 11 defendants for a total of $429,000,000.00.
C. For the curtailment of my rights and liberty for the 6 years I spent in Jail
and on parole I seek the following compensatory, punitive and exemplary damages
in the amount of $1,800,000.00.
D. For the denial of my rights to acquire a gun and to take custody of my
grandson! from 1992 to the present for owning a gun and from 2009 to 2017 for the
denial of my right to take custody of my grandson due to my criminal record I seek
$10,000.00/yr. For the loss of my right to bear arms times 3 for compensatory,
punitive and exemplary damages for a total of $900,000.00 and $100,000.00/yr.For
the loss of my right to take custody of my grandson due to my criminal record for
compensatory, punitive and exemplary damages I seek $2,400,000.00.
E. Personal Property lost is $855.49.
F. For all the criminal code violations of these Judges I seek the following
relief
(1) N.J.S.A. 2C:13-1" as follows: $250.00 for each of the 2 statute sections,
Times 11 defendants; Times 3 for Compensatory, Punitive and Exemplary
damages Times 2192 days my liberty was curtailed, times 3 for State RCIO Laws
for a total of $108,504,000.00.
(2) N.J.S.A. 2C-13-3" as follows'- $250.00 times 1 such statute violation times
11 defendants, Times 3 for Compensatory, Punitive and Exemplary Damages Time
A55

r

2192 days my liberty was curtailed, Times 3 For State RICO violations for atotal of
$54,252,000.00.
(3) N.J.S.A. 2C:20-3 and -4-as Follows: $250.00 for violation of this law for
which there are 4 such sections involved, Times 11 Defendants, Times 3 classes of
damages, Compensatory, Punitive and Exemplary, Times 3 for RICO Violations
Times 2 for common law theft charges, Times 2 for violation of 2C;20'20, Times 45
actual crimes committed for a total of $17,820,000.00.
(4) N.J.S.A. 2C'-15-l*As Follows: $250.00 for the violation of this statute,
Times 11 defendants, Times 3 for Compensatory, Punitive and Exemplary Damages
, Times 2 for Common Law thefts, times 2 for violation for 2C:20-20, Times 3 for
State RICO Violations Times 45 offenses for a total of $4,455,000.00.
(5) N.J.S.A. 2C:28’1 through -4-As Follows: $250.00 for the violation of these
statutes which are 11 such sections, Times 11 Defendants, Times 3 For State RICO
violations, Times 3 for Compensatory, Punitive and Exemplary Damages Times 132
such offenses for a total of $35,937,000.00.
(6) N.J.S.A. 2C:29'1' As Follows: $250.00 for violations of this Statute, Times
11 Defendants, Times 6 code sections, Times 3 for Compensatory, Punitive and
Exemplary Damages, Times 3 For State RICO, Times 348 such offenses for a total
of $51,678,000.00.
7) N.J.S.A. 2C:30'2'As Follows: $250.00 for the violation of the statutes,
Times 2 for the Code violations, Times 11 Defendants, Times 3 for Compensatory
Punitive and Exemplary Damages times 116 such violations for a total of
A56

$1,914,00.00.
(8) N.J.S.A. 2C:21-3, -4 and 2C:28-7*As Follows: $250.00 for Violation of these
Statutes, Times 4 such section violations, Times 11 Defendants, Times 3 for
Compensatory, Punitive and Exemplary Damages, Times 20 for motions, Plus 2 For
Appeals, For A total of $726,000.00.
(9) For 2900 general Torts at $1,000.00/tort times 3 for Compensatory, Puni­
tive and Exemplary Damages times 11 Defendants for a total of $78,300,000.00.
(10) For Misfeasance and Non-Feasance I seek $123,154,956.03.
(11) For the trauma I had to suffer being in jail I seek a total of $4,000,000.00.
Total Damages sought to be collected Jointly and severally from the defendants.
(13) Double all costs as per the common Law, Blackstone'sCommentaries,Book
1, Chapter 1, pages 342 or under state RICO, treble costs.
[Comment: If the defendants are liable as set out in this lawsuit, the court has
Jurisdiction.]

A57

Issues Raised [in Appeal]
The court committed plain, clear, legal or constitutional error by failing to
comply with the law, and/or has abused its discretion and his known and admitted
duty to the law for the following reasons.
A. The court admitted it must accept all pleaded facts as true and Mr.
Reardon repeatedly told the court that the defendants lost, lacked or usurped their
jurisdiction and/or discretion making them liable and the court has jurisdiction
under these facts at a Rule 12(b) Stage.
B. By the court doing as above, it did in fact discriminate against Mr.
Reardon by treating him differently than all other plaintiffs.
C. The court has given validity, credence and credibility to the void state
court proceedings and in fact made its orders void. And
D. This is not a Heck v Humphrey or Rooker-Feldman case and does not
involve preclusion issues.
Statement of the Case [in Appeal]
The Hard facts and law is that it does not matter if I can succeed on my
lawsuit for which Rule 12(b) simply forbids a dismissal to such Rule if the allega­
tions, taken as true, would appear to support the facts. Mr. Reardon repeatedly
stated the defendants lacked, lost or usurped their jurisdiction and/or discretion
and as being true I am entitled to submit evidence to support or reject the validity of
this claim. The court must accept jurisdiction under such a claim.
This lawsuit was filed seeking both Equity, declaratory, legal, prospective
A58

and costs relief.
Judges Steinberg and Greene were required to recuse themselves from my
criminal trial for which the law says that they Lost, Lacked or Usurped their
Jurisdiction and/or their discretion, that their orders are void and they denied Due
Process of Law. This applies to not only these Judges but to all the Appellate Court
and PCR Court Judges. These are the hard facts and law and for which the dispute
is now a factual dispute not a legal dispute and no court has the right to settle the
factual disputes under Rule 12(b). See A87-91 below.
That the law and facts are that void orders or proceedings are not entitled to
respect in any other Court and said proceedings are void.
This court can examine the trial of Mr. Reardon, as it would not be reviewing
and seeking to set aside any decisions in the state and that there is no preclusion
law restrictions or Heck v Humphrey or Rooker-Fldman applications either.
The PCR and Appellate Court judges, lacking jurisdiction or discretion, did
validate void orders or proceedings and their decisions are of no import here as well.
Said orders are void and unenforceable in any other court and this lawsuit is again
proper for this court’s right to rule on all the Constitutional Rights violations men­
tioned in this lawsuit and are void and not to be considered even before reversal.
The court should concur with the above facts, and I seek damages for all the
rights violated and listed in this lawsuit or I seek the following relief [If this is true,
how does the lower courts not have Jurisdiction as per Elliot v Piersol, 1 Pet. @ 340.]
The Federal Courts would not be overturning or reviewing a valid State
A59

k.

order(s) or proceedings for which the court would be denied the right to do under the
law. The state proceedings are as if they never occurred and this court can entertain
a lawsuit for the violation of all my rights eluded to in this lawsuit. Budget Blinds v
White.
I am simply asking this court to rule on the legal claims and whether the state
proceedings are in fact void and unenforceable and thus does not bar this lawsuit in
any way at the Rule 12(b) stage.
Mr. Reardon is not asking this court to re-examine my criminal trial and
conviction or to set it aside. He is not asking this court to declare the defendants
rulings are wrong. He is, however, challenging the Constitutionality of the Rules of
Court and the procedures used to handle PCR Motions and criminal proceedings as
to all issues stated in this lawsuit.
He is also asking this court to issue an order of correction to the N. J. Courts
that the state trial of Mr. Reardon was by a court that did not have subject matter
and/or personal jurisdiction to try Mr. Reardon and to issue an order to the state
court to so place it in the state records they lacked jurisdiction and/or discretion to
try the plaintiff in Camden County. This is not a habeas Corpus lawsuit in which I
am attacking the judgment of the court and finding of guilt, this is not a case in
which I am asking this court to so set aside my conviction in the State and therefore
is not either a Heck v Humphrey or Rooker-Feldman case and criteria. [See A8-11 &
18-19 above.]
Further, the claim of loss of, lack of or usurpation of jurisdiction and/or
A60

discretion, and for the frauds perpetrated by the defendants I am seeking damages.
As the courts have held, Jurisdiction may be challenged in every other court, as well
as fraud in the other court(s) and for which there is no time period to bring such
matters to the courts attention.
Mr. Reardon did state repeatedly in the original lawsuit and sub-sequent
attempts to amend that the defendants lacked, lost or usurped their jurisdiction
and/or discretion for which at the Rule 12(b) stage were pleaded facts that the court
stated it must accept as true and did fail and refuse to uphold the law on liability
and did dismiss this laws-suit with prejudice.
The State PCR and Appellate Judges cannot validate void state proceedings,
and the law on recusal of Judges Steinberg and Greene, and they did in fact uphold
, their void proceedings.
All of Judge Hillman’s orders are void or improper as he admits that Judges
enjoy immunity and that to sue a judge one would have to prove the lack of
immunity. Mr. Reardon not only repeatedly stated the defendants lacked, lost or
usurped their jurisdiction or discretion by supporting this claim with State and
Federal Case laws at the U.S. Supreme Court, the 3rd Cir. Court and State
Appellate court or New Jersey Supreme Court decisions and Judge Hillman did
deny my rights and ignored my claims to such. He has intentionally denied my
rights to make such a claim and also discriminated against me.
In the original complaint at page 24, statement 411 did allege the defendants
lacked jurisdiction and/or discretion. Docket entry 1 @ Pg. 1 and 24. If the state
A61 -

defendants lack jurisdiction this court has such.
In the opening paragraph of the lawsuit I stated I was seeking equity and
declaratory relief, and also in Statement 40 on page 24 of the original lawsuit. In
each attempt to amend I clarified a little more as to the basis for the lack of Juris­
diction and/or Discretion and Judge Hillman refused to acknowledge and uphold my
claims of liability of the defendants when he admitted he must hold the pleadings as
true and that when jurisdiction is so questioned the court is barred from relying on
anything from the challenged proceedings to deny the right to inquire into the juris­
diction of the court in question. Judge Hillman has intentionally and willfully deni­
ed me the equal protections of the law by refusing to acknowledge and uphold my
rights and claims made. The lower court has subject matter jurisdiction. [If the law
says that Jurisdiction can be brought in any court and any time, Whitman v Thomp
son, and there is not immunity for this reason, or because of This court’s decisions as
to Mandatory/Ministerial acts or where a judicial function is done without jurisdic­
tion the official can be sued, and if all of these facts/factors are alleged, how are the
officials entitled to immunity? How is preclusion law, Heck v Humphrey, RookerFeldman asserted deny a lawsuit for such, how the official is immune and how does
the court lack jurisdiction.]
The State defendants were given 8 chances to set aside the void proceedings
in the state and they failed or refused to so set them aside.
Judge Hillman was given 4 chances to undo his and the state’s void orders
due to the court giving validity, credence and credibility to the void orders or
A62

proceedings of the state defendants and he has repeatedly refused to set aside the
void state matters for which he has no discretion to so sanction and uphold. Elliot v
Piersol. The Queen v The Justices of Suffolk, 18 Q.B. 416, 1852; The Queen v the
Justices of London, 18 Q.B. 421, 1852 and Regina v O’Grady, 7 Coxx C.C. 247,
1857.
The well settled law, in the U.S. and State Courts, is that if a Judge is requir
-ed to recuse himself and he fails or refuses to do so that his order are void, that he
loses or usurps his jurisdiction and he violates Due Process. These were made
known to Judge Hillman in my motions on liability and that under the current and
past law if the judge lacks, loses or usurps his jurisdiction or discretion the judge is
liable and Judge Hillman did not only ignore this law but ignored and did not hold
as true and correct that for which I repeatedly stated the defendants did lose, lack
or usurp their jurisdiction and would be, and are, liable and did not hold the scales
well balanced as he is required and expected to do. He should have recused himself
for the appearance of bias and justice sake. He has turned a factual dispute into one
of law.
The well settled law is that the court, at minimum, was required to hold a
plenary hearing to ascertain the veracity and validity of the defendants claims of
immunity to so establish their right to claim such immunity as they are required by
law and Judge Hillman simply held that they are judges, they are absolutely
immune and granted them such immunity without the defendants being required to
prove they are immune under the circumstance of recusal and liability law. Judge
A63

Hillman was involved in a lawsuit by me and for which the court did admit the
defendants were required by law to prove their right of immunity for the function in
question. The only way a defendant can prove they are immune is by affidavits and
the right to question said claims by the plaintiff, which Judge Hillman did not
require the defendant’s to do, and denied me the right to challenge their claims in
opposition to said claims by cross examination. Mr. Reardon was denied the same
rights to challenge the immunity of the defendants that others are accorded. See
Hughes v Long, 242 F.3d 121, 125, 3rd Cir. 2001 and Buckley v Fitzsimmons, 509
U.S. 259, 269, 1993.
This case did seek both declaratory and legal relief from the defendants. The
declaratory relief involved the right to have the court issue an order directing the
state to correct its record that they lacked the right to uphold the proceedings Mr.
Reardon was suffered to comply with and for which the U.S. Supreme Court has
held that a Federal Court has the right to order the state court to correct its judg­
ments, records and proceedings to reflect said loss of jurisdiction and the court
claimed it had no such right when the well settled law dating all the way back to
1874 says he has such a right and for which he was informed of this right repeatedly
by Mr. Reardon.
The State Court defendants should have transferred my criminal charges,
trial and proceedings to another county Sua Sponte due to an order of Judge
Rudolph Rossetti in June of 1990 in which he had sua sponte transferred a civil suit
to another county due to a defendant being a Camden County Court employee and
A64

in Mr. Reardon’s criminal proceedings there was possibly 2 court personnel involv­
ed in my criminal charges and trial, that is a Camden County Court Clerk and a
Camden County Judge and they failed to so transfer my criminal trial and proceed­
ings to another county for appearances of justice sake.
Judge Steinberg had 2 open lawsuits against him by Mr. Reardon prior to the
filing of criminal charges against me and Judge Greene had 1 prior to his becoming
involved in my criminal proceedings requiring them to recuse themselves and they
refused and Judge Greene should have also recused himself since Judge Steinberg,
as the criminal assignment judge, could not appoint any Camden County Judge to
hear my criminal charges.
Mr. Reardon’s trial and the actions of the State defendants are administra­
tive, mandatory and/or non-discretionary on their part. For which they can be held
liable for by the current Supreme Court criteria.
A. I was denied a probable cause hearing to test the State’s case and for sett­
ing of reasonable bail and for which the state failed to produce any allegation what
the unlawful purpose is or was and that said claims came in November 1991 and I
was arrested and jailed for 17 months without any proof as to the 2nd degree crimes
or what the basis for them was and was denied reasonable bail since it was set at
$100,000.00 full cash bail and for proof of only 3rd degree crimes, which did not
carry a sentence of jail time, and was thus excessive.
B.(l) My indictment did not comply with the Common Law Mandate on such
in that the state never stated to the grand Jury what the unlawful purpose was! (2)
A65

That the state failed to produce 2 witnesses to the overt act of unlawful purpose;
and (3) The State failed to provide any basis for its failure to produce the specific
facts as to what the unlawful purpose is and was. That is they failed to state the
manner and intent in the indictment and therefore they could not admit evidence
to support the unlawful purpose that was not clarified and produced for the grand
jury in the indictment.
C. Mr. Reardon’s criminal charges to the 2nd degree crimes was defective
since the state failed to produce at least 2 witnesses to the 2nd degree charges at
the trial, as required by the common law.
D. Mr. Reardon’s right to a speedy trial, at common law, was violated in
that I was not tried immediately or soon after my arraignment or within 1 year of
filing charges against me, as I was arrested and charged in June 1990 and not
tried till December 1991.
E. Mr. Reardon was denied his right to submit his last will and testament as
exculpatory evidence since it went to my mental state of mind at the time of the
alleged crimes and named 2 presumed targets of my alleged criminal conduct. This
information would have been helpful to the jury.
F. Mr. Reardon’s counsel did not ask questions of the witnesses by him and
nor did he instruct me as to the types of questions to ask.
Mr. Reardon did seek to add Judges Wells and Ragonese as part of a continu
-ing and ongoing tort, wrong or fraud since they too decided to not set aside the
void orders of Judges Steinberg, Greene, Freeman, Pugliese, Gaulkin, Kestin,
A66

Hayden, Payne and Ashrafi.
While Mr. Reardon did state all the rights the defendants denied me of, this
was not the basis for the Cause of Action. The cause is as set out in statements A-F
above, for lack of, loss of or usurpation of jurisdiction and/or discretion; For fraud
upon the state court and thus the federal Court; for void state proceedings; for fail
-ure to set aside void proceedings or orders; For abuse ofprocess and For failure to
recuse. [Abuse of process does not require the proceedings to terminate in the
the injured parties favor to bring such a lawsuit.]
All of these issues and law for such granted Mr. Reardon the right to sue for
both equity and legal relief and Judge Hillman’s orders are erroneous and void.The
court has jurisdiction since the defendants are not immune from suit either legally
or equitably.

A67

r

Excerpts from Legal Arguments in Appeal
Legal Arguments
The Court has said, in it’s 4 orders, that the court must accept as true all
pleaded facts and for which Mr. Reardon does state that he alleged the defendants
did lack, lose or usurp their jurisdiction and/or discretion and in so doing the
Judges, on all law, are liable for said injuries if true. See Statements 41 of original
complaint and all other submitted Amendments in said motions. See docket
entries l.@ Pg.s 1 and 24; 9 @ Pg.s 4, 6, 8-11; 10-2 @ Pg.s 2, 3 and 10; 14 @ Pg.s 27; 22 @ Pg.s 2, 5, 8-10; 26 @ Pg.s 5,7,8 ; 37 @ Pg.s 4, 5; 37-1 @ Pg.s 2, 4, 11 and 14;
52 @ Pg.s 2-5; 53 @ Pg.s 5, 6, 9, 12-14, 21-0 & Q, 23*28, 31 and 32.
I also stated on Pages 1 and 24, statement 40 that I was seeking equity and
prospective and costs relief that all state officials are subject to.Blackstone's
Commentaries, Introduction to the laws of England, Chapter 1, Page 69These customs ... now become a permanent rule, which it is not in the
breast of any subsequent judge to alter or vary from according to his private
sentiment; he being sworn to determine, not according to his own private
judgment, but according to the known laws and customs of the land; not
delegated to produce a new law, but to maintain and express the old one.
[must comply with the common law, no discretion to not so comply, it
is a mandate or ministerial act to violate such law on all judges.]
Since this is a mandate at common law that all judges must abide by then
Judges Steinberg and Greene lacked or lost all discretion by not complying with
this common law mandate on the following issues:
1. A Probable Cause hearing to test the veracity of the charges against a
person and to set reasonable Bail. I was denied this right. Blackstone’s CommenA68

taries, Book 4, Chapter 22, Page 293:
THE justice, before whom such prisoner is brought, is bound immediately to
examine the circumstances of the crime alleged and to this end by statute 2
& 3 Ph. & M. c. 10. he is to take in writing the examination of such prisoner
, and the information of those who bring him: which, Mr Lambard observes,
was the first warrant given for the examination of a felon in the English law.
For, at the common law, nemo tenebatur prodere seipsum; and his fault
was not to be wrung out of himself, but rather to be discovered by other
means, and other men. If upon this enquiry it manifestly appears, either
that no such crime was committed, or that the suspicion entertained of the
prisoner was wholly groundless, in such cafes only it is lawful totally to
discharge him. Otherwise he must either be committed to prison, or give
bail; that is, put in securities for his appearance....
2. Defective Indictment Issues:Blackstone’s Commentaries, Book 4, Chapter
23, Page 303:
The offence itself must also be set forth with clearness and certainty.
[Defective indictments, My indictment did not state with clearness what the
unlawful purpose or intent is or was.]
3. Speedy Trial issues: Blackstone’s Commentaries, Book 4, Chapter 23,
Page 308-'
.... at all events, to pay costs, unless the information shall be tried within a
year after issue joined. And
Book 4,Chapter 27, Page 346:
and therefore it is there usual to try all felons immediately, or soon, after
their arraignment. I was not tried till 18 months after my arrest and filing
charges.
4. Inadequate Defense Counsel issues: Blackstone’s Commentaries, Book 4, Chapter
27, Page 351:
[and] at the bar, and instruct him what questions to ask, or even to ask ques
tions for him, with respect to matters of fact: for as to matters of law, arising
on the trial, they are entitled to the assistance of counsel.
A69

Appointed counsel failed to carry out these duties.
5. Required proof as to all criminal charges: Blackstone’s Commentaries,
Book 4, Chapter 27, Page 351:
and he adds this reason, that the witness who affirms, and the accused who
denies, makes an equal balance; there is a necessity therefore to call in a
third man to incline the scale.
Book 3, Chapter 23, Page 371, 372:
For, as they do not allow a less number than two witnesses to, be plena
probation, they call the testimony of one, though never so clear and
positive, femi-plena probatio only, on which no sentence can be founded.
[There was not 2 witnesses to the unlawful purpose before the grand jury or
at trial.]
6. Barring of evidence of a lack of sufficient charge on unlawful purpose:
Blackstone’s Commentaries, Book 4, Chapter 27, Pages 351-352:
no evidence shall be admitted to prove any overt act not expressly laid in the
indictment. [That is, if the person is charged, for example, with possession
with an intent, if the grand jury does not elicit evidence to what that intent
is, it cannot then be admitted in the trial.]
The court allowed the state to produce evidence of the unlawful purpose that
was not before the grand jury and in the indictment.
7. Allowance of any evidence that would be helpful to the Jury: Blackstone’s
Commentaries, Book 4,Chapter 27, Page 353:
that whatsoever could be brought in favor of the subject should be admitted
to be heard.
My Last will and testament was admissible since it went to my state of mind
at the time of the alleged crime(s) and named 2 of the alleged targets in my will.
Obviously this information is important and relevant and would have been helpful
A70

to the jury.
Basis for Liability [in Appeal]
As to Judges Steinberg and Greene, they are liable as follows:
The Queen v The Justices of Suffolk, 18 Q.B. 416, 1852; The Queen v The
Justices of London, 18 Q.B. 421, 1852; Regina v O’Grady, 7 Cox C. C. 247, 1857;
Elliot v Piersol, 1 Pet. 328, 340, 18285 State v Utsch, 184 N.J. Super. 575, 581,
19825 State v Booker, N.J,. App. 20155 State v Hanna, N.J. App. 2012 and State v
Balisteri, 779 F.2d 1191, 1202, 7th Cir. 1985:
If a Judge is required to recuse himself on his own and he fails to do so he
either usurps his jurisdiction or commits a fraud which voids the proceed­
ings.
State v McCabe, 987 A.2d 567,572, N,J, Supreme Court 2010.
Must recuse if average man on the streets would believe so. [I had sworn
statements from 2 average citizens that agree that Judge Steinberg and no
other Camden County Judge should have handled the criminal proceedings
against me. See pages 85-121 below.]
U.S. v Sciuto, 521 F.2d 842, 845, 7th Cir. 1976 and Caperton v Massey Coal Co.,129
S.Ct. 2252, 2254-2255, 2259-2260 and 2263, 2009:
If a judge is required to recuse himself and he doesn’t he violates Due
Process of law.
State v American Can Co., 42 N.J. 32, 38, N.J. Supreme Court 1964; State v
Presley, 94 A.3d 921, 925, N.J. App. 2014 and State v Gieo, 950 A.2d 930,
936, N,J. App. 2008:
If a Judge is required to recuse himself and he doesn’t his orders and
judgments are void.
Liteky v U.S., 501 U.S. 540, 541, 544-546, 548*555, 557-559, 1994; State v
Tucker, 264 N.J. Super. 549, 554-555, 1993; Panitch v Panitch, 770 A.2d 1237,
1239, N.J. Appellate 2001 and State v Plummer, N.J. Appel. 2016.
A71

Any [adverse] extra-judicial contact with a party before the court requires
recusal. [The problems and requirements of such a facts are stated above in
that the judges were beings sued by me.]
As to Rule 12(b) process and right to discovery the courts have said:
Figueroa v. Blackburn, 208 F. 3d 435, 439, 3rd Cir. 1999:
Judge Blackburn moved for summary judgment on the ground that she was
entitled to judicial immunity. With the consent of the parties, and pursuant
to 28 U.S.C. § 636(c) and Fed.R.Civ.P. 73, the motion was adjudicated by
Magistrate Judge Freda L. Wolfson.
Figueroa v. Blackburn, 39 F. Supp. 2d 479, 484, Dist. Court, D. New Jersey 1999:
Federal Rule of Civil Procedure 56 empowers a court to enter summary judg­
ment if there is no genuine issue as to any material fact and the moving
party is entitled to judgment as a matter of law. See FED.R.CIV.P. 56;
Celotex Corp. v. Catrett, 477 U.S. 317, 323, 106 S.Ct. 2548, 91 L.Ed.2d 265
(1986). Once the moving party has satisfied this initial burden, the opposing
party must establish that a genuine issue exists. See Jersey Central Power
& Light Co. v. Lacey Township, 772 F.2d 1103, 1109 (3d Cir.1985), cert,
denied, 475 U.S. 1013, 106 S.Ct. 1190, 89 L.Ed.2d 305 (1986). Not every
issue of fact will be sufficient to defeat a motion for summary judgment;
issues of fact are genuine "ifthe evidence is such that a reasonable iurv
could return a verdict for the nonmoving party.” Anderson v. Liberty Lobby.
Inc.. 477 U.S. 242. 248. 106S.Ct 2505. 91 L.Ed.2d2021986. (Further, the
QDDoainer party cannot rest unon mere allegations!it must present actual
evidence that creates a erenuine issue ofmaterial fact. See id. at 249. 106
S.Ct. 2505 (citiner First Natl Bank ofArizona v. Cities Service Co.. 391 U.S.
253. 290. 88 S.Ct. 1575. 20L.Ed.2d 569 (1968)). The court must draw all
reasonable inferences in the opposine party's favor, and must accept the
party's evidence when considering the merits of the summary iudement
motion. See Pollock v. American Tel. & Tel. Loner Lines. 794 F.2d 860, 864
(3d Cir.1986).
McGary v. City of Portland, 386 F. 3d 1259, 1261, 9th Cir. 2004:
The Supreme Court has cautioned that, in reviewing the sufficiency of the
complaint, ”[t]he issue is not whether a plaintiff will ultimately prevail but
whether the claimant is entitled to offer evidence to support the claims.
Indeed it may appear on the face of the pleadings that a recovery is very
remote and unlike-ly but that is not the test." Jackson v. Carey, 353 F.3d
A72

750, 755 (9th Cir.2003) (quoting Scheuer v. Rhodes, 416 U.S. 232, 236, 94
S.Ct. 1683, 40 L.Ed.2d 90 (1974))....
Swierkiewicz v Sorma N.A., 534 US 506, 511, 2002! Aurecchione v Schoolman
Transp. System, Inc., 426 F. 3d 635, 638, 639, 2nd Cir. 2005; Lambeth v BOARD
OF COMMR'S OF DAVIDSON COUNTY, NC, 407 F.2d 266, 268, 4th Cir. 2005;
Scanlan v. TEXAS A&M UNIVERSITY, 343 F. 3d 533, 536, 5th Cir. 2003; Omar ex
rel. Cannon v. Lindsey, 334 F. 3d 1246, 1247, 11th Cir. 2003; Gonzales v City of
Castle Rock, 366 F. 3d 1093, 1096, 10th Cir. 2004; Pennsylvania Psychiatric Society
. GREEN SPRING HEALTH SERVIES, 280 F. 3d 278, 283, 3rd Cir., 2002; Hewett
v. Willingboro Bd. of Educ., 421 F. Supp. 2d 814, 816, 817 Dist. Court, D. New
Jersey 2006 [Judge Simandle Presiding.]; JEROME STEVENS PHARM- ACEUT
v. Food & Drug Admin., 402 F. 3d 1249, 1253, D.C. Cir. 2005; Cole v U.S. Capital
389 F. 3d 719, 724, 7th Cir. 2004; Rodi v. Southern New England School of Law,
389 F. 3d 5, 13, 1st Cir. 2004; Hanover Ins. Co. v Ryan, 619 F. Supp. 2d 127, BMotion to dismiss, D.C. E.D. Pennsylvania, 2007; Stratton v Portfolio Recovery
Associates, LLC, 770 F. 3d 443, 447, 6th Cir. 2014; Mason v. Coca-Cola Co., 774 F.
Supp. 2d 699, 702, D.C.D.N.J., 2011 and Kuzian v Electrolux Home Products, Inc.,
937 F. Supp. 2d 599, 606, D.C.D.N.J. 2013 [Judge Hillman Presiding].
Judge Hillman has done something else he could not do. The court said If
even 1 issue remains as viable the court cannot dismiss the case in its entirety:
Jones v Bock, 127 S.Ct. 910, 924, 2007we have never heard of an entire complaint being thrown out simply because
one of several discrete claims was barred.... and it is hard to imagine what
A73

purpose such a rule would serve.
Conclusions [in Appeal]
Judge Hillman’s dismissal of this lawsuit for lack of jurisdiction is erroneous
and abusive for the following reasons:
1. The law that Judge Hillman over looked says that if a judge is alleged to
lack, lose or usurp his jurisdiction or discretion the Judge is liable for the injuries
inflicted on the plaintiff, and the plaintiff clearly and repeatedly stated the fact
that the judges lacked, lost or usurped their jurisdiction and/or discretion and the
lawsuit is thus not against the state for which the Judges can thereby claim
sovereign or judicial immunity. The District Court has valid jurisdiction.
2. Even if the Judges are still found to be immune for legal relief, no state
official is immune from equity, prospective, injunctive, costs and/or declaratory
relief which Mr. Reardon sought in this lawsuit.
3. The plaintiff clearly laid out the factual and legal basis for the lack of, loss
of or usurpation of jurisdiction and/or discretion that Judge Hillman admitted he
must accept as true and then failed and refused to accept said statements as true,
and thereby voiding my challenge to the state proceedings as being no valid
proceeding and the judgments being therefore void.
4. The clear law dating back to 1874 is that a Federal Judge can hear a case
on a claim of lack of jurisdiction and if it is substantiated through discovery and
evidence, for which the federal court cannot rely on anything in the challenged
proceedings to void the inquiry, then the court could order the state court to correct
A74

its records that they lacked either subject matter and/or personal jurisdiction and
that as a result the judgment must be voided.
5. Mr. Reardon has sued the Judges for the frauds perpetrated in the court
proceedings to ensure that Mr. Reardon was convicted and for which they would
make sure I was not relieved from my wrongful conviction.
6.1 have alleged the defendants have a Common Law Mandate upon them
that prevents them from ruling contrary to the Common Law of England and that
they did fail to comply with said mandate and Common Law issues and rights in 7
areas of law and facts making them liable for lack of jurisdiction and/or discretion
to not comply with the Common Law and its Mandate. The courts have said:
In re Charter Communications, Inc., 393 F. 3d 771, 784, 8th Circuit 2005:
Ministerial acts have long been recognized as nonjudicial by the Supreme
Court. See, e.g., Custiss v. Georgetown & Alexandria Turnpike
Co., 6 Crancb 233, 10 US. 233, 236, 3L.Ed. 209 (1810).
7. According to Bouvier’s Law Dictionary, 3rd Revision, 8th Edition, 1984
Reprint, Page 1304, “Fraud”:
An endeavor to alter rights by deception, touching on motive or Circumven­
tion not touching on motive. And
State v Zisa, N.J. App. Court, 2015:
There is no bar from a lawsuit that would allow issues of fraud to be decided
in a pre-trial motion since disputes of frauds are for a jury to decide.
The state defendants were fully aware the fact that they had to prove their
immunity since at A Rule 12 stage in which the claim is they lacked, usurped or
lost their jurisdiction and/or discretion and that they cannot just rely on their mere
A75

claim of Sovereign and Judicial Immunity and they convinced the court to ignore
the pleaded facts and law to serve their motive to avoid liability and the motive to
deny me of my rights listed in this lawsuit.
8. The State proceedings are in fact void and the appellees lost, lacked or
usurped their jurisdiction and/or discretion and are not entitled to claim immunity
under Rule 12(b) And the court has subject matter jurisdiction and Judge Hillman
could not give credibility, credence or validity to the void state proceedings and as
result his order dismissing this case is in fact void and unenforceable in any other
court.
9. Mr. Reardon did seek declaratory, prospective, injunctive, costs and equity
relief for which Judge Hillman failed to carry out a Scheuer v Rhodes, 412 U.S. 232
, 237, 1974, analysis and he either committed error or abused his discretion by not
so conducting such a hearing and review. See Also Laskaris v Thornburgh, 661
F.2d 23, 25-26, 3rd Cir., 981.
10. Mr. Reardon did state in the original Lawsuit and intended amendments
that the State defendants lacked, lost or usurped their jurisdiction which is requir­
ed to make a challenge to the jurisdiction of the State Judges and they are liable
for said lacks and that the other judges so lacked, lost or usurped their jurisdiction
by not setting aside the void orders and proceedings of Judges Steinberg and
Greene and that Judge Hillman could not rely on anything from the challenged
proceedings to void the right to such a challenge and the court simply said, they
are judges, they are prosecutors and they are immune and thus failed to address
A76

my claims of jurisdiction and failed to address said claims both as to equity and
legal claims. Thompson v Whitman @ 467-468.
11. Mr. Reardon did spell out both in fact and law that Judges Steinberg and
Greene lacked jurisdiction due to case law criteria and Defendants were liable and
lacked jurisdiction since they are barred from granting validity, credence and credi
-bility to the void proceedings of Judge Greene and Steinberg as amply supported
by the case law on recusal and jurisdictional loss thereof.
12. This Court said in Arc of New Jersey, Inc. v State of NJ, 950 F. Supp.
637, 639, Dist. Court, D. New Jersey, 1996, that there is no conflict between
State and Federal Commity and Raymark Industries, Inc. v Lai, 973 F. 2d 1125,
1132, 3rd Cir. 1992.
13. For all the reasons stated above, Judge Hillman could not so approve
and sanction such violations. Once a proceeding or order is void, no other court can
validate, give credence or credibility to the said proceedings and Judge Hillman
has done that the law prohibits him from doing and that is to validate void proceed
-ings and he has also turned an issue of fact into a legal issue to extend himself
and his office to protect the liability of the State defendants that he has no discre­
tion to so do and for which he can be sued for such a willful act.
Statement 10 in Amended complaint:
Mr. Reardon seeks any relief to correct the record in the state as to the
following issues at Common Law that no Judge has the right to not uphold and
comply with. See Blackstone's Commentaries, Introduction to the Laws of England,
A77

Chapter 1, Pages 69. Said failure are for Non-Discretionary, Minsterial, Non-Judi­
cial, and Mandatory Acts that they are liable for and have no immunity from.
Said Common Law Mandates are to the following issues that no court has
any discretion to sanction and give credence to and thus the state has had at least
7 opportunities to so comply with the Common Law Mandates and my rights and
they have repeatedly failed to so comply with them and all orders by the Judges,
Judges Steinberg, Greene, Wells and Ragonese are of no force or effect that can be
upheld in any other court. The violations are for the following Rights, That even
the State Supreme Court has held viable under the common Law which are: See
U.S. v Jepson, 90 F.Supp. @987-989, 1950, and Allstate Insurance Co. Of New
Jersey v Lajara, 117 A.3d 1221, 2015 and Thompson v Whitman, 85 U.S. 457, 467468. The Common Law Rights and Mandates violated are:
A. Failure to produce at least 2 credible witnesses to the 2nd Degree Crimes
that the State Courts have refused to comply with. Both at trial and before the
Grand Jury. Blackstone's Commentaries, Book 4, Chapter 27, Page 346, 351 and
Book 3, Chapter 23, Pages 371-372;
B. The State admitted into evidence at the trial that supposedly supported
the actual purpose of the possession of the explosive device by Mr. Reardon, that is
it was not testified to before the Gand Jury that the explosive device was meant to
be a parcel bomb, directed and to be mailed to some Camden County Judge, my exwife, a Camden County Court clerk, or my ex-girl friend. This was barred as per
Blackstone's Commentaries, Book 4, Chapter 27, Pages 351-352.
A78

C. The state denied my right to a probable cause hearing to require the state
to produce it's evidence as to the alleged crimes and they failed to do that. This is
to test the veracity of the charges and for setting of reasonable bail. Blackstone's
Commentaries, Book 4, Chapter 22, Page 293.
D. The state failed to try me "immediately, or soon, after my arraignment"
and I was arraigned in July 1990 and not tried till December 1991. Blackstone's
Commentaries, Book 4, Chapter 27, Page 346 and Chapter 23, Page 308.
E. The state failed to grant me effective assistance of Counsel in that they
failed to instruct me as to the types of questions to be asked of witnesses or to so
ask them himself. Blackstone's Commentaries, Book 4, Chapter 27, Page 350.
F. The indictment of the plaintiff was defective for the Following reasons:
(l) It did not descend to particulars. Blackstone's Commentaries, Book 4,
Chapter 27, Page 303.
(2) It did not have the testimony of at least 2 credible witnesses to the 2nd
degree charges.
(3) It was based on 3rd degree crime law only and the grand jury was never
instructed as to the requirements of 2nd degree crimes and I was tried, found
guilty and sentenced on 2nd degree and 3rd degree crimes.
(4) The indictment was never superceded by a new indictment as to the 2nd
degree crimes and I was never so served with a superceding indictment that did
correct the original indictment.
(5) The indictment served on the plaintiff was not signed by the foreman of
A79

the grand jury and was not dated.
(6) The indictment only stated and was tried on the mere wording of the
statutes that I was charged under and this is not permitted.
(7) The plaintiff was not served with the indictment till After 10/31/91 and I
asked for a Bill of Particulars in Late 1990 and the state failed to proffer or serve
me with a valid indictment or a valid Bill of Particulars before trial and I was
denied Due Process of notice and thus an inability to be heard which voids such
proceedings and are not entitled to respect in any other court and voids the proceed
-ings and no other court can grant validity or credence to said void proceedings and
the lower courts were barred from relying on anything in said proceedings. Thomp­
son v Whitman, 85 U.S. 457, 467*468.
(8) Given the fact the indictment was and is defective as to the 2nd Degree
crimes, the court’s jurisdiction over said alleged crimes was without jurisdiction to
to Try Mr. Reardon on.
G. The State failed to give me a Bill of particulars as required by law since
the indictment failed to descend to Particulars and though I asked for said Bill in
late 1990 the state never provided me with such.
H. According to the English Common Law Cases of The Queen v The
Justices of Suffolk, 18 Q.B. 416, 1852J The Queen v The Justices of London, 18
Q.B. 421, 1852 and Regina v O'Grady, 7 Coxx C.C., 247, 1857 that if a judge is to
recuse himself and he fails he either lost, lacked or usurped his jurisdiction and
discretion or he commits a fraud and in either case the judgment is in fact "Void".
A80

The clear law in this lawsuit required Judges Steinberg and Greene to recuse
themselves, deny the Search warrant applications of Simon and Dawson since it
was not granted by a neutral and detached judge and transfer my criminal charges
to another County and they failed to so do that. This duty was required based upon
Judge Rudolph Rossetti’s June 1990 order of transfer of a Civil Lawsuit that I filed
in Camden County in 1989 for which the Judge acted Sua Sponte to issue such
order for the appearances of Justice in that 1 of the defendants in said civil case
was a Camden County Court Clerk. In Mr. Reardon’s criminal case I had 2 Federal
Lawsuits against Judge Steinberg and Sgt. Simon of Runnemede Police Depart­
ment prior to their actions to take the Warrantless Subsequent Search Warrant to
Judge Steinberg who had adverse Extra Judicial Contact with Mr.Reardon for
which Both Sgt. Simon and Judge Steinberg, for the appearances of justice should
(a) not have brought the Search Warrant since the Chief was present during the
warrantless Search and (b) for which Judge Steinberg had no exigent circum­
stances or reasons to not send Sgt. Simon to one of probably 12 other judges to
approve of the Search Warrant application.
I. The other judges at the appellate and trial court levels usurped, lacked or
lost jurisdiction due to the void actions of Judges Steinberg and Greene and they
failed to set aside the void orders they were required to do and their decisions
cannot have any validity in this court, which is another defect in this court's prior
decision, and are also void. Mr. Reardon gave the state at least 7 chances to comply
with their mandatory duty to set aside the void proceedings of Judges Greene and
A81

Steinberg and they refused and failed to so do. A Judge Must recuse himself on his
own motion when he has adverse extra-judicial contact with a person's matter
before him and Mr. Reardon sued Judge Steinberg and had at least 2 prior such
lawsuits pending in the federal courts at the time of My criminal charges.
(a) If a Judge is required to recuse himself, and fails to so do, he loses Juris­
diction. The Queen v The Justices of Suffolk, 18 Q.B. 416, 1852; The Queen v The
Justices of London, 18 QW.B.421, 1852; Regina v O’Grady, 7 Coxx C.C. 247, 1857
and Elliot v Piersol, 1 Pet. 328, 340, 1828;
(b) He violates Due Process of law. U.S. v Sciuto, 521 F.2d 842, 845, 7thCir.
1976;
(c) He commits Official Misconduct. State v Thompson, 953 A.2d 491,496,
N.J. App. 2008; State v Thompson, 953 A.2d 491,496, N.J. App. 2008;
(d) The judgments of said judge are void. State v American Can Co., 42 N.J.
32, 38, N.J. Supreme Court 1964;
(e) If the average person would believe the Judge is required to recuse him­
self or harbors doubts about his impartiality, the judge must recuse himself.
U.S. v Polludniak, 657 F.2d 948, Cert. Den. 102 S.Ct. 1431, 9th Cir. 1982 and
State v McCabe, 987 A.2d 567, 572, N,J, Supreme Court 2010.
(0 A judge is required to recuse himself on his own motion if the judge has
even the appearance of partiality. State v Utsch, 184 N.J. Super 575, 581,
1982; State v Booker, N.J. App. 2015; State v Hanna, N.J. App. 2012; State v
Balisteri,779 F.2d 1191, 1202, 7th Cir. 1985;
A82

(g) A judge that is required to recuse himself and does not so do is not a
neutral and detached judge and the Search warrants are void by such judge. State
v Presley , 94 A.3d 921, 925, N.J. App. 2014; State v Gieo, 950 A.2d 930, 936, N.J.
APP. 2008.
(h) 28 U.S.C. 455 has application in the state. State v McCann, 919 A.2d
136,143, 144,N.J.App. 2007;and
(0 28 U.S.C. 455 is self executing and an affidavit is not needed. Taylor v
O'Grady, 888 F.2d 1189, 1200, 1201, 7th Cir. 1989.
(J) It is the Duty of the prosecutor, and thus the Attorney General's office in
defending state officials in civil suits, to see that Justice is done not that they get a
favorable decision at any cost. State v Zisa, N.J. App. 2015. The Attorney General's
office so presented erroneous facts and law that the judges named are and were
immune when the clear facts and law is they are not. This failure to disclose the
Common Law duties and thus liability of the defendants, is fraud upon the Court
that has no time period to bring to the court such claims.
(K) Judge Steinberg's refusal to transfer Mr. Reardon's Criminal Case to
another county for bias is supported by Judge Rudolph Rossetti's June 1990 Sua
Sponte decision to transfer a civil suit to another county due to one of the defend­
ants being a court employee. It gave the appearance of bias. In Mr. Reardon's
criminal charges there was 2 County employees that were alleged targets. These
were (a) A Camden County Judge and (b) A Camden County Court Clerk, my
ex-wife, Ms.Reardon. The trial, conviction and sentence are illegal and unconstituA83

tional due to this bias not accepted by Judges Steinberg and Greene and then for
the failure of all the other Judges failure to set aside these void proceedings.

i

\

A84

Affidavit of Bias for Recusal:
None of the delays were attributable to any delay by Mr. Reardon. They
were all caused by the Court or prosecution and were excessive delays in routine
matters. Mr. Reardon made every effort to be heard promptly but wad denied.
Prejudice caused by the delays for speedy trial right as established in Barker v
Wingo, @ 2193.
1. Mr. Reardon's reputation in the community was slandered due to the false
charges to the point he lost his friendships he had made at his place employment.
They turned on Mr. Reardon.
2. Mr. Reardon lost his $30,000.00+/yr. Job with the Postal Service which
adversely affect his ability to post bail and have access to meaningful Law library
access.
3. As a result of the above, Mr. Reardon lost personal possessions he will
have to replace at a great expense to him.
4. The jailing of Mr. Reardon put him in jeopardy with his Child Support
obligation that would only compound my position if convicted and sent to jail.
5. Jail cost Mr. Reardon the ability to make investigations into the criminal
charges and state's evidence and witnesses which adversely affected his ability to
defend himself.
6. The jailing of Mr. Reardon denied him of the ability to obtain the follow­
ing logs for from the County Jail: (a) 2nd Floor North Logs! (b) Hall logs for the 2nd
floor; ( c) Intake logs for the jail; ( d) internal affairs logs; ( e) Gun logs for the jail
A85

and ( 0 The visitors logs showing that Dt. Sgt. Bruce Dawson in fact came to the
County Jail to Ask Mr. Reardon to give him permission to conduct a 2nd search of
Mr. Reardon's apartment, around 6/24/90, which could have been used to prove
that he lied about coming to the jail to see me and thus he is not a reputable
witness to be believed.
7. The jailing of Mr. Reardon severely hampered his ability to defend and
access to the law library of the jail on a daily means to defend and seek aid for
the law regarding the actions of the state's witnesses.
8. As a direct result of my jailing I was denied to evidence that would have
shown that Sgt. Simon lied at the suppression hearing and that not only was
there no probable cause but no exigency. Said evidence was statements by Sgt.
Dawson and Pictures of the alleged bomb.
9. The continued jailing of Myself resulted in a tactical advantage to the
state due to the above and the fact that I gave a statement around 10/91 which
was later used against me as to the inculpatory parts but was denied the right to
use the exculpatory parts as welt as the admission of all other evidence that was
discovered after 10/31 /90 as stated by Prosecutor Rossetti and the delays Judge
Greene approved and sanctioned for said evidence to be admitted.
10. As a result of my continued incarceration and ability to gather evidence
and the failure of Stand-by counsel to aid me in this quest I was forced to surrend­
er his rights against self-incrimination for his ability to gather witnesses for his
defense.
A86

11.1 was forced to surrender my 5th Amendment rights against self incrimi­
nation for the assertion or ability to gather evidence in support of his 4th, 6th and
14th Amendment rights to Due Process to fair hearings.
We the undersigned people, having read the preceding statements of John
Reardon do hereby agree that both Judges Greene and Steinberg should not have
sat on Mr. Reardon's criminal case and that they in fact showed their bias and
animus against Mr. Reardon and he was denied of his Constitutional Rights as he
set them out in these papers.

Martin Ackley

Dated: 9/4/14

Tim Austin

Dated: 9/5/14

Cathleen Brooks

Dated: 9/5/14

A87

I) Basis for when a Judge or prosecutor can be sued:
Antoine v Byers & Anderson Inc., 508 U.S. 429, 435, 1993:
Indeed, we have recently held that iudees are not entitled to absolute
immunity when acting in their administrative capacity. Forrester v. White.
484 U. S. 219. 229 (1988). 436 (absolute immunity from state law tort
actions available to executive officials only when their conduct is
discretionary).
Bogan v. Scott-Harris, 523 US 44, 51-52, 1998-'
Respondent's heavy reliance on our decision in Amy v Supervisors, 11 Wall.
136 (1871), is misguided for this very reason. In that case, we held that
local legislators could be held liable for violating a court order to low a tax
sufficient to nay a judgment, but only because the court order had created a
ministerial duty. Id., at 138 ("The rule is well settled, that where the law
requires **52** absolutely a ministerial act to be done bv a public officer.
and he nesrlects or refuses to do such act, he may be compelled to respond in
damaees to the extent of the injury arising from his conduct"). The treatises
cited bv respondent confirm that this distinction between legislative and
ministerial duties was dispositive ofthe rieht to absolute immunity. See.
e.e.. Cooley 377 (statins that local legislators may be held liable! only for
their n'ministerial" dutiesX Mechem § 647 (same).
DePiero v. City of Macedonia, 180 F. 3d 770, 784, 6th Cir. 1999; Melo v
Hafer,13 F.3d 736, 744,3rd Cir. 1994; Pierson v. Ray, 386 US 547, 561-563, 56567, 1967; Bradley v Fisher, 80 U.S. 335, 351, 352, 1872; Mireles v Waco, 502 US 9,
11, 12, 1991; Kalina v. Fletcher, 522 US 118, Ft. Nt.s 11 and 13, 1997,* Martin v
Bicking, 30 F. Supp. 2d 511, 512, Dist.Court, ED Pennsylvania 1998,* Figueroa v
Blackburn, 39 F. Supp. 2d 479, 485, Dist. Court, D. New Jersey 1999,* Travis v.
Miller, 226 F. Supp. 2d 663, 667, Dist. Court, ED Pennsylvania 2002; Stankowski v
Barley, 487 F. Supp. 2d 543, 551, Dist. Court, MD Pennsylvania 2007,* Rehberg v
Paulk, 132 S. Ct. 1497, 1503, 2012; Russell v Richardson, 905 F. 3d 239, 247, 3rd
Cir. 2018 and Rhett v. Salas, Dist. Court, D. New Jersey 2019.
A88

In re Charter Communications, Inc., 393 F. 3d 771, 784, 8th Circuit 2005:
Ministerial acts have long been recognized as nonjudicial by the Supreme
Court. See, e.g., Custiss v. Georgetown & Alexandria Turnpike
Co., 6 Crunch 233, 10 U.S. 233, 236, 3L.Ed. 209 (1810).
Melo v Hafer, 13 F. 3d 736, 744, 3rd Cir. 1994:
First, a judge is not immune from liability for nonjudicial actions, i.e.,
actions not taken in the judge's judicial capacity. Second, a iudsre is
not immune for actions, thoueh judicial in nature, taken in the complete
absence ofall jurisdiction. Mireles. 502 U.S. at 11-12. 112
S.Ct. 286 (citations omitted); see also Barnes. 105 F.3d at 1116 (same).
Common Law and Common Law Mandate: Introduction to the laws of England,
Chapter 1, Page 69:
For it is an established rule to abide by former precedents, where the fame
points come again in litigation; as well to keep the scale of justice even and
steady, and not liable to waver with every new judge's opinion; as also
because the law in that case beiner solemnly declared and determined, what
before was uncertain, and perhaps indifferent, is now become a perma-nent
rule, which it is not in the breast ofany subsequent judge to alter or vary
from, accord -ins to his private sentiments»he being sworn to determine, not
according to his own private judgment. but accordinsr to the known laws and
customs of the land'! not delegated to pronounce a new law, but to maintain
and expound the old one.
The Queen v The Justices of Suffolk, 18 Q.B. 416, 1852; The Queen v The
Justices of London, 18 Q.B. 421, 1852; Regina v O’Grady, 7 Cox C.C. 247, 1857;
State v Utsch, 184 N.J. Super. 575, 581, 1982; State v Booker, N.J,. App. 2015;
State v Hanna, N.J. App. 2012; State v Balisteri, 779 F.2d 1191, 1202, 7th
Cir. 1985 and Elliot v Piesol, 1 Pet. 328, 340:
If a Judge is required to recuse himself on his own and he fails to so do he
either usurps his jurisdiction or commits a fraud which voids the proceed­
ings.
U.S. v Sciuto, 521 F.2d 842, 845, 7th Cir. 1976 and Caperton v Massey Coal
A89

CO., 129 S.Ct. 2252, 2254-2252, 2259-2260 and 2263, 2009.
If a judge is required to recuse himself and he doesn’t he violates Due
Process of law.
State v American Can Co., 42 N.J. 32, 38, N.J. Supreme Court 1964; State v
Presley, 94 A.3d 921, 925, N.J. App. 2014 and State v Gieo, 950 A.2d 930, 936, N,J.
App. 2008:
If a Judge is required to recuse himself and he doesn’t his judgments and
orders are void.
Liteky v U.S., 501 U.S. 540, 541, 544-546, 548-555, 557-559, 1994.
Any [adverse] extra-judicial contact with a party before the court requires
recusal.
Facts relevant to the above law
1. Mr. Reardon Sued Judge Steinberg in 1988 and 1989 in Federal Court for
which were pending and involving Judge Steinberg and Police Officer A. L. Simon
of Runnemede Police department.
2. Judge Steinberg thus had Adverse Extra Judicial Contact with Mr.
Reardon prior to his granting a warrantless search of Mr. Reardon’s apartment on
June 20, 1990 by Sgt. A. L. Simon of Runnemede, N.J. 08078.
3. The clear law is that he had said adverse extra-judicial contact with Mr.
Reardon prior to his becoming involved in the criminal charges lodged against Mr.
Reardon by Sgt. A. L. Simon of June 1990 for which he was required to sua sponte
recuse himself on his own motion and is supported as follows:
The Queen v The Justices of Suffolk, 18 Q.B. 416, 1852; The Queen v The
Justices of London, 18 Q.B. 421, 1852; Regina v O’Grady, 7 Cox C.C. 247, 1857;
A90

State v Utsch, 184 N.J. Super. 575, 581, 1982; State v Booker, N.J,. App. 2015."
State v Hanna, N.J. App. 2012; State v Balisteri, 779 F.2d 1191, 1202, 7th Cir.
1985 and Elliot v Piesol, 1 Pet. 328, 340:
If a Judge is required to recuse himself on his own and he fails to so do he
either usurps his jurisdiction or commits a fraud which voids the
proceedings.
U.S. v Sciuto, 521 F.2d 842, 845, 7th Cir. 1976 and Caperton v Massey Coal
Co., 129 S.Ct. 2252, 2254-2252, 2259-2260 and 2263, 2009.
If a judge is required to recuse himself and he doesn’t he violates Due
Process of law.
State v American Can Co., 42 N.J. 32, 38, N.J. Supreme Court 1964." State v
Presley, 94 A.3d 921, 925, N.J. App. 2014 and State v Gieo, 950 A.2d 930, 936, N,J.
App. 2008:
If a Judge is required to recuse himself and he doesn’t his judgments and
orders are void.
Neder v. United States, 527 US 1, 8, 1999: [This case was cited in US v.
Lewis, 766 F. 3d 255, 264, 3rd Cir., 2014]; State v. Presley, 94 A. 3d 921, 926-929,
N.J. App. 2014 and State v. Frankel, 847 A. 2d 561, N.J. Supreme Court, 2004:
void proceedings based on refusal to recuse requires reversal,
Elliot v Piersol, 1 Pet. 328, 340, 26 U.S. 328, 340, 1828:
The U.S. Supreme Court stated that if a court is "without authority, its
judgments and orders are regarded as nullities. They are not voidable, but
simply void; and form no bar to a recovery sought, even prior to a reversal in
opposition to them. They constitute no justifica -tion,' and all persons
concerned in executing such judgments or sentences, are considered, in law,
as trespassers." [enforcement of void orders is such.]
Liteky v U.S., 501 U.S. 540, 541, 544-546, 548-555, 557-559, 1994; State v
A91

Tucker, 264 N.J. Super. 549, 554-555, 1993; Panitch v Panitch, 770 A.2d 1237,
1239, N.J. Appellate 2001 and State v Plummer, N.J. Appel. 2016.
Any extra-judicial contact with a party before the court requires recusal.
[The problems and requirements of such facts are stated above in that the
judges were beings sued by me.] 196 N.J. at 517, 958 A.2d 446.
State v Hannah, N.J. App. 2012; U.S. v Polludniak, 657 F.2d 948, 954,
9th Cir. 1982 and State v. McCabe, 987 A. 2d 567, 572, NJ: Supreme Court 2010.
In DeNike, supra,
those principles guided us to the following standard to evaluate requests for
recusal^ "Would a reasonable, fully informed person have doubts about the
judge's impartiality?"
DeNike v. Cupo. 196 N.J. 502, 507 /2008).
Judges also have a duty to "avoid actual conflicts as well as the appearance
of impropriety to promote confidence in the integrity and impartiality of the
Judiciary." "'Fundamental to any consideration of possible judicial disqualifi
-cation is a showing of preju- dice or potential bias.'" Marshall supra, 148
N.J. at 276 (quoting State v. Flowers, 109 N.J. Super. 309, 312 /App. Div.
1970)).
A judge should disqualify himself or herself in a proceeding in which the
judge's impartiality might reasonably be questioned including but not
limited to instances where:
(a) the judge has a personal bias or prejudice concerning a party or a party's
lawyer.
State v Booker, N.J. App. 2015:
we noted that the Court Rule preempts the legislation in light of the Court's
constitutional authority over the administration of the courts. We therefore
confine our discussion to the Court Rule. Rule V 12-1 (c) and (g) provide:
The judge of any court shall be disqualified on the court's own motion and
shall not sit in any matter, if the judge (g) when there is any other reason
which might preclude a fair and unbiased hearing and judgment or which
might reasonably lead counsel or the parties to believe so. [I had 2 federal
Lawsuit pending against the state judge.]We therefore agree with defendant
A92

to the extent he contends a search warrant issued in the absence of an oath
or affirmation is invalid and requires suppression of evidence obtained
pursuant thereto. See State v. Moriarty, 39 N.J. 502, 503, 189 A.2d 210
(1963) ("It is regrettable that a warrant which would have been justified by
the known facts must fall, but the failure to comply with the [oath or
affirmation] requirement of the Constitutions permits no other result.").
United States v. Balistrieri, 779 F.2d 1191, 1202 (7th Cir.1985). In re
presentment of Camden City Grand Jury, 124 N.J.Super. 16, 21, N.J.App.
1973:
R. 1-12-1, "Disqualification and Disability ofJudges" provides in pertinent
part The judge of any court shall disqualify himself on his own motion and
shall not sit in any matter, if he has even the appearance of bias.
4. Judge Steinberg was the criminal assignment Judge of Camden County in
1990.
5. Fellow Judge Rudolph Rossetti transferred a civil case of mine to another
county, Sua Sponte, due to one of the defendants of said lawsuit was a Camden
County Court Clerk and the appearance of justice required the matter to be heard
in a different County. Judge Rossetti did so transfer this civil matter.
Ms.Reardon, a Camden County Court Clerk’s testimony in 1991, was:
December 5, 1991 Court Transcript, Page 120, testimony of Virginia Reardon.
Q. [Prosecutor Karen Caplan]: and now six—now about the next date, excuse
me.
A. All right. Before that there was a June 26.
There was a suit filed on June 26, 1989. Superior Court, Law Division,
under complaint L-5745-89. That was filed in Camden and Later transferred
to Mercer County.
Q. [K.C.] Do you know why these cases were transferred?
A. Well, 6/26/89 case I would think was transferred because it had to do with
me working in the court system.
A93

Q.[K.C.] And do you know when it was transferred?
A. January 30, 1990. Transferred by Judge Rossetti. He was the one who
signed the order.
6. Mr. Reardon’s criminal charges involved an unnamed Judge of Camden
County and a Camden County Court Clerk, Ms. Reardon for which Judge Stein­
berg should have transferred my criminal charges to another County and he failed
to so do that.
Conclusions by Mr. Reardon:
Judge Steinberg was required to recuse himself Sua Sponte and he failed to
do that; he was barred from assigning a Camden County Judge to hear and try Mr.
Reardon; and his decision to approve a Post Search Warrant of Sgt. A. L. Simon
was not by a neutral and impartial or detached Judge as follows:
State v. Presley, 94 A. 3d 921, 925 - NJ: Appellate Div. 2014; State v. Gioe, 950 A.
2d 930, 936 NJ: Appellate Div. 2008; State v Booker, N.J. App. 2015 and Johnson
v. United States, 333 U.S. 10, 13-14, 68 S.Ct. 367, 369, 92 L.Ed. 436, 440 (1948).
Cites a 1949 New Jersey case that holds that if a judge should recuse himself and
he doesn’t so do, that the Search warrant he approves is void since it was not by a
neutral and detached Magistrate.
The Law is clear that it is the people’s understanding of the case laws and
Statutes that is to prevail and are the HARD FACTS the people have the right to
rely on to guide them in what they can and cannot do as follows:
Juzwin v. Asbestos Corp., Ltd., 900 F. 2d 686, 692, 3rd Cir. 1990:
A94

It is not surprising, then, that modern jurispru -dence recognizes no set
principle of retroactivity. [8] Instead, modern decisions reflect a balancing
approach which recognizes that "statutory or even judge-made rules of law
are hard facts on which people must rely in making decisions and in shaping
their conduct." Id. at 199, 93 S.Ct. at 1468. Justice Harlan aptly called this
approach the "ambulatory retroactivity doctrine." Mackey v. United States,
401 U.S. 667, 681, 91 S.Ct. 1160, 1174, 28 L.Ed.2d 404 (1971) (Harlan, J.,
concurring).
It is further noted that the people’s Common Law Rights and Remedies are
in fact available and required to be honored by the State as per:
Romero v. International Terminal Operating Co., 358 US 354, 363, 1959:
In addition, common-law remedies were, under the saving clause, enforcible
in the courts of the States and on the common-law side of the lower federal
courts....
II) What Constitutes a Void Order and can they be validated or given credence or
credibility by other courts?
See Elliot v Piersol on Page 4 above.
United Student Aid Funds, Inc. v. Espinosa, 130 S.Ct. 1367, 1377, 2010:
orders can only be void if (a) There is lack of notice; (b) the party was not v
given the right to be heard or (c) there is a jurisdictional defect as
to subject matter or the person. [Since the English cases did not deal with
either notice or hearing that only leaves jurisdictional defects due to failure
to recuse.]
Sabariego v Maverick, 124 US 261, 293, 31 L Ed 430, 8 S.Ct. 461, 1886:
A judgment of a court without hearing the party or giving him an opportun­
ity to be heard is not a judicial determination of his rights and is not entitled
to respect in any other tribunal, [void orders, state or federal, for lack of
Jurisdiction.]
....Lubben v. Selective Service System Local Bd. No. 27, 453 F.2d 645, 14 A.L.R.
Fed. 298 (C.A.1 Mass. 1972) and Hobbs v. U.S. Office of Personnel Management,
485 F.Supp. 456 (M.D. Fla. 1980).
A95

World-Wide Volkwagen Corp. v. Woodson, 444 U.S. 286, 291 (1980):
“A judgment rendered in violation of due process is void in the rendering
State and is not entitled to full faith and credit elsewhere. Pennoyer v Neff,
95 U.S. 714, 732*733, (1878).” [void orders, state or federal, for lack of Juris­
diction.]
No Judge Can validate and uphold or enforce void proceedings or judgments
or deny a challenge to the jurisdiction of the challenged court.
Raymark Industries, Inc. v Lai, 973 F. 2d 1125, 1132, 3rd Cir. 1992; Budget
linds v White, 536 F.3d 244, 259, 3rd Cir. 2008; US v. Zimmerman, 3rd Cir. 2012;
The Queen v The Justices of Suffolk, 18 Q.B. 416, 1852; The Queen v the Justices
of London, 18 Q.B. 421, 1852 and Regina v O’Grady, 7 Coxx C.C. 247, 1857.
.... there is no discretion to not set aside its prior order if it is void due to
lack of personal or subject matter jurisdiction or for failure to give notice or
right to be heard as per Due Process of Law.
Budget Blinds v White, 536 F.3d 244, 259, 3rd Cir. 2008:
Finally, we do not think a registering court seriously threatens the interest
in comity when it vacates a rendering court's default judgment under Rule
60(b)(4) for lack of personal jurisdiction. If the rendering court did not have
personal jurisdiction, then the judgment was not merely erroneous; it never
should have been entered in the first place.
Raymark Industries, Inc. v Lai, 973 F. 2d 1125, 1132, 3rd Cir. 1992:
There appears to be only one exception to this hard and fast rule of federalstate comity, and it comes into play only when the state proceedings are
considered a legal nullity and thus void ab initio.
A void judgment is to be distinguished from an erroneous one, in that the
matter is subject only to direct attack. A void judgment is one which,
from its inception, was a complete nullity and without legal effect.
Ill) Common Law Rights found in Blackstone’s Commentaries:
A). Book 4, Chapter 23, Page 303: Indictments:
A96

The offence itself must also be set forth with clearness and certainty:
Russell v. United States, 369 U.S. 749, 763-764, 1962.
A defective indictment negates jurisdiction.
US v. Omer, 429 F. 3d 835, 836 9th Cir. 2005, US v. Weaver, Dist. Court,
WD West Virginia 2010; US v. Lopez, 2 F. 3d 1342, 1368, 5th Cir. 1993; US v.
Prentiss, 256 F. 3d 971, 994, 10th Cir. 2001
defective indictment causes loss of jurisdiction
Illinois v. Somerville, 410 US 458, 479, 1973:
The majority treats it as unquestionably clear that the failure to allege that
intent in the indictment made the indictment fatally defective. [In my case
The state did not spell out the intent of the unlawful purpose.]
United States v. Mechanik, 475 US 66, 84, 1986:
Respect for the rule of law demands that improperly procured indictments be
quashed even after conviction, because "only by upsetting convictions so
obtained can the ardor of prosecuting officials be kept within legal bounds
and justice be secured; for in modern times all prosecution is in the hands of
officials."
United States v. Cruikshank, 92 US 542, 1876: Page 556:
In criminal cases, prosecuted under the laws of the United States, the accus­
ed has the constitu tional right "to be informed 558*558 of the nature and
cause of the accusation." Amend. VI. In United States v. Mills. 7 Pet.1042.
this was construed to mean, that the indictment must set forth the offence
"with clearness and all necessary certainty, to apprise the accused of the
crime with which he stands charged;" and in United States v. Cook. 17 Wall.
174. that "every ingredient of which the offence is composed must be
accurately and clearly alleged." It is an elementary principle of criminal
pleading, that where the definition of an offence, whether it be at common
law or by statute, "includes generic terms, it is not suffi-cient that the
indictment shall charge the offence in the same generic terms as in the
definition; but it must state the species,
it must descend to particulars.
A97

1 Arch. Cr. Pr. and PL, 291. The object of the indictment is, first, to furnish
the accused with such a description of the charge against him as will enable
him to make his defence, and avail himself of his conviction or acquittal for

protection against a further prosecution for the same cause; and, second, to
inform the court of the facts alleged, so that it may decide whether they are
sufficient in law to support a convic-tion, if one should be had. For this, facts
are to be stated, not conclusions of law alone. A crime is made up of acts and
intent; and these must be set forth in the indictment, with reasonable
particularity of time, place, and circumstances.
My indictment was defective for the following reasonsA. It did not inform the Grand Jury as to how the bomb was to be used, or
against whom it was to be used, or when it was to be used, since I was found trying
to commit suicide at the time of the search and seizure of the bomb.
B. It did not include the 2nd Degree charges and the grand Jury was never
instructed on the law for such charges.
C. The state failed to seek a superseding indictment as to B above.
D. There was not 2 witnesses to the overt act of unlawful purpose as per the
Common Law rights under the 6th and 9th Amendments and the due process clause
of the 14th Amendment as to state liberties in criminal trials.
E. It was not signed and dated by the Foreman of the Grand Jury.
F. It was not provided to the plaintiff prior to November 1991.
G. I sought a Bill of Particulars around August of 1990 which was never
given to Mr. Reardon at all, and in hind sight was required since the indictment
did not descend to particulars.
H. The state never secured or procured a superseding indictment and such
an indictment was never produced or served on Mr. Reardon before trial.
I. The indictment was procured without the required number of witnesses as
A98

to the 2nd degree crimes, which is 2, and on the 3rd degree crimes there was only 1
such witness. And
J. The indictment was procured on the mere recitation of the Statute which
is not permitted.
U.S. v Tucker, 703 F.3d 205, 211, Ft. Nt. 7, 3rd Cir. 2012:
'"In criminal trials the proof offered by the Commonwealth must measure up
to the charge made in the indictment."' Id. (quoting Commonwealth v.Aurick
, 342 Pa. 282, 19 A.2d 920, 924 (1941) Ft. Nt. [7] This principle derives from
the Sixth Amendment of the U.S. Constitution and Article I, § 9 of the
Pennsylvania Constitution, each of which affords an accused person the
Right to be notified of the charges against him. Due process requires that
the notice "set forth the alleged misconduct with particularity." In re Gault,
387 U.S. 1, 33, 87 S.Ct. 1428, 18 L.Ed. 2d 527 (1967) (internal quotation
marks omitted). US v. Resendiz-Ponce, 549 US 102, 2007: Both to provide
fair notice to defendants and to ensure that any conviction would arise out
of the theory of guilt presented to the grand jury, we held that indictments
under § 192 must do more than restate the language of the statute.
Blakely v. Washington, 542 US 296, 2004: @341:
That indictments historically had to charge all of the statutorily labeled
elements of the offense is a proposition on which all can agree. See
Apprendi, supra, at 526-527 ... Neder v. United States, 527 US 1, 8, 1999:
[This case was cited in US v. Lewis, 766 F. 3d 255, 264, 3rd Cir., 2014]:
US v. Weaver, Dist. Court, SD West Virginia 2010:
Indeed, we have found an error to be "structural, 11 and thus subject to
automatic reversal, only in a "very limited class of cases. 11 Turney v Ohio,
273 U.S. 510 (1927) (biased trial judge). [Biased judge issuing a Search
Warrant.]
The omission ofan essential element is fatal to the indictment as the Court
is therefore without jurisdiction to try the defendant on the defective count.
United States v. Hooker, 841 F.2d 1225, 1231&32 (4th Cir. 1988). [my indict
-ment did not specify what the unlawful purpose was as to the 2nd degree
charges.]
US v. Stevenson, 832 F. 3d 412, 41,3rd Cir. 2016; Illinois v. Somerville, 410
US 458,479, 1973; US v. Higgs, 353 F. 3d 281 299, 300, 4th Cir. 2003; Russell v.
A99

United States, 369 US 749, 764, 765, 19625 United States v. Wander, 601 F. 2d
1251, 1258, 12595
Structural error 11 deprive [s] defendants of'basic protections' without which
'a criminal trial cannot reliably serve its function as a vehicle for determina­
tion of guilt or innocence ... and no criminal punishment may be regarded as
fundamentally fair.'"
State v. Hanly, 33 N.J. Super. 549, Superior Court, 1955: @555:
"To resort to presumptions to cure fatally defective indictments would tend
to incalculable evil and oppression, and in effect sanction violations of
constitutional guaranties, namely, of the right of the accused to be informed
of the nature of the accusation against him, and that he shall be tried for the
offense as charged in the indictment by the grand jury. The fragile theory
that a presumption may be raised in aid of an indictment which omits a
constituent element of the statutory crime is shattered by the force
of the familiar inflexible legal rules that no presumption of guilt arises from
the mere finding of an indictment against an accused, and that there is a
presumption of innocence which abides with an accused until his guilt is
established by proof beyond a reasonable doubt" 11* * * A person charged
with a criminal offense by the solemn action of a grand jury is confronted
with a situation involving potentially serious consequences. In such circum­
stances, it is imperative that the indictment fully inform the accused of the
specific crime laid at his door so that he may be afforded every reasonable
opportunity to prepare his defense; a right guaranteed by our Constitution
and grounded in that fundamental fairness of due process of law. The
language of the indictments under
@556:
review does not satisfy the essential requirement of certainty and particular
ity, consistently recognized by our courts,
Cases holding emphatically
to the doctrine that an indictment may leave no material element of its
charge to intendment or implication include State v. Bleichner, 11 N.J.
Super. 542 (App. Div. 1951); State v. Algor, 26 N.J. Super. 527
(App. Div. 1953); State v. Lombardo, 20 N.J. Super. 317, 321 (App. Div.
1952). The language of our Supreme Court in State v. Grothmann,
13 N.J. 90, 94, 97, 98 (1953), merits quotation at length if indictment is
amendable in form but not in substance. The substantive process is exclusiv­
ely the grand jury's under the constitutional limitation cited supra, iKr * * It is
the constitutional right of the accused in a criminal proceeding to be inform­
ed of the nature and cause of the accusation laid to him. * * * It is of the
essence of the right that the accused be informed by the indictment in
certain, definite and. understandable terms of the crime charged to him, to
A100
* * *11

enable him to prepare his defense and to be protected against double
jeopardy. * * * This in its very nature required sufficient particularity to
identify the crime laid to the accused * * * It is requisite that the criminal
act be charged in certain and identifiable form, if the accused is to have the
substance of his constitutional right of defense and the opportunity to
prepare for trial that is basic to that right not to mention the danger of
double jeopardy: and such was not the case here. The course taken by the
trial judge's direction that the indictments be amended) constituted a denial
of the essence of the constitutional guaranty. "
State v. Portney, 229 N.J. Super. 171 (1988):
The complaint must be clear, precise and understandable and the elements
constituting the offense must be described with such precision and clarity to
enable the accused to properly defend himself. Russell v. United States,
369 U.S.177: 749, 82 S.Ct 1038, 8 l.Ed2d 240 (1962),- State v. Doto, 16 N.J.
397, 403 (1954), cert. den. 349 U.S. 912, 75 S.Ct 601, 99 l.Ed 1247 (1954)
(the essence of constitutional right in relation to the sufficiency of an indict­
ment is that the accused be informed by the indictment in certain,
definite and understandable terms of the crime charged to him). It is a well
settled rule that a count in an indictment cannot be utilized for the purpose
of joining separate and distinct offenses even though of a like nature.
State v Week 10 N.J. 355, 375 /1952): State v. Henry, 56 N.J. Super. 1, App.
Div. 1959). See Also State v Hogan, 144 N.J. 216, 229, 1996; State v N.J. Trade
Waste Ass., 96 N.J. 8, 19, 1984; State v Salter, 42 A.3d 196, 203, 2012; State v
Perry, 110 A.3d 122, 132, N.J. App. 2015; State v Wein, 80 N.J. 491, 501, 1979 ...
Indictment should stand unless it is Palpably Deficient. Motor Vehicle
Charges:
State v Roenicke, 174 N.J. Super. 513, 518, Superior Court, law division
1980; State v. VanRiper, 250 N.J.Super 451, 454, NJ: Appellate Div. 1991; State v.
Lisa, 919 A. 2d 145, 160, NJ: Appellate Div. 2007:
Amendment to charges only allowed for lesser charges, [note: In My case the
state indicted me allegedly for 3rd degree crimes but was tried on 2" Degree
and 3rd degree Crimes.]
State v Saavedra, 81 A.3d 693, 697, NJ. App. 2013; State v AR, N.J. App.
A101

f

20145 State v Smolinski, N.J. App. 2015; State v Allah, N.J. App. 2016; State v
Feleciano, N.J. Superior Court, 2016:
Indictment should stand unless it is Manifestly Deficient or Palpably
Defective.[In my Case, the indictment is inappropriate for both grounds in
that the indictment was based on charges that were all 3rd Degree and I was
tried and found guilty of 2nd degree crimes and so sentenced on such.]
In the interest of LB, 99 N.J. Super. 589, 594, I960; State v Mathis, 47 N.J.
455, 461-462, 1966; State v Siciliano, 21 N.J. 249, 252, 1956; State v Talley, 94
N.J. 385, 390, 1983:
Any punishment requires notice of the particulars for Due Process.
U.S. v Torres, 901 F.2d 205, 214, 2nd Cir. 1996; U.S. v Addonizio, 451 F.2d
40, 63, 64, 3rd Cir. 1971; U.S. v Moyer, 624 F.3d 192, 198-199, 202-204, 3rd Cir.
2012; Statev Salter, 42 A.3d 196, 202, 2012; State v RH, NJ.App. 2015:
State must present the defendant with a Bill of Particulars. [I was never
presented with a Bill of Particulars even though I sought one around
August, 1990.]
See Also US v. Lopez, 2 F. 3d 1342, 1368, 5th Cir. 1993:
An indictment that fails to allege a commerce nexus, where such a nexus is a
necessary element of the offense, is defective. See Stirone v. United States,
361 U.S. 212, 216-18, 80 S.Ct. 270, 273, 4 L.Ed.2d 252 (1960) (Hobbs Act);
United States v. Hooker, 841 F.2d 1225, 1227-32 (4th Cir.1988) (en bane}
(RICO); United States v. Moore, 185 F.2d 92, 94 (5th Cir. 1950} (FLSA). This
is true even though the language of section 922(q) contains no such require­
ment. See Russell v. United States, 369 U.S. 749, 763-66, 82 S.Ct. 1038,
1047-48, 8 L.Ed.2d 240 (1962); 2 W. Lafave & J. Israel, Criminal Procedure
§ 19.2, at 452 (1984). Finally, because an indictment, unlike a bill of informa
-tion, cannot be amended, the failure to allege each element is fatal. Cf.
United States v. Garrett, 984 F.2d 1402, 1415 (5th Cir. 1993); United States
v. Mize, 756 F.2d 353, 355-56 (5th Cir.1985).
U.S. v Moyer, 624 F.2d 193, 198-199, 3rd Cir. 2012:
Nestor now challenges both the indictment and his conviction. First, he
contends that the District Court: (l) exceeded its discretion by denying, in
A102

relevant part, his motion for a bill of particulars: (2) erred by refusing to
199:
dismiss Count Two because it was duplicitous; and (3) exceeded its
discretion by refusing to enforce the bill of particulars it did order.
Nestor also contends (4) that the government presented insufficient evidence
to support his conviction; and (5) that 18 U.S.C. § 1519 is unconstitutionally
vague. Moyer argues that the evidence was insufficient to support his convic
-tion under§ 1001. For the reasons that follow, we will affirm.
US v. Prentiss, 256 F. 3d 971, 994, 10th Cir. 2001:
994:
There was no contention that the indictment failed to set forth an essential
element of an offense and thus no allegation of a Fifth Amendment violation.
See United States v. Hooker, 841 F.2d 1225, 1232 (4th Cir.1988) "The
absence of prejudice to the defendant in a traditional sense does not cure a
substantive, jurisdictional defect in an indictment.
US v. Omer, 429 F. 3d 835, 836 9th Cir. 2005:
The first premise was jurisdictional We asserted that an indictment that
admits an element "does not properly allege an offense against the United
States" and thereby "leaves nothing for a petit jury to ratify. " Id at 1180
internal quotation marks omitted). We drew this idea in part from a Fourth
Circuit decision holding that harmless error is inapplicable because the
omission of an essential element deprives the court of jurisdiction: "The
absence of prejudice to the defendant in a traditional sense does not cure a
substantive, jurisdictional defect in an indictment" United States v. Hooker,
841 F.2d 1225, 1232 (4th Cir.1988) (en banc) (emphasis added); see also Du
Bo, 186 F.3d at 1180 (citing Hooker). We also appeared to hold that the
jurisdictional basis for our rule of automatic reversal was supported by
Russell v. United States, 369 U.S. 749, 82 S.Ct. 1038, 8 L.Ed.2d 240 (1962),
and Stirone v. United States, 361 U.S. 212, 80 S.Ct. 270, 4 L.Ed.2d 252,
(i960). See Du Bo, 186 F.3d at 1179-80 (relying on those cases).
US v. Weaver, Dist. Court, SD West Virginia 2010:
The omission of an essential element is fatal to the indictment as the Court
is therefore without jurisdiction to try the defendant on the defective count.
United States v. Hooker, 841 F.2d 1225, 1231&32 (4th Cir. 1988). United
States v. Addonizio, 451 F. 2d 49, 63, 64, 3rd Cir. 1971:
A103

"The purpose of the bill of particulars is to inform the defendant of the
nature of the charges brought against him to adequately prepare his
defense, to
64:
avoid surprise during the trial and to protect him against a second prosecu­
tion for an inadequately described offense." United States v. Tucker, 262
F.Supp. 305, 308 S.O.N. Y. 1966). A bill of particulars should fulfill this
function "when the indictment itself is too vague and indefinite for such
purposes." United States v. Haskin5, 345 F.2d 111, 114 /6th Cir. 1965).
Accord Wyatt v. United States, 388 F.2d 395, 397, 10th Cir. 1968). Illinois v.
Somerville, 410 US 458,479, 1973; US v. Higgs, 353 F. 3d 281 299, 300, 4th
Cir. 2003; Russell v. United States, 369 US 749, 764, 765, 1962; United
States v. Wander, 601 F. 2d 1251, 1258, 1259; US v. Stevenson, 832 F.3d
412, 41,3rd Cir. 2016 [Structural errors require reversal].
Judge Greene did usurp his jurisdiction and/or discretion by trying me on a
defective indictment and did abuse his discretion by allowing all the
Common Law rights and defects of Mr. Reardon’s criminal trial As set out
below. The law took away Judge Greene’s jurisdiction to try me on the 2nd
degree charges that were procured improperly and in violation of the law
and that such defects stripped his jurisdiction from him on the 2nd degree
charges against Mr. Reardon see Page 10 above.
B) Book 4, Chapter 22, Page 293: Probable Cause hearings:
THE justice, before whom such prisoner is brought, is bound immediately to
examine the circumstances of the crime alleged : and to this end by statute 2
& 3 Ph. & M. c. 10. he is to take in writing the examination of such prisoner,
and the information of those who bring him: which, Mr Lambard observes a,
was the first warrant given for the examination of a felon in the English
Law. For, at the common law, nemo tenebatur prodere seipsum ; and his
fault was not to be wrung out of himself, but rather to be discovered by other
means, and other men. If upon this enquiry it manifestly appears, either
that no such crime was committed, or that the suspicion entertained of
the prisoner was wholly groundless, in such cafes only it is lawful totally to
discharge him. Otherwise he must either be committed to prison, or give bail
; that is, put in securities for his appearance...
Gerstein v. Pugh, 420 US 103, 113*116, 1975.
Mr.Reardon was denied his right to a probable cause hearing to test the
state’s case, as to the 2nd degree charges in specific, since the state failed to
A104

present any evidence or basis for the 2nd Degree crime till 17, or more, months
after my arrest, jailing and excessive bail, for which the only valid crime the
state may have had was for 3rd Degree crimes of which the presumption of such
crimes is there is no jail time and $100,000.00 full cash bail for such an offense is
excessive and for which the state failed to lower this bail till October 1991 after I
was jailed for 17 months, lost my job and friends.
C) Book 4, Chapter 23, Page 308: Speedy Trial:
and, at all events, to pay costs, unless the information shall be tried within a
year after issue joined.
Book 4, Chapter 27, Page 346: Speedy Trial:
and therefore it is there usual to try all felons immediately, or soon, after
their arraignment. The plaintiff was arrested and charged with Crimes on
6/20/90 and was not tried till 18 months after his arrest and 17 months after
his arraignment.
The state failed to pay my attorney fees since I was not tried within 1 year.
D) Book 4, Chapter 27, Page 351: Adequate Counsel:
him at the bar, and instruct him what questions to ask, or even to ask
questions for him, with respect to matters of fact: for as to matters of law,
arising on the trial, they are entitled to the assistance of counsel. Defense
Counsel provided failed to (l) ask questions for me>* (2) to instruct me on
what types of questions to ask and (3) did not aide me in the standards of
the law as to my trial and I was never produced with the indictment till
about 15 days before the trial and never given a list of all jurors and
relevant information regarding them as per the common law.
Said counsel also failed to protect and put the state’s Search Warrants being
void to the test for the following reasons:
1. Judge Steinberg could not hear the Search warrant applications of Sgt. A.
L. Simon on 6/20/90 and D. Sgt. Bruce Dawson on 6/29/90 since the judge could not
A105

sit on said applications due to his Adverse Extra-Judicial Contact with Mr.Reardon
and because the 6/29/90 warrant was defective for not only for this reason but
because it was the fruits of the poisonous tree doctrine.
2. He did not inform the court that the only way a warrantless search of a
dwelling for being in accordance with a securing search was that the officer was
required to put forth a basis that evidence could be lost or destroyed if a warrant­
less search was not done and they had nor stated any basis for this since they
knew I live alone and there was no way any evidence could be lost or destroyed
before they got a search warrant. Coolidge v. New Hampshire, 403 US 443, 449460, 464-473, 1971; Segura v United States, 468 U.S. 796, 802-808,1984; Hunnewell v. US, 738 F. Supp. 582, 584, Dist. Court, D. Maine 1990; US v.Estrada, 45 F.
3d 1215, 1220, 8th Cir., 1995; US v. Long Huang You, 198 F. Supp. 2d 393, 402 and
Ft.Nt.13, Dist. Court, SD New York 2002; US v Wurie, 612 F. Supp. 2d 104, ft. nt.
12, Dist. Court, D. Massachusetts 2009; US v. Hudspeth, 518 F.3d 954, 960, 8 th
Cir. 2008[; United States v. Miller, Seciton C thereof, Dist. Court, ED Pennsylvan­
ia 2008; Harman v. Pollock, 586 F. 3d 1254, 1266, 10th Cir. 2009; US v JUDLOWE,
534 F. Supp. 2d 217, 222, Dist. Court, D. Massachusetts 2008; US v. Correa, Dist.,
Section 1, Court, ND Florida 2008J US v. Williams, 574 F. Supp. 2d 530, 548, Dist.
Court, WD Pennsylvania 2008; Seifert v. Rivera, 933 F.Supp. 2d 307, 319, 322,
ist. Court, D. Connecticut 2013; US v. Will, Sections on Sufficiency of Warrant and
Securing of Apartment, Dist. Court, WD Michigan 2013; US v. Denson, Conclusion
of Law Section, Dist. Court, WD Pennsylvania 2010; Cucuta v. New York City, 25
A106

F. Supp. 3d 400, 410, Dist. Court, SD New York 2014; US v. Lamb, Section B, Dist.
Court, ND West Virginia 2010; US v. Estrada,, Section 2, Dist. Court, D. Utah
2012; Whalen v. Lang-fellow, 731 F. Supp. 2d 868, 883, Dist. Court, Minnesota
2010; Flores v. City of Maywood, Dissent Seciton, Court of Appeals, 9th Circuit
2010; US v. Bradley, Reasonable Execution Section, Court of Appeals, 6th Circuit
2012; US v. Bergin, 732 F. Supp. 2d 1235, 1253, Dist. Court, MD Florida 2010; US
v. SZCZERBA,, Par. 6 of Opinion Section, Dist. Court, ED Missouri 2016; Myers v.
AT&T INC., Section I., 3rd Par., Dist. Court, North Carolina 2016; Lawson v.
Hilderbrand, 88 F. Supp. 3d 84, 7th Par. Before Count 2 Secrtion, Dist. Court, D.
Connecticut 2015; Tunnell v. Gill, Section 2., Dist. Court, D. Kansas 2018 and
Karash v. MACHACEK, Section 2, Dist. Court, WD Pennsylvania 2017 andUS v.
Brown, 861 F. Supp. 1415, Dist. Court, ED Wisconsin 1994- And
3. They failed to assert all the rights I have outlined in these papers and
petition.
E) Book 3, Chapter 23, Page 371, 372: Requirements to convict an accused:
For, as they do not allow a less number than two witnesses to, be plena
probation, they call the testimony of one, though never so clear and positive,
emi-plena probatio only, on which no sentence can be founded.
Book 4, Chapter 27, Page 346: Requirements to convict an accused:
shall have not only a copy of the indictment, but a list of all the witnesses to
be produced, and of the jurors impaneled, with their professions and places
of abode, delivered to him ten days before the trial, and in the presence of
two witnesses; [never provided to Mr. Reardon prior to and during the
trial.]
Book 4, Chapter 27, Page 351: Requirements to convict an accused:
A107

and he adds this reason, that the witness who affirms, and the accused who
denies, makes an equal balance; there is a necessity therefore to call in a
third man to incline the scale.1676 Concessions and Agreements of West
New Jersey: See Allstate Insurance Co. Of New Jersey v Lajara, 117 A.3d
1221, 1226, 1227, 1236, 1237, N.J. Supreme Court 2015.
CHAP. XX.
That in all matters and causes, civil and criminal, proof is to be made bv the
solemn and plain averment of at least two honest and reputable persons;
Blackstone’s Commentaries, Book 1, Chapter 1, Page 124;
...principal grounds of the fundamental laws of England, afterwards bv the
statute called mnfirmatio cartarum. whereby, the great charter--Magna
Carta, is directed to he allowed as the common law? all iudememnt contrary
to it are declared void. [The Magna carta says, among other things, Proof is
to be by the testimony of 2 witnesses to the overt act(s), that jury trials are
by ones peers and there shall be no delay in trial under any pretense
whatsoever.]
Deuteronomy 19, Versus 15-16“One witness alone shall not take the stand against a man in regard to any
crime or offense of which he may be guilty; a judicial fact shall be established
only on the testimony of two or three witnesses.”
Mathews 18, Versus 15-16:
“But if thy brother sin against thee, go and show him his fault, between thee
and him alone. If he listen to thee, thou has won thy brother. But if he does
not listen to thee take with thee one or two more so that on the word of two
or three witnesses every word may be confirmed.
Magna Carta of 1215 Article 38; Magna Carta of 1297, Art. 28:
No bailiff for the future shall, upon his own unsupported complaint, put
nyone to his "law", without credible witnesses brought for this purpose.
See also Courts and Lawyers of New Jersey, Pages 124 & 396; Colonial
A108

History of New Jersey, Chpt. 16 and 2 Corinthians 13:1.
Griffin v U.S., 502 U.S. 46, 1991:
58:
The third case cited by Vates, Cramer v. United States, 325 U. S. 1 (1945),
was our first opportunity to interpret the provision of Article Ill, § 3, which
requires, for conviction of treason against the United States, that there be
”two Witnesses to the same overt Act."
59:
Finally, petitioner asserts that the distinction between legal error (Vates)
and insufficiency of proof (Turner) is illusory, since judgments that are not
supported by the requisite minimum of proof are invalid as a matter of law
and indeed, in the criminal law field at least, are constitutionally required to
be set aside. See Jackson v Virginia, 443 U. S. 307, 319 (1979). insufficiency
of proof, in other words, is legal error. This represents a purely semantical
dispute.
I was indicted and tried and convicted on less than 2 witnesses testimony.
F) Book 4, Chapter 27, Page 351*352: Barring of Certain Evidence:
No evidence may be admitted to prove any overt act not expressly laid in the
indictment. [That is, if the person is charged, for example, with possession
with an intent, if the grand jury does not elicit evidence as to what the intent
was, it cannot then be brought into the trial.]
The indictment and trial was defective as stated above and as a result the
state was allowed to submit evidence as to the intent under the 2nd Degree charges
it should not have been allowed to submit. The state was allowed to put forth evi­
dence that the alleged bomb was to be a parcel bomb denying me of notice of the
intent and was allowed to put forth evidence that I intended the bomb to be mailed
to either my ex-wife or my ex-girlfriend or a Judge that I was also not informed of
prior to trial. I was denied the right to prepare a defense to these unclaimed actions
A109

and as to whom they applied.
G) Book 4, Chapter 27, Page 353- Admission of Certain evidence:
...that whatsoever could be brought in favor of the subject should be admitted
to be heard....
Mr. Reardon sought to have his last will and testament admitted at trial as it
listed 2 of the supposed targets of my crime(s) and went to my state of mind being
suicidal and not homicidal and thus would have been useful to theJury.Blackstone's
Commentaries, Introduction to the laws of England, Chapter 1, page 92:
"The judge has no authority to apply the law other than according to its
written word."
IV) Right to challenge void proceedings on the claim of lack of jurisdiction:
Thompson v Whitman, 85 U.S. 457, 466-468, 1873:
Amongst other cases quoted were those of Borden v. Fitch, [$] and Starbuck v.
Murray; [§] and from the latter the following remarks were quoted with
apparent approval. "But it is contended that if the other matter may be plead
•ed bv the defendant he is estopped from asserting anythin? aeainst the
alleeation contained in the record. It imports perfect verity, it is said, and
the parties to it cannot be heard to impeach it. It appears to me that this
proposition assumes the very fact to be established, which is the only
question in issue. For what purpose does the defendant question the
jurisdiction of the court? Solely to show that its proceedings and judgment
are void, and, therefore, the
467:
supposed record is. in truth, no record... . The plaintiffs, in effect, declare to
the defendant. — the paper declared on is a record, because it savs you
appeared, and you appeared because the paper is a record. This is reasoning
in a circle." The subject is adverted to in several subsequent cases in this
court, and generally, ifnot universally, in terms implying acquiescence in the
doctrine stated in D'Arcv v. Ketchum. And in a number ofcases, in which was
questioned the jurisdiction ofa court, whether of the same or another State.
over the general subject-matter in which the particular case adjudicated was
embraced, this court has maintained the same general language. Thus.in
A110

Elliott et al. v. Peirsol et al.ftl it was held that the Circuit Court of the
United States for the District ofKentucky mierht question the jurisdiction of
a countv court of that State to orders certificate ofacknowledgment to
be corrected! and for want ofsuch jurisdiction to regard the order as void.
Justice Trimble, delivering the opinion of this court in that case, said:
"Where a court has jurisdiction, it has a right to decide every question
which occurs in the cause, and whether its decision be correct or otherwise,
its judgment, until reversed, is regarded as binding in every other court. But,
ifit act without authority, its judgments and orders are regarded as nullities.
They are not voidable, but simply void."
The same views were repeated in The United States v Arredondo, [§] Vorhees
v Bank of the United States, [f] Wilcox v. Jackson, t^]] Shriver's Lessee v.
Lynn,[**] Hickey’s Lessee v.Stewart,[f] and Williamson v Berry.[f] In the
last case the authorities are reviewed, and the court say:
nTbe jurisdiction ofany
468:
court exercisine authority over a subject mav he inquired into in every other
court when the proceedings in the former are relied upon and broueht before
the latter bv a nartv claiming the benefit ofsuch proceedings,'" and “the rule
prevails whether the decree or iudsrment has been given in a court ofadmiral­
ty. chancery, ecclesiastical court, or court ofcommon law, or whether the
point ruled has arisen wider the laws ofnations, the practice in chancery, or
the municipal laws ofStates.".....
Hanley v Donoghue, 116 US 1, 4, 5, 1885; Reynolds v Stockton, 140 US 254,264,
265, 1891; Huntington v. Attrill, 146 US 657, 685, 1892; Fauntleroy v. Lum, 210
US 230, 242, 1908; Bigelow v. Old Dominion Copper Mining & Smelting Co., 225
US 111, 134, 1912; Marin v Augedahl, 247 US 142, 151, 1918; Baldwin v. Iowa
State Traveling Men's Assn., 283 US 522, 525, 19315 Williams v. North Carolina,
325 US 226, 228, 1945; New York ex rel. Halvey v. Halvey, 330 US 610, 614, 615,
1947; May v. Anderson, 345 US 528, 533, 1953; Insurance Corp. of Ireland v.
Alll

Compagnie des Bauxites de Guinee, 456 US 694, 701, 1982; Norex Petroleum Ltd.
v. Access Industries, 416 F. 3d 146, 160, 161, 2nd Cir. 2005; TEAMSTERS LOCAL
639 EMP., HEALTH TRUST v. Hileman, 988 F. Supp. 2d 18, 23, Dist. Court, Dist.
Col., 2013; Old Wayne Mut. Life Assn, of Indianapolis v. McDonough, 204 US 8, 1517, 1907 and Scott v. McNeal, 154 U.S. 34, 46
HALL ET AL. v. LANNING ET AL., 91 US 160, 165, 1875:
We further held in that case, that the record of such a judgment does not
estop the parties from demanding such an inquiry.
Grover & Baker Sewing Machine Co. v. Radcliffe, 137 US 287,294,295, 1890:
and notwithstanding the averments in the record of the judgment itself, the
jurisdiction of the court by which a judgment is rendered in any State may be
questioned in a collateral proceeding; that the jurisdiction of a foreign court
over the person or the subject-matter, embraced in the judgment or decree of
such court, is always open to inquiry>
Definition of Inquiry:
Inquiry means an investigation by the stewards of potential interference in a
contest prior to declaring the result of said contest official. Inquiry means
information gathering and initial fact finding to determine whether an
allegation or apparent instance of misconduct warrants an investigation.
Simmons v. Saul, 138 US 439, 448, 1891:
It is the settled doctrine of this court that the constitutional provision that
full faith and credit shall be given in each State to the judicial proceedings of
other States, does not preclude inquiry into the jurisdiction of the court in
which a judgment is rendered over the subject matter or the parties affected
by it, nor into the facts necessary to give such jurisdiction. Thompson v.
Whitman, 18 Wall. 457; Cole v. Cunningham, 133 U.S. 107.
Andrews v. Andrews, 188 US 14, 34, 35, 1903:
"We think it clear that the jurisdiction of the court by which a judgment is
rendered in any State may be questioned in a collateral proceeding in anoth­
er State, notwithstanding the provision of the fourth article of the ConstituA112

tion and the law of 1790, and notwithstanding the averments contained in
the record of the judgment itself.".
Duke v. Durfee, 308 F. 2d 209, 212, 213, 8th Cir. 1962:
It is clearly established, however, that the full faith and credit clause, while
foreclosing repetitious litigation of non-jurisdictional matters, does not pre­
clude a second forum's inquiry into questions of the first court's personal or
subjectmatter jurisdiction. This was the holding of several early Supreme
Court cases. The principle was comprehensively restated in the usually
cited case of Thompson v. Whitman, 1874, 85 U.S. (18 Wall.) 457, 469, 21
L.Ed. 897, and has been perpetuated by later cases including Grover & Baker
Sewing Machine Co. v. Radcliffe, 1890, 137 U.S. 287, 11 S.Ct. 92, 34 L.Ed.
670J Adam v. Saenger, 1938, 303 U.S. 59, 58 S.Ct. 454, 82 L.Ed. 6491
Milliken v. Meyer, 1940, 311 U.S. 457, 61 S.Ct. 339, 85 L.Ed. 278; and
Western Union Telegraph Co. v. Pennsylvania, 1961, 368 U.S. 71, 75, 82
S.Ct. 199, 7 L. Ed.2d 139.
Diva Laboratorium Aktiengesellschaft v. DeLoney & Co., 237 F. Supp. 868, 869,
Dist. Court, Dist. of Columbia, 1965‘It is well settled that the invalidity of judgments for want of jurisdiction may
be asserted at any time in any proceeding during which the judgment comes
into issue. The classic case on this point is Thompson v. Whitman, 18 Wall.
457, 85 U.S. 457, 21 L.Ed. 897 (1873).
Whitmore v. Tarr, 318 F. Supp. 1279, Dist. Court, D. Nebraska 1970:
1283:
Narrowly speaking, it may be true that the judgment of a court is assailable
for want of jurisdiction over the subject matter at any time the judgment
1284:
is sought to be enforced. Thompson v. Whitman, 18 Wall. 457, 85 U.S. 457, 21
L.Ed. 897 (1873).
US v. Bigford, 365 F. 3d 859, 865, 10th Cir. 2004:
A judgment may therefore be attacked in a collateral proceeding in another
jurisdiction on the basis that it was rendered without jurisdiction. [2] Durfee
v. Duke, 375 U.S. 106, 110, 84 S.Ct. 242, 11 L.Ed.2d 186 (1963); Pennoyer v.
A113

Neff, 95 U.S. 714, 730*33, 24 L.Ed. 565 (1877), overruled on other grounds by
Shaffer v. Heitner, 433 U.S. 186, 97 S.Ct. 2569, 53 L.Ed.2d 683 (1977);
Thompson v. Whitman, 18 Wall. 457, 85 U.S. 457, 469, 21 L.Ed. 897 (1873);
see also Ins. Corp. of Ireland, Ltd. v. Compagnie des Bauxites de
Guinee, 456 U.S. 694, 706, 102 S.Ct. 2099, 72 L.Ed. 2d 492 (1982) ("A
defendant is always free to ignore the judicial proceedings, risk a default
judgment, and then challenge that judgment on jurisdictional grounds in a
collateral proceeding. "); United States v. Thompson, 941 F.2d 1074, 1080
(10th Cir.1991) ("Only void judgments are subject to collateral attack."); First
Natl Bank & Trust Co. of Wyo. v. Lawing, 731 F.2d 680, 684
(10th Cir. 1984) (quoting Ins. Corp. of Ireland, 456 U.S. at 706, 102 S.Ct.
2099); V.T.A., Inc. v. Airco, Inc., 597 F.2d 220, 224 n. 9.10th Cir.1979 ("[I]f a
judgment is void, it is a nullity from the outset."); United States v. Indoor
Cultivation Equip. From High Tech Indoor Garden Supply, 55 F.3d 1311,
1317 (7th Cir. 1995) ("[V]oid judgments are legal nullities!.]"); Rodd v. Region
Constr. Co., 783 F.2d 89, 91 (7th Cir.1986) ("[A] void judgment is no judg­
ment at all."); Jones v. Giles, 741 F.2d 245, 248 (9th Cir. 1984) ("Avoid
judgment, as opposed to an erroneous one, is legally ineffective from
inception."); Jordon v. Gilligan, 500 F.2d 701, 704 (6th Cir.1974) ("A
void judgment is a legal nullity!.]").
Morrell v. Mock, 270 F. 3d 1090, 1096, 7th Cir. 2001:
Morrell next relies on cases holding that the Due Process Clause establishes
limits on the rendering state's exercise of jurisdiction over non-residents, and
that judgments entered beyond those limits are void and may not be enforced
in that state or in any other, see, e.g., Williams, 325 U.S. at 229*30, 65 S.Ct.
1092; Pennoyer v. Neff, 95 U.S. 714, 720*23, 5 Otto 714, 24 L.Ed. 565 (1877),
and on the principle that a defendant challenging a court's jurisdiction may
ignore the court's proceedings, risk a default judgment, and resist enforce­
ment in a collateral attack on the first court's jurisdiction. See, e.g., Williams,
325 U.S. at 229*31, 65 S.Ct. 1092; Chicago Life Ins. Co. v. Cherry, 244 U.S.
25, 29, 37 S.Ct. 492, 61 L.Ed. 966 (1917); Thompson v. Whitman, 18 Wall.
457, 85 U.S. 457, 469, 21 L.Ed. 897 (1873); Bd. of Trs., Sheet Metal Workers'
Nat'l Pension Fund v. Elite Erectors, Inc., 212 F.3d 1031, 1034*35 (7th Cir.
2000); United States v. County of Cook, 167 F.3d 381, 388 (7th Cir.1999)
(observing that the exception from res judicata for collateral attacks challeng
*ing jurisdiction is necessary "because otherwise a court that lacked jurisdic­
tion could strong-arm a party to litigate the subject, decide in favor of its own
power, and thus block any review of its adjudicatory competence.").[3] Again,
however, these cases do not establish any particular procedure that must be
followed by a state asked to enforce another state's order, and do not hold
that notice and a hearing on the question of the rendering state's jurisdiction
must in all cases precede enforcement.
A114

Jackson v. FIE Corp., 302 F. 3d 515, 526, 527, 5th Cir. 2002:
The question before the Supreme Court was ”whether the record [of the New
Jersey case]produced by the defendant was conclusive of the jurisdictional
facts therein
527:
contained." [42] The Court determined that the principal jurisdictional fact —
whether the sloop had been seized in Monmouth County — could be attacked
collaterally in the New York court-'
[I]f it is once conceded that the validity of a judgment may be attack­
ed collaterally by evidence showing that the court had no jurisdiction, it is
not perceived how any allegation contained in the record itself, however
strongly made, can affect the right so to question it. The very object of the
evidence is to invalidate the paper as a record. If that can be successfully
done no statements contained therein have any force.[43] Because the New
York jury had found that "the seizure was not made within the limits of the
county of Monmouth, and that no clams were raked within the county on that
day,"[44] the Supreme Court ruled that "the justices [of Monmouth County]
had no jurisdiction, and the record had no validity."[45] Having held the New
Jersey judgment to be invalid for want of jurisdiction, the Court did not
remark on this result's tension with principles of preclusion, or on whether
the New York court permissibly re-examined the merits of the New Jersey
judgment.
Pennoyer v Neff, 95 US 714, 1877:
728:

If the judgment be previously void, it will not become valid by the subsequent
discovery of property of the defendant, or by his subsequent acquisition of it.
The judgment if void when rendered, will always remain void: it cannot
occupy the doubtful position of being valid if property be found.
Melo v Hafer, 13 F. 3d 736, 744, 3rd Cir. 1994, Hafer v Melo, 502 U.S. 21,27, 1994:
First, a judge is not immune from liability for nonjudicial actions, i.e., actions
not taken in the judge's judicial capacity. Second, a iudse is not immune for
actions, though judicial in nature, taken in the complete absence ofall juris­
diction. Mireles. 502 US. at 11-12. 112 S.Ct. 286 (citations omitted); see also
Barnes. 105F3dat 1116 (same).
A115

V) Right to, at minimum, Equity relief when a judge lacks, loses or usurps
his jurisdiction and/or discretion, he is not immune for at least Equity relief for
which Mr. Reardon sought an order in accordance with Thompson v Whitman, 85
U.S. 457, 466-468, 1873 and the following case law. This Affidavit.
Basis for, at minimum, Liability for Equity relief; Pierson v. Ray, 386 US
547, 561*563, 565*567, 1967; Bradley v Fisher, 80 U.S. 335, 351, 352, 1872; Mireles
v Waco, 502 US 9, 11, 12, 1991; Kalina v. Fletcher, 522 US 118, Ft. Nt.s 11 and 13,
1997; Martin v. Bicking, 30 F. Supp. 2d 511, 512, Dist. Court, ED Pennsylvania
1998; Figueroa v. Blackburn, 39 F. Supp. 2d 479, 485, Dist. Court, D. New Jersey
1999; Travis v. Miller, 226 F. Supp. 2d 663, 667, Dist. Court, ED Pennsylvania
2002; Stankowski v. Farley, 487 F. Supp. 2d 543, 551, Dist. Court, MD Pennsylvan­
ia 2007; Rehberg v. Paulk, 132 S. Ct. 1497, 1503, 2012; Russell v Richardson, 905
F.3d 239, 247, 3rd Cir. 2018 and Rhett v. Salas, Dist. Court, D. New Jersey 2019.
Al-16, 21-40.
If no other reason, I rely on the Dissenting opinion in Pierson v Ray, 386
U.S. 547, 566, 567, 1967 which found:
But that is far different from saying that a judge shall be immune from the
consequences of any of his judicial actions, and that he shall not be liable for
the knowing and intentional deprivation of a person’s civil rights. What
about the judge who conspires with local law enforcement officers to
"railroad" a dissenter? What about the judge who knowingly turns a trial into
a "kangaroo" court? Or one who intentionally flouts the
567:
Constitution in order to obtain a conviction? Congress, I think, concluded
that the evils of allowing intentional, knowing deprivations of civil rights to
go unredressed far outweighed the speculative inhibiting effects which might
attend an inquiry into a judicial deprivation of civil rights.
A116

VI) Appearance of Bias by Judge HillmanJudge Hillman has simply found the defendants are judges and prosecutors
and are entitle to absolute and Judicial Immunity contrary to the well settled laws
he is fully aware of and familiar with but has decided I am not to be granted the
same consideration as those who are represented by counsel. He is fully aware of
this court’s decision if Hafer v Melo, 502 U,.S. 21, 27, 1994 and that equity relief is
available against all state defendants and he failed to knowingly comply with said
case law and my rights thereunder. A33-41.
Judge Hillman admits he is to take true all pleaded facts and the Mr.Reardon
did repeatedly claim the defendants lacked, lost or usurped their jurisdiction and/or
discretion which means that they cannot simply claim immunity of any type but
must show and prove this claim and Judge Hillman failed to require the defendants
to so do that and the defendants failed to show that in accordance with Buckley v
Fitzsimmons, 509 U.S. 259, 269, 1993 and Hughes v Long, 242 F.3d 121, 125, 3rd
Cir. 2001.
The function in question is and was, under what legal and factual standard
and right do the defendants contend they have jurisdiction and/or discretion
to not comply with the Common Law mandate placed upon them that holds
that they cannot refuse to comply with the common law on the issues cited
above as per Mr. Blackstone and the U.S. Supreme Court cases of In United
States v. Wong Kim Ark, 169 U. S. 649, 654:
'Tn this as in other respects, it must be interpreted in the light of the common
law, the principles and history of which were familiarly known to the framers
of the Constitution.
Schick v U.S. 195 U.S. @ 69; Chisholm v Georgia, 2 U.S. (Dali) 419, 4355 Solemn v
Helm, 463 U.S. 277, 286; Joseph Story’s Constitutional Commentaries,Page
A117

5 (1833):
Blackstone’s commentaries are accepted as the most satisfactory exposition of
the common law of England.... undoubtedly the framers of the Constitution
were familiar with it.
Joseph Story’s Constitutional Commentaries, Volume 1, Page 140:
Sec. 157...And.... that the common law is our birthright and inbsritflnreVII) Judge Steinberg failed to carry out a Ministerial act of recording or
summarizing the warrant applications of Sgt. A. L. Simon on 6/20/90 and Det. Sgt.
Bruce Dawson on 6/29/90 contrary to the Appellate Court’s mandate in M.P. v
S.P.,169 N.J. Super. 425, 441*443, 19795 Muller v. Muller, NJ: Appellate Div. 2011.
I was denied Due Process as per these cases in that I could not adequately
ascertain the validity of the Police Officer’s affidavit and for which as to Sgt.
A. L. Simon, there was a clear lack of any facts or allegations that there was
someone within my apartment that could destroy or remove evidence if an un
-warranted search was not done and that Det. Sgt. Dawson’s search was
defective likewise and was also the fruits of the poisonous tree doctrine. The
Police knew I lived alone.
In Mr. Reardon’s case below, Judge Hillman denied me the right to inquire
into the claim of lack of, loss of or usurpation of Jurisdiction and/or discretion by
simply finding that the defendants are judges and prosecutors and they are abso­
lutely immune for any lawsuit on any claim of facts for which the above law clearly
says the opposite.
We the undersigned, having read these papers, and the Attempts to Amend
his lawsuit, agrees with Mr. Reardon as to the following issues:
1. Judge Hillman was biased and denied Mr.Reardon his right to inquire into
the claim of lack of jurisdiction that the court cannot deny;
2. That at a Rule 12(b) matter, which is a plenary issue, Mr. Reardon did
state sufficient basis in law and fact that the defendants appear to be liable for
lack of, loss of or usurpation of Jurisdiction and/or discretion.
3. That Mr. Reardon did clearly lay a foundation for the lawsuit against the
A118

state defendants and Judge Hillman did abuse his discretion by denying Mr.
Reardon a right to discovery as found and permitted in the cases of Figueroa v.
Blackburn, 208 F. 3d 435, 3rd Cir. 1999 and Figueroa v. Blackburn, 39 F. Supp. 2d
779, Dist. Court,D. New Jersey 1999.
4. That Judge Hillman did obviously show bias by merely claiming the state
defendants were absolutely immune when the clear law is that if Jurisdiction is
asserted, as to lacking that, the defendants were required to “show—to make clear
and apparent by evidence, to prove” which the defendants were not required to so
prove this in Mr. Reardon’s lawsuit as per Buckley v Fitzsimmons, 509 U.S. 259,
269, 1993 and Hughes v Long, 242 F.3d 121, 125, 3rd Cir. 2001:
The official seeking immunity bears the burden of showing that it is justified
by the function in question.
Mr. Reardon clearly laid out a basis as to lack of Jurisdiction of the defend­
ants and the defendants only laid claim to sovereign, judicial and absolute immun­
ity based solely on their official positions.
Where the court granted the represented plaintiff the right to discovery in
said lawsuit since they alleged the Judge lacked jurisdiction and for which Judge
Hillman refused and failed, as did the 3rd Cr. Court of Appeals, to grant Mr.
Reardon the same rights and considerations under the law as the mentioned
plaintiff and their lawsuit, he did in fact discriminate against Mr. Reardon as per:
National Life Insurance Co. v United States, 277 U.S. 508, 530, 1928 and
Jackson v Birmingham Brd. Of Ed., 544U.S. 167, 174, 2005 which held that
“Discrimination is different treatment of 2 things or persons under similar
circumstances” and since Mr. Reardon challenged the jurisdiction of the defendants
and was denied the right to inquire into said jurisdictional issues as Figueroa v.
Blackburn, Mr. Reardon was in fact discriminated against, as per our understand­
ing of the case laws as per Juzwin v Asbestos Corp. Supra, as we understand the
A119

law cited in this document.
5. That Judge Steinberg was required to recuse himself Sua Sponte and not
hear the Search Warrant Applications of Sgt. A. L. Simon and Det.Sgt. Bruce
Dawson for the appearance of justice sake, that he should have transferred Mr.
Reardon’s criminal Charges to another County and that he should not have assign­
ed any Camden County Judge authority to try Mr. Reardon in Camden County.
Based both on the law in this document and the 1990 Order of fellow Judge
Rudolph Rossetti.
6. That Judge Greene was fully Aware of the fact that I had lawsuit filed
against Judge Steinberg prior to 1990, that the indictment was defective as set out
above and that it was required to be superceded by a new indictment as to the 2nd
degree crimes and was not so done, and that the law is that he lacked jurisdiction
to hear and try Mr. Reardon on the 2nd degree crimes he was tried and convicted on.
7. Both Judges were required to recuse themselves Sua Sponte and they fail­
ed to do that which caused them to lose jurisdiction and/or discretion and making
them liable.
8. All PCR and Appellate Court judges also lacked jurisdiction and/or discre­
tion to refuse to set aside the void orders and proceedings of Judges Steinberg and
Greene as they were barred from validating said void order that we agree under the
circumstances here were in fact void.
9. Judge Steinberg is also liable as per Antoine v Byers and Bogan v ScottHarris Supra on the grounds that the appellate court entered a mandate to all trial
judges that all proceedings before a judge, regardless of where they occur are requir
-ed to be recorded, transcribed or summarized and Judge Steinberg Heard 2 Search
warrant applications against Mr. Reardon and failed to do as required by the Man­
date set out by the Appellate Court.
10. Sgt. Simon and Judge Steinberg were codefendants in a federal Lawsuit
A120

by me back in 1888 and 1989. Sgt,.Simon had about a dozen different Judge he
could have approached for his search warrant but he knew there was no legal and
permissible right to do a securing the dwelling warrantless search of my apartment
since they knew I lived alone and that there was no way any evidence could be
destroyed or removed and because of this he sought out Judge Steinberg who he
knew would give him his baseless and meritless search warrant as he knew Judge
Steinberg would be willing to get back at Mr. Reardon for having sued him in feder­
al court and Judge Steinberg did give him his baseless search warrant. Based on
the federal case law on securing a dwelling warrantless Search is prohibited.
11. Mr. Reardon did list all of the following acts that the district Court has jurisdic­
tion of and over and they are:
A. To allow an inquiry into the jurisdiction of the state judges as alleged and
Supported by the case laws cited in this paper;
B. To hear and decide all issues relating to the void proceedings of the State;
C. For the lack of jurisdiction and/or discretion of the State judges failures to
comply with the Common Law mandate and Common Law rights and remedies;
D. To issue a certificate of correction directed to the State to correct my
criminal proceedings as void for loss of jurisdiction;
E. For injunctive relief to bar any of the defend- ant judges from ever enforc­
ing any case that touches on the issues and rights of this case as to any future
ciminal defendant;
F. For Costs relief! and
G. For damages since the defendants lacked, lost or ursurped their jurisdic­
tion and/or discretion for which the well settled law is clear that if a judge lacks
jurisdiction or discretion he can be sued for damages.
12. Mr. Reardon’s lawsuit and attempted amendments did allege that the
defendants lacked, lost or usurped their jurisdiction and/or discretion and for
A121

A

which the clear and well settled law is that they can be sued, that they failed to
comply with the common law mandate placed upon them that makes certain func­
tions of a judge or other official a ministerial task that they can be held liable for if
the do not comply or abide by this mandate and that Mr. Reardon made this clear
in his lawsuit and attempts to amend.
13. That Judge Hillman has relied heavily on the state court proceedings as a
based for his findings of immunity when the clear and long settled law dating back
to 1873 is that when jurisdiction is challenged the court cannot rely on anything
from the challenged proceedings to controvert the inquiry into the issues of jurisdic­
tion and/or discretion and Judge Hillam went on a rant about the state proceedings
as though he had decided that he has the right to so find the challenged proceedings
are and were above board.
14. Judge Hillman has misapplied the fac in that he has claimed I have ask­
ed the court to settle my criminal case based upon the proceedings in the state as
though I was raising issue with him that I was asking the court to set aside my
conviction based on the violation of constitutional rights when that was and is not
the case. I am not a sore loser asking the court to rule contrary to the criminal
proceedings that I was convicted on and for him to thus review my conviction. I was
not seeking review of Judge Hillman to so set aside my conviction but instead was
seeking the relief that is available under Thompson v Whitman Supra and as to the
defendants being liable for not complying with a Common Law mandate that stripp
-ed the defendants of all jurisdiction and/or discretion mak -ing them liable and
Judge Hillman has issued an erroneous judgment so as to make it appear that I am
seeking relief that I know I can not acquire as per Heck v Humphrey or RookerFeldman but is instead valid under the case law and Common law remedies and
rights listed in this paper that the court has jurisdiction to hear and decide. In fact
if the court refuses to so accept jurisdiction it will deny me of notice and right to
A122

be heard on my valid issues and claims and thus denying me of my right to be
heard and for which voids his opinion and would be unenforceable under Rule 60(b)
(4) of the federal Rules f civil procedure. What Judge Hillman has done is to turn a
factual dispute into a legal dispute so that he can make me look like I don’t know
what am talking about so as to deny me the qual protections of the law and to a fair
hearing when I have clearly laid out clear factual and legal claims as to the claims
in reference to jurisdictional defect and remdies and law and rights. Judge Hillman
has no right at a plenary stage to making a final judgment of the facts without first
giving me the right to inquired into the issues of jurisdiction and/or discretion but
he has decided that despite citing appropriate case laws as to what he is required to
do he has then went on to say that the criminal proceedings were above board and
proper, that there is and was no right to question them and thus I have no claim
that they were and are void. He has done exactly what the case laws prevents him
from doing and that is to rule on he state proceedings as being carried out and valid
and thus I am not entitled to challenge the validity of said proceedings by denying
me of my right to inquire into my claims and by him negating the very challenge
and right to inquire into the proceedings being void and thus into denying me to
seek and obtain evidence as to the allegations made. He has placed the defendants
above the law and right to challenge said actions by the defendants which is what
the long line of case under Thompson v Whitman bars the court from doing.
15. The law cited in this paper is clear that there is a right to challenge the
jurisdiction and/or discretion of the defendants; that it cannot controvert the right
to challenge said conduct; that there is no Res Judicata or estoppel defenses for the
challenge I am making as to jurisdictional defects and that I am not asking the to
settle the disputes between myself and the state defendants and would be a RookerFeldman bar; and I am not asking in this case to grant me damages on the claims
that the state proceedings are in violation of my Constitutional Rights and thus
A123

seeking to overturn my State Conviction which in effect is a malicious prosecution
type lawsuit that in effect seeks to overturn my state conviction for constitutional
rights violations. Judge Hillman has misread the reliance on and stating of the
claims of violations of rights as the only reasons they were raised was not to ask the
court to pass judgment on them but was cited as to prove abuse of process)' conspir­
acy to injure me! To show that the defendants have engaged in a long line of viola­
tions to punish me for having dared to sue judges and prosecutors for damages pro
se and to teach me a lesson for such suits and to demonstrate who supposedly has
the power.
16. The State failed to provide adequate Counsel who would protect me and
my rights and to do so zealously and to put the state’s case to the test.
17. Mr. Reardon did state the defendants did intentionally deprive Mr.
Reardon of his rights and he should be granted, at minimum, an order of correction
requiring the state to place in their records that the state lacked subject matter
jurisdiction over the trial of Mr. Reardon in Camden County.
We the undersigned, have read these papers, and the allegations made by
Mr. Reardon in his lawsuit against the defendants named there in and we do
agree that they were not entitled to claim immunity for the conduct claimed in
these papers and Civil Lawsuit facts alleged by Mr. Reardon.
We the undersigned do hereby state, attest and affirm before Almighty God
as our witness that we have read these papers and the lawsuit of Mr. Reardon
and agree with his conclusions of Judge Hillman’s abuse of discretion, error and
denial of Mr. Reardon’s Rights to “inquire into the jurisdiction of the defendants”
for which he has an absolute right to do under the law he has presented to us and
that we may be punished under the law if we have willfully and materially mislead
the Court.
A124

Dated:

Martin Acklev
Martin Ackley
Sabrina Hines
Sabrina Hmes
Francis Maloney
Francis Maloney

Dated:
Dated:

A125

A

Relevant issues to to service and appearancesThe clerk denied Default Judgment on the claim I failed to submit an affidavit as
to, I presume, damages, but allowed defendants the right to move for relief without
affidavits to support their motion to appear or vacate or for sanctions.
Name
Service date
Murphy
7/23/18
Grewal
7/23/18
Fulton
7/23/18
McFeeley
7/20/18
Zane
7/20/18
Singley
7/30/18
MorelH
7/30/18
McCrink
7/26/18
Trabosh
7/25/18
Zonies
8/2/18
Viola
7/26/18
Gleaner
7/30/18
Peterson
7/18/18
Long
7/20/18
Joyce
7/25/18
Gindele
7/20/18
Luongo
8/3/18
DeMichele 7/26/18
Dougherty 8/2/18
8/2/18
Addiego
Beach
8/1/18
Madden
8/1/18
Gregg
8/2/18
Howarth
8/2/18

Default Date
8/13/18
8/13/18
8/13/18
8/10/18
8/10/18
8/20/18
8/20/18
8/16/18
8/15/18
8/23/18
8/16/18
8/20/18
8/8/18
8/10/18
8/15/18
8/10/18
8/24/18
816/18
8/23/18
8/23/18
8/22/18
8/22/18
8/23/18
8/23/18

req. Default
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18
8/28/18

Request for extension of Time
Judge Singley
Judge Trabosh
Judge Zonies
Judge Zane
Mr. Viola
Mr. Peterson
Mr. Joyce
Mr. Gleaner
Mr. Luongo
Mr. Dougherty
Ms. Addiego, Senator

10/2/18
10/2/18

10/2/18

Appearance

Motions
9/26/18
9/26/18
9/26/18

11/6/18
11/6/18
11/6/18
11/6/18

11/6/18

11/19/18
11/8/18
11/19/18
11/19/18
11/19/18
11/19/18
11/19/18
11/19/18

11/6/18

11/19/18

11/6/18

11/19/18
11/16/18

11/19/18

Request for Sanctions
12/10/18
12/10/18
12/10/18
12/10/18
12/10/18
12/10/18
12/10/18
12/10/18
12/10/18
12/10/18
12/10/18

Default times range from 5-20 days; Appearance range from never to 39-75
days; Motions range from never to 44-121 days. The court is failing to require the
defendants to defend themselves and a in dire default.
A126

/

April 27, 2020
Judge R. Kugler
U.S. District Court
C/O P.O. Box 12797
Camden, N.J. 08101
RE: John E. Reardon v State of New Jersey, et al
Case No. i:i7-cv-05868
RECEIVED
APR 29 2020
John E. Reardon v Judge Zonies,et al
Case No. i:i8*cv-11372
Dear Judge Kugler,
AT8.:30 M
WILLIAM T. WALSH - CLERK
Please find that after long consideration of the court's animus against this
prose plaintiff that you do not intend to protect me and my rights and whereas it is
apparent that I am simply pissing in the wind, please note that I am asking the
court to dismiss the above 2 referenced cases. Thank You.
Very Truly Yours,

John E. Reardon
CC: Daveon Gilchrist, Dean Wittman, Eric Riso and A. Michael Barker.

A127

/

